<html>
<title> - [H.A.S.C. No. 112-111]FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR MISSILE DEFENSE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-111]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

     FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST

                          FOR MISSILE DEFENSE

                               __________

                              HEARING HELD
                             MARCH 6, 2012




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                      U.S. GOVERNMENT PRINTING OFFICE

  73-437                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d2a3d220d2e383e392528213d632e222063">[email&#160;protected]</a>  




                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                Tim Morrison, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                      Aaron Falk, Staff Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Tuesday, March 6, 2012, Fiscal Year 2013 National Defense 
  Authorization Budget Request for Missile Defense...............     1

Appendix:

Tuesday, March 6, 2012...........................................    33
                              ----------                              

                         TUESDAY, MARCH 6, 2012
  FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                            MISSILE DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Strategic Forces.......................     5
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Ahern, David G., Deputy Assistant Secretary of Defense, Portfolio 
  Systems Acquisition, Office of the Under Secretary of Defense 
  for Acquisition, Technology, and Logistics.....................    11
Gilmore, Hon. J. Michael, Director, Operational Test and 
  Evaluation, Office of the Secretary of Defense.................    13
O'Reilly, LTG Patrick, USA, Director, Missile Defense Agency.....     9
Roberts, Dr. Bradley H., Deputy Assistant Secretary of Defense, 
  Nuclear and Missile Defense Policy, Office of the Secretary of 
  Defense........................................................     7

                                APPENDIX

Prepared Statements:

    Ahern, David G...............................................    72
    Gilmore, Hon. J. Michael.....................................    84
    O'Reilly, LTG Patrick........................................    57
    Roberts, Dr. Bradley H.......................................    45
    Sanchez, Hon. Loretta........................................    43
    Turner, Hon. Michael.........................................    37

Documents Submitted for the Record:

    Seven Slides Used by Mr. Turner..............................    99
    November 18, 2011, Letter from Mr. Turner and Mr. Sessions to 
      Mr. Kendall................................................   107
    February 12, 2012, Letter from Mr. Kendall to Mr. Turner.....   109
    November 17, 2011, Letter from Members of the Subcommittee on 
      Strategic Forces to Secretary Panetta......................   110
    January 23, 2012, Letter from James Miller to Mr. Turner.....   112
    November 23, 2011, Letter from Mr. Turner to Secretary 
      Panetta....................................................   114
    December 12, 2011, Letter from Secretary Panetta to Mr. 
      Turner.....................................................   116
    December 29, 2011, Letter from Christine Fox to Mr. Turner...   117
    Status of Morale at MDA......................................   118
    SBX Annual Cost Breakdown FY06-FY13..........................   125
    PB13 Aegis BMD SM-3 Missile Buy-Deliver Plan.................   126
    FY 2009-2013 [MDA] Major Accomplishments and Changes.........   127

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................   153
    Mr. Heinrich.................................................   161
    Mr. Langevin.................................................   156
    Ms. Sanchez..................................................   144
    Mr. Turner...................................................   131
 
  FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                            MISSILE DEFENSE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                            Washington, DC, Tuesday, March 6, 2012.
    The subcommittee met, pursuant to call, at 3:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Good afternoon. I want to welcome everyone to 
today's hearing on the fiscal year 2013 national defense 
authorization budget request for missile defense.
    We have a great team of witnesses today for this important 
topic. We have the Honorable Brad Roberts, Deputy Assistant 
Secretary of Defense for Nuclear and Missile Defense Policy, 
U.S. Department of Defense.
    We have General Patrick O'Reilly, director of the Missile 
Defense Agency.
    General, I note that this will be your last appearance 
before us, as your term is up this December. We thank you for 
your 22 years of service to the United States. And General, I 
hope that you will always think fondly of the times that you 
have been before us. We appreciate your dedication and 
certainly your hard work.
    We have the Honorable Michael Gilmore, Director, 
Operational Test and Evaluation, Office of the Secretary of 
Defense.
    We have Mr. David Ahern, Deputy Assistant Secretary of 
Defense, Strategic and Tactical Systems, Office of the Under 
Secretary of Defense for Acquisition, Technology, and 
Logistics.
    Since entering office, the Obama administration has 
demonstrated a lack of interest, quite frankly, and support for 
missile defense, specifically the defense of the homeland of 
the United States. In its first budget submission to Congress, 
President Obama slashed $1.16 billion out of the missile 
defense budget, more than a 10 percent reduction in one single 
year.
    If you turn your attention to the screen, you will see the 
fiscal year 2009 Future Year's Defense Plan, the FYDP, from the 
Bush administration, slide one, and the fiscal year 2010, FYDP, 
fiscal year defense plan from the Obama administration, slide 
two. The President's fiscal year 2013 submission is, in fact, 
lower than the President's own fiscal year 2010 budget request 
by over $100 million, slide three.
    [The slides referred to can be found in the Appendix 
beginning on page 99.]
    Mr. Turner. Remember, slide one shows that the fiscal year 
2010 request from the Obama administration was $1.6 billion 
less than the previous President recommended, and slide two 
shows it was less even than President Obama's only budget 
request for fiscal year 2010.
    What's more, the Missile Defense Agency fiscal year 2013 
FYDP projection for fiscal year 2013 to 2016 is $3.6 billion 
less than even President Obama's fiscal year 2012 fiscal year 
defense plan projection for fiscal year 2013 to 2016 just last 
year and is $2 billion less than the previous administration's 
projection for fiscal year 2013. [See slide 4, Appendix page 
102.]
    And, where the President has requested support for missile 
defense, it has been to support regional missile defenses, to 
the exclusion of national missile defense. According to the MDA 
[Missile Defense Agency] budget charts, the United States and 
the Obama administration will spend approximately $4 or $5 on 
regional missile defense, including the European Phased 
Adaptive Approach, EPAA, for every $1 on national missile 
defense. This trend continues over the FYDP, slides five and 
six. That is a ratio, again, of $4 or $5 for regional for every 
$1 for national missile defense.
    Let me give a caveat to say that every one of these slides 
comes right from the MDA or MDA numbers, the Missile Defense 
Agency, other than slide six, which was put together by staff 
based on the MDA budget outline breakdowns for fiscal year 
2013.
    I note the so-called hedge we see on line five is the IIB 
[Standard Missile 3 Block IIB] and PTSS [Precision Tracking 
Space System] systems, which the MDA budget outlined for fiscal 
year 2013 labels an EPAA [European Phased Adaptive Approach] 
regional contributor, on slide seven.
    [The slides referred to can be found in the Appendix 
beginning on page 103.]
    Mr. Turner. As we know, the administration is contributing 
the EPAA to NATO free of charge. Such a contribution could cost 
the U.S. as much as $8.5 billion over the course of the FYDP 
fiscal year 2013 to 2017, possibly even more. According to the 
GAO, responding to a request regarding the EPAA from Mr. 
Langevin and me in 2009, the response was, ``the limited 
visibility into the cost and schedule for EPAA reflect the 
oversight challenges with the acquisition of missile defense 
capabilities that we have previously reported.''
    Senator Sessions and I were concerned enough about these 
challenges related to the EPAA that we wrote to Mr. Frank 
Kendall, the President's nominee for the Under Secretary of 
Defense for Acquisition, Technology and Logistics, in November 
of last year to ask for help in remedying what GAO has found 
concerning an inability to cost or to provide costs for the 
EPAA system.
    And I am going to ask that this letter be placed into the 
record.
    [The information referred to can be found in the Appendix 
on page 107.]
    Mr. Turner. Three months later, less than 3 weeks ago, we 
were told that DOD would work to develop such a cost. I hope 
so, but I also understand that we won't have it until July. 
Still troubling, as we continue to ask for these numbers.
    [The information referred to can be found in the Appendix 
on page 109.]
    Mr. Turner. We need these costs because if we look ahead to 
the budget, we have to understand how we are helping the 
administration deliver on what it says is the number one 
priority, which is the defense of the homeland. I have to say, 
I am not sure how we are going about doing this in this budget.
    The final budget of the previous administration, the fiscal 
year 2009 budget request, requested $1.5 billion for national 
missile defense, the Ground-based Midcourse Defense, GMD, 
system. But the President's budget request fiscal year 2013 
seeks $900 million, $260 million less than the fiscal year 2012 
request, which was itself a decrease of $185 million from 
fiscal year 2011.
    At the same time, we have had two test failures of the GMD 
system, and I understand that we won't see return flight tests 
for the CE2 kill vehicle for 2 months more than projected, to 
July 2012, and the return to flight intercept tests for the CE2 
kill vehicle will be delayed 3 months, to December 2012.
    Yet the nuclear missile programs of Iran and North Korea 
continue to expand. Secretary Gates referenced a potential new 
North Korean mobile Intercontinental Ballistic Missile in June 
of 2011 at the Shangri-La conference saying, with the continued 
development of long-range missiles and potentially a road-
mobile Intercontinental Ballistic Missile and their continued 
development of nuclear weapons, North Korea is in the process 
of becoming a direct threat to the United States. A road-mobile 
Intercontinental Ballistic Missile [ICBM] would be a profound 
leap forward in North Korea's ballistic missile technology.
    I remind my colleagues of the classified briefing that we 
had on the subject just last November.
    Yet we cut GMD. And General O'Reilly, this budget continues 
to underfund national missile defense.
    General, I appreciate your comment in my office the other 
day that more of your time is spent on GMD than any other 
program. But I have to say that your time doesn't appear to be 
a substitute for the administration's shortchanging of the 
programs in its budgets as evidenced by the last two test 
failures.
    And now I see that we are going to mothball Missile Field 1 
and the Sea-Based X-Band [SBX] Radar.
    And, General, I know that you`ll say that we are not 
mothballing the SBX system. But the $10 million request simply 
does not fund keeping this radar in a ready status, able to be 
deployed and defend the homeland in a moment's notice.
    I am grateful that the administration appears ready to 
finally brief the hedging strategy for homeland missile 
defense, but I note that this strategy is long overdue.
    Dr. Roberts, we have discussed this. Dr. Miller and you 
essentially promised previously that we would have this within 
weeks of your last appearance before us last year.
    I trust the strategy will answer this committee's concern. 
But I note that there is no money in the budget request to do 
anything approximating a real hedge. No money to employ 
additional GBIs beyond the test articles being purchased this 
year. No money to dig more holes at Fort Greely or Vandenberg 
or even to maintain all of the silos that we have.
    And when five members of the subcommittee and I wrote to 
Secretary Panetta in November asking about the hedging 
strategy, the response we got back indicates that while Iran 
and North Korea are developing and perhaps readying the 
deployment of significant numbers of ICBMs, the Obama 
administration is concentrating on building communications 
terminals and crossing its fingers about reliability 
improvements.
    I have the letter of the response that we received, the 
letter that we sent to Secretary Panetta. And I will make both 
these letters a part of the record.
    [The information referred to can be found in the Appendix 
beginning on page 110.]
    Mr. Turner. I note that we are not even--from, General, 
your comments earlier--testing these systems against actual 
ICBM targets for 3, possible 4, more years. And we have 
discussed that in my office, and I know you will have some 
discussion today.
    I don't even see a dollar figure for an East Coast site, 
which NORTHCOM recommended before the EPAA was announced and in 
which the Institute for Defense Analyses and the National 
Academies of Sciences recently recommended, not even a cent for 
environmental impact study work, which would consume at least 
18 months of time.
    Why don't we knock this out at least a part of the way so 
we have an option to proceed if we are wrong about the threat 
of Iran and we need to move more quickly?
    Let me note something else of interest to the subcommittee. 
The administration made a series of promises to the Congress in 
its 2010 Nuclear Posture Review and the 1251 plan.
    Dr. Roberts, I know you are intimately familiar with those 
promises.
    When the President decided to break his promise to fully 
fund that plan, he re-evaluated his policy and decided that we 
could afford more risk and delay the B61 gravity bomb, the W76 
warhead and indefinitely delay the CMR [Chemistry and 
Metallurgy Research] facility in New York--in New Mexico, 
excuse me.
    However, when the President decided to cut $3.6 billion out 
of his own missile defense budget, we lose 6 GBI silos in 
Alaska; we mothball the SBX; we cut the number of TP2 radars we 
are procuring; we cut 3 THAAD [Terminal High Altitude Area 
Defense] batteries and over 60 THAAD interceptors, yet we 
continue with the EPAA without delay. In fact, we increase the 
budget for the PTSS system and other EPAA systems like the IIB 
missile, which according to the MDA budget outlined for fiscal 
year 2013, on slide seven, which I will make a part of the 
record, our regional system is in support of EPAA.
    [The slide referred to can be found in the Appendix on page 
105.]
    Mr. Turner. Now, I don't think we should have to choose 
between regional missile defense and national missile defense.
    But I don't think it's a good idea, as apparently the 
President does, to gut our GMD system or for the President to 
cut his own missile defense budget by $3.2 billion over the 
next several years or to underfund missile defense by $2 
billion this year alone, based on the level of funding that the 
Bush administration had projected that we would need to fund 
missile defense, slide one and three.
    Let me dwell on this graphic long enough to note that many 
of these cuts occurred while the Obama administration first 
came to office. It isn't possible to blame all of these cuts on 
the Budget Control Act or even the sequestration or the deal on 
raising the debt limit, as the President has recently attempted 
to do for many of the cuts that are falling on national 
defense.
    The President's missile defense policy must be re-
evaluated. National missile defense must be adequately funded, 
as opposed to the lip service that has been recently paid by 
the Obama administration.
    This is an important hearing as we look to the budgets, we 
look to the issue of, what is the policy? What are we pursuing? 
Why are we pursuing these policies and these levels of funding? 
And that nexus is, of course, the subject matter of our 
hearing.
    Ms. Sanchez.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 37.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
  CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Ms. Sanchez. Thank you, Mr. Chairman.
    You know, when I was first starting in the Congress, I was 
taught about DIME, diplomacy, intelligence, military, 
economics, and that that is what equals national security for 
this country.
    We see in recent days the whole despair over what's going 
on with the euro and the questioning of it and our own markets 
suffering because of that.
    So I think that the work that we do with our European 
allies is incredibly important. And we have decided that the 
types of threats that exist today are imminent enough that they 
could hurt our European allies. So if we think some discussion 
over the euro is hurting our own economy, imagine what our 
economy would look like if, in fact, there was some sort of 
missile attack on any of our European allies.
    So I think it is incredibly important that we continue that 
work, and I think we have a good program to do that.
    And I think it is just as important that we look at our 
national, at our homeland and try to understand what types of 
threats are out there and prepare for those. Obviously, we 
already have some preparation.
    But unfortunately, our recent tests indicate that we need 
to be better at this. And I have always been one of those 
people who thinks it is important that we get the testing right 
and understand what we should have before we begin to acquire 
any more of that.
    So I don't think it is a reflection, quite frankly, Mr. 
Chairman, of the Obama administration not liking national 
missile defense or ground-based systems. I think they are just 
trying to do a much better job of making sure that what we have 
actually will work under the conditions that may come up.
    I would like to thank the gentlemen before us, once again, 
for coming before us and explaining the President's budget and 
the programs, where they stand since the last time we saw each 
other.
    You know, cost is really of a concern right now in this 
Congress and to the American people. Congress is just a 
reflection of what goes on with the American people. And they 
have stated quite clearly that they are worried about how we 
spend our money here in Washington, DC. So if we are weathering 
a serious economic crisis, then we have to do a lot more with 
less.
    And I applaud you all in front of us for really doing that. 
And I have seen you in the last couple of years really address 
that issue.
    So, since 1999, we have invested over $90 billion. And the 
fiscal year 2013 budget request for missile defense is nearly 
$10 billion. Now more than ever, it is a time for smart 
investments driven by strategy to meet our current and our 
future security needs.
    We have to focus on the proven technology against the most 
likely short- and medium-range threats. We have to make careful 
investments to prepare for the developing threats, and we need 
to leverage our international cooperation to increase the 
opportunities for burden sharing. This means ensuring the 
development of mature, operationally proven and reliable 
technology before producing and deploying it.
    In the immediate term, for example, in the GMD program, 
which stands at about a 45 percent test success rate, it means 
determining the causes of the recent test failures and that 
they are adequately resolved and corrected before buying 
additional costly interceptors.
    And I am pleased--in particular, General O'Reilly, for your 
work and your rigorous analysis to correct these problems as we 
move forward. Smart investments also mean enhancing 
discrimination and reliability by making improvements to our 
existing capacity. And this approach will improve our shot 
doctrine and maximize the use of our available interceptors. We 
can no longer afford costly investments that are wasteful or 
unnecessary. And as the Ballistic Missile Defense Review 
stated, the commitment to new capabilities must be sustainable 
over the long term. So I am actually encouraged that this 
administration is implementing a layered defense to protect the 
homeland, our deployed troops, and our allies.
    We must partner with our allies for effective burden 
sharing and providing an effective defense. And I commend the 
administration again for strengthening the international 
cooperation that we have on missile defense. We have seen 
significant progress in working closely with NATO as we 
implement the first phase of the European Phased Adaptive 
Approach, which protects our forward-deployed troops and our 
NATO partners.
    We are sustaining robust cooperation with Israel and Japan 
and our other allies. We are identifying increased 
opportunities for burden sharing, which becomes even more 
important at this time when everybody is looking for more 
money.
    As we develop defenses against the threats from Iran and 
North Korea, we continue to seek cooperation with Russia. And 
we are trying to engage China in this also, and we are trying 
to reduce a risk of a miscalculation or a misperception that 
will remain crucial in preserving strategic stability and 
avoiding a potentially dangerous nuclear arms race.
    A return to a nuclear weapons build-up, I believe, would 
prove unnecessarily dangerous and very expensive.
    And again, I welcome this discussion, and I welcome the 
gentlemen before us.
    And thank you, Mr. Chairman.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 43.]
    Mr. Turner. Thank you.
    We appreciate the witnesses have given us written 
testimony, and we would ask now if each would summarize their 
written testimony in a period of 5 minutes, and then we will 
turn to questions from the Members.
    We will begin with Dr. Roberts.

STATEMENT OF DR. BRADLEY H. ROBERTS, DEPUTY ASSISTANT SECRETARY 
 OF DEFENSE, NUCLEAR AND MISSILE DEFENSE POLICY, OFFICE OF THE 
                      SECRETARY OF DEFENSE

    Dr. Roberts. Thank you, Chairman Turner, Ranking Member 
Sanchez, members of the committee. I am grateful for the 
opportunity to be here today and directly address the 
perceptions and misperceptions of the administration's policy 
and investment strategy here.
    I would like to focus in on this question of the overall 
balance in our investment strategy and in our missile defense 
strategy. I would like to address the misperception that the 
President has a lack of interest in homeland defense. In fact, 
I think he has a very specific interest in the strengthening of 
homeland defense.
    And I want to, first of all, make the case for regional 
missile defense.
    As you, Mr. Chairman, observed, this shouldn't be an 
either/or question. We should be doing enough of both.
    But I think we shouldn't forget the case for doing more on 
regional missile defense today. We see this as following from a 
need and an opportunity. The need is the fact that we live in 
an era of missile proliferation. We project power forward 
globally. We have security commitments in regions where 
missiles are proliferating. We must protect our forces. We must 
protect our allies. They must participate in protecting 
themselves. To not do that calls into question the very 
foundation of our security role in the international 
environment today.
    So if that's the need, the opportunity arises from the fact 
that the missile defense business over the last 10 to 15 years 
put a lot of resources into developing real capability that is 
now available for us to put against the problem of regional 
missile defense. So we've put in place a program to ramp up 
these regional defense capabilities over the years ahead, and 
we hope that it will, again, gain the support of this 
committee.
    This ramping up is something we are doing in partnership 
with allies. They are not along for a free ride. We've given 
them many opportunities to strengthen their own self-defense, 
and many are rising to this challenge. Even as we accomplish 
this ramping up in regional defense, we remain firmly committed 
to a strong homeland defense and to some ramping up in this 
area as well.
    In anticipation of future threat developments, we are 
committed to strengthening the homeland posture and to ensuring 
that it remains overwhelmingly advantageous in the way it is 
today for the United States, even in the face of future missile 
proliferation. Therefore, the question is not whether we should 
continue to strengthen homeland defense. I believe we are in 
agreement about this. The question is, how?
    We do have a strategy for strengthening homeland defense. 
And it's a two-step process. It is the strengthening of the 
Ground-based Midcourse Defense system in this decade and the 
shift to the SM-3 as a complementary second layer in the next 
decade.
    A simple way to grow the homeland defense posture is just 
to put more GBIs into the ground, whether at one of the 
existing sites or a new one. Here is our case for the blended 
approach of GBIs and SM-3 IIBs, four main elements: For 
regional defense, we now have two layers of protection. The 
homeland deserves the same. Depth and redundancy are better 
than reliance on a single system.
    Secondly, effectively exploiting the full missile defense 
battlespace requires forward and rear basing of interceptors. A 
shoot-look-shoot capability is more effective and more 
efficient with forward placement of the first shooter.
    Third, forward placement of the first shooter becomes even 
more important if and as proliferators field missile defense 
countermeasures.
    And lastly, a ramp-up of SM-3 IIB capability will be much 
more affordable than a ramp-up of GBIs. With the SM-3 IIB 
projected to be roughly one-third the cost of the GBI, we can 
grow a capability at triple the rate for every dollar invested. 
Now until the SM-3 IIB becomes available in the 2020 time 
frame, our focus is on improving the performance of the GMD 
system.
    One way to do this is again the simple way, more GBIs in 
the ground. And our hedge plan of 2 years ago set aside some 
funds for this purpose, additional silos, additional GBIs, and 
the current budget proposes a bit more money for more GBIs.
    But again, the simple way isn't necessarily the best way to 
solve this problem. Working closely with MDA, we have 
determined that significant improvement is possible in the 
performance of the existing system with the current inventory. 
Indeed, the performance can be at least doubled. In essence, we 
can double the number of ICBMs the current force is capable of 
defeating without adding a single new GBI. Especially in a time 
of physical austerity, this more cost-affordable approach 
should be the basis of our pathway forward.
    These conclusions about how best to strengthen the homeland 
defense posture flow from the work we have had underway in the 
Department for well over a year--and I do recognize it has been 
well over a year, and we made a promise to you a year ago, and 
we look forward to making good on that promise before markup.
    But we have had this work underway. We have arranged a 
return later this month for a classified discussion of the 
elements of that work, including threat information, hedge 
options, and decisions reflected in the current budget on how 
to sustain the hedge. So, in sum, we promised in the Ballistic 
Missile Defense Review a balanced approach that would reflect 
all of the developments in the threat environment, not just a 
selection of them, and an affordable approach, as we were 
enjoined to do by you, who created the Ballistic Missile 
Defense Review, and an affordable approach that ensures 
stronger protection for the homeland, stronger protection for 
our forces abroad, stronger protection for our allies. And we 
believe the current budget effectively supports these 
commitments and hope that it will benefit from your support.
    Thank you.
    [The prepared statement of Dr. Roberts can be found in the 
Appendix on page 45.]
    Mr. Turner. General.

   STATEMENT OF LTG PATRICK O'REILLY, USA, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    General O'Reilly. Good afternoon, Chairman Turner, Ranking 
Member Sanchez, and other distinguished members of the 
subcommittee.
    I appreciate the opportunity to testify before you today on 
the Missile Defense Agency's, or MDA's, $7.75 billion fiscal 
year 2013 budget request to continue to develop protection 
against the proliferation of increasingly capable ballistic 
missiles of all ranges.
    MDA's highest priority is the protection of our homeland 
against the growing threat of ICBMs. We have made significant 
progress in enhancing our current homeland defense over the 
past year, including activating a forward-based TPY-2 radar in 
Turkey and an upgraded early-warning radar at Thule, Greenland, 
to track intercontinental ballistic missiles, or ICBMs, from 
the Middle East; upgrading three existing ground-based 
interceptors, or GBIs; activating a second command and control 
node, and completing our newest missile field at Fort Greely, 
Alaska.
    However, further enhancement of our homeland defense is 
paced by the resolution of a technical issue identified in the 
last GBI flight test and the need for a successful intercept 
with the newest version of the GBI Exoatmospheric Kill Vehicle 
by the end of this year. A successful non-intercept GBI flight 
test this summer will confirm our resolution of the previous 
flight test issue.
    We propose almost half of the President's 2013 budget 
request for the Ground-based Midcourse Defense, or GMD, 
program, the SM-3 IIB interceptor, the Precision Tracking Space 
System, and other programs that support homeland defense, 
including the completion of the hardened power plant at Fort 
Greely; construction of the GBI Inflight Interceptor 
Communication System at Fort Drum, New York; upgrading the 
Clear, Alaska, Early Warning Radar; test preparation and 
targets for two- and three-stage GBIs; enhancing the 
reliability of 3 existing GBIs; resumption of the production of 
new GBIs; and the procurement of 5 additional GBIs for a total 
of 57. Most important, our GBI enhancements will effectively 
double the firepower of our 30 operational GBIs over the next 6 
years.
    As our highest priority, we do not believe the United 
States should be reliant on only one missile defense 
interceptor system to protect our homeland. Thus, it is 
critical we continue the SM-3 IIB interceptor program currently 
in concept development to greatly enhance our homeland defense 
by 2020 by providing a forward-located mobile and land-based 
first layer of missile defense against ICBMs, independent of 
the second layer provided by the GMD system.
    Furthermore, the development of the PTSS will provide 
unprecedented capability to track large raid sizes of ballistic 
missiles of all ranges throughout their entire flight without 
solely depending on the large number of radars with limited 
ranges hosted by other nations.
    The combination of GMD, SM-3 IIB, PTSS, and other programs 
will provide effective and adaptable missile defense for our 
homeland to counter the uncertainty of ICBM capability from 
today's regional threats or decades into the future.
    However, the greatest growth in the ballistic missile 
defense threat is the proliferation of regional missiles. Our 
progress in regional defense over the past year was highlighted 
by the on schedule deployment of the first phase of the Phased 
European Adaptive Approach, comprising a command-and-control 
node at Ramstein Air Force Base, Germany, a forward-based radar 
in Turkey, and an Aegis Ballistic Missile Defense, or BMD, ship 
in the Mediterranean Sea. The demonstration of that 
architecture by an Aegis ship intercepting a 3,700-kilometer 
target last April, the installation of BMD capability into four 
additional Aegis ships, the Army material release of the first 
THAAD battery, and THAAD's simultaneous intercept of two 
targets last October.
    This year, we will install BMD capability into five 
additional Aegis ships, conduct three SM-3 IB flight tests to 
demonstrate resolution of the previous flight test failure; and 
material release of a second THAAD battery.
    Our 2013 budget request will deliver a third THAAD battery, 
3 additional Aegis BMD upgrades, for a total of 32 BMD-capable 
ships.
    Finally, this year and in 2013, we will conduct the 
largest, most complex integrated layered regional missile 
defense test in history by simultaneously engaging up to five 
cruise and ballistic missile targets with Aegis, THAAD, and 
Patriot interceptor systems. A forward-based AN/TPY-2 radar and 
a command-and-control system operated by soldiers, sailors, and 
airmen from multiple combatant commands.
    To meet the Department's affordability goals, the 2013 
missile defense budget request was prioritized and reviewed by 
the Missile Defense Executive Board with participation of the 
Joint Chiefs of Staff, combatant commands, the services, the 
Department of State, and ultimately was approved by the 
Secretary of Defense. As a result of these reviews, we 
terminated the Airborne Infrared Sensor Program, revised THAAD 
battery production to a total of 6, and AN/TPY-2 production to 
a total of 11 radars, and limited the Sea-Based X-Band Radar to 
flight test operations with availability for contingency 
operations.
    Although we terminated the Airborne Laser Test Bed program, 
we are maintaining the Nation's directed energy expertise as we 
pursue the demonstration of the next-generation high-energy 
laser on a high-altitude, unattended air vehicle in this 
decade.
    Additionally, through our efficiency initiatives, we 
awarded in December a new 7-year GMD contract with a price of 
almost $1 billion less than the previous independent government 
process.
    Mr. Turner. General, if you could summarize. You have now 
exceeded the time by more than Dr. Roberts exceeded the time. 
So I just would like to ask you to conclude.
    General O'Reilly. Okay. I will summarize, and I am 
available for questions.
    [The prepared statement of General O'Reilly can be found in 
the Appendix on page 57.]
    Mr. Turner. Mr. Ahern.

  STATEMENT OF DAVID G. AHERN, DEPUTY ASSISTANT SECRETARY OF 
  DEFENSE, PORTFOLIO SYSTEMS ACQUISITION, OFFICE OF THE UNDER 
SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Mr. Ahern. Good afternoon, Chairman Turner, Ranking Member 
Sanchez, members of the committee.
    Thank you for the opportunity to appear before you today to 
discuss certain aspects of the Department's missile defense 
efforts.
    Let me begin with a few remarks about MEADS, the Medium 
Extended Air Defense System. As I testified last year, MEADS is 
a cooperative development program managed by a NATO program 
office. It was conceived in the mid-1990s as a flagship program 
for international cooperative development to develop a ground-
based air and terminal ballistic missile defense capability. 
The program experienced a number of technical and management 
challenges, which led the Department and our MEADS partners to 
agree to restructure the program as a reduced scope of effort, 
titled the Proof of Concept, in order to close out the 
development within the original funding limits set by the 
MEADS' MOU [memorandum of understanding]. By completing the 
Proof of Concept, the U.S. will fulfill our commitments to our 
partners under the current MOU by demonstrating MEADS elements 
and associated technologies that are fully realized, that would 
add to the set of capabilities available to advance U.S. air 
and missile defense architectures.
    The program has made progress, but we recognize the 
schedule is aggressive, and we will watch major milestones 
carefully to ensure the Proof of Concept is fully completed 
within the planned funding. The MEADS lightweight launcher 
successfully completed a PAC-3 missile shot during a test at 
White Sands. The MEADS X-band fire-control radar is in near-
field testing and calibration in preparation for far-field 
radiation testing this summer to support first intercept flight 
test at the end of this calendar year. An additional intercept 
flight test is scheduled in mid calendar 2013.
    The NDAA Act for 2012 requires that the Secretary of 
Defense submit to the Congress a plan to use the fiscal year 
2012 authorized and appropriated for MEADS as the final 
obligations to either implement a restructured program of 
reduced scope or to pay for contract termination costs. Despite 
having agreed to a restructured program just last October, the 
Department has once again consulted at the highest levels with 
our partners about developing a plan to further restructure the 
program using fiscal year 2012 funding alone. In response, the 
German and Italian armaments directors recently cosigned a 
letter reiterating that their nations remain fully committed to 
their MEADS MOU obligations and expect that all partners will 
fulfill their MOU obligations to continue with a Proof of 
Concept as previously agreed.
    While we have consulted with our partners, the contracted 
Proof of Concept work has continued. The U.S. provided the 
available fiscal year 2012 funds, currently 25 percent of the 
fiscal year 2012 appropriation. I expect the plan required by 
the NDAA to be delivered in early April. While we are 
developing a plan that complies with the fiscal year 2012 NDAA 
legislative requirement, the Department believes that 
completing a MEADS Proof of Concept is still the better course 
of action.
    The Department's fiscal year 2013 budget request includes 
sufficient funds to meet our MEADS MOU obligations. Secretary 
Panetta has made clear that we would work with Congress to 
secure those funds. And I ask for your support so that we can 
live up to our MOU commitments.
    With regards to the Department's management and oversight 
of the Missile Defense Agency, the USD(AT&L) continues to 
exercise full authority and responsibility for comprehensive 
and effective oversight of MDA and its programs through the 
Missile Defense Executive Board, or the MDEB.
    Since I testified before you last year, the MDEB has 
conducted seven meetings, and USD(AT&L) has issued six 
acquisition decision memoranda. Through the MDEB, the 
Department maintains early and continued visibility into MDA 
programs and is able to provide the necessary guidance to 
achieve missile defense priorities within cost and schedule 
constraints.
    In the past year, MDEB meetings have included reviews, as 
General O'Reilly mentioned, of the MDA budget request and 
assessment of the effects of a reduced budget on the BMDS 
program. Progress reviews of regional phased adaptive 
approaches and endorsement of MDA and military department 
management and funding responsibility guidance, including a 
process to define and schedule transfer of responsibilities. 
The MDEB also reviewed and endorsed or provided direction 
regarding the U.S. Strategic Command's prioritized capabilities 
list and the agency's fiscal year 2011 budget execution.
    In summary, the Department's missile defense activities 
continue at a high pace. We have made hard choices in this 
portfolio in the fiscal year 2013 budget, including a request 
for 2013 funding for MEADS. The Department will continue to 
seek ways to wring out the maximum capability from our 
investments in air and missile defense.
    We are grateful for the continued support of Congress, 
which has been critical to the success to date in developing 
and fielding missile defenses.
    Thank you for this opportunity, and I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Ahern can be found in the 
Appendix on page 72.]
    Mr. Turner. Mr. Gilmore.

  STATEMENT OF HON. J. MICHAEL GILMORE, DIRECTOR, OPERATIONAL 
    TEST AND EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Mr. Gilmore. Mr. Chairman, Congresswoman Sanchez, I'll 
briefly summarize my written statement.
    During the last year, Aegis Ballistic Missile Defense 3.6.1 
and the Terminal High Altitude Area Defense system demonstrated 
progress in testing toward achieving intermediate-range and 
short-range threat class capability, respectively. Aegis 
intercepted an IRBM flying a 3,700-kilometer flight path, and 
it did so using launch on remote, which is a capability that is 
important to the European Phased Adaptive Approach.
    THAAD demonstrated in an operational test that was the most 
realistic operational test of a missile defense system 
conducted to date, because it used the soldiers who would 
deploy with the first THAAD battery to conduct the test; it 
demonstrated successfully and intercepted two simultaneously 
launched short-range ballistic missiles.
    GMD suffered a second consecutive flight test failure, 
flying the Capability Enhancement II Exoatmospheric Kill 
Vehicle. A failure review board has investigated the cause of 
that failure, determined the cause, and MDA has identified 
mitigating steps that need to be taken and is taking those 
steps and planned, as General O'Reilly said, is planning to 
conduct two flight tests this year to demonstrate that those 
fixes have been effective. The flight tests have been delayed 
somewhat because the analysis that has been done of 
manufacturing techniques has identified additional problems 
that need to be corrected. And there is no point in conducting 
the test until those problems have actually been corrected.
    The Integrated Master Test Plan that I work with General 
O'Reilly to develop each year on a 6-month cycle--there is a 
review at the intermediate part of the year, and then there is 
a final version of the IMTP developed for submission to 
Congress--has maintained the test sequence and test pace for a 
ground-based missile defense--that is defense of the homeland--
this year in comparison with last year. And in fact, all of the 
major GMD test events that were planned in the first IMTP, with 
which I was involved back in 2010, have been maintained in this 
IMTP.
    The flight test pace of about one per year is the best that 
we have been able to do on average over about a decade. That is 
because these tests are extremely complex. There is over a 
terabyte of data that is collected during these tests that has 
to be analyzed. I am all for testing at the most rapid pace 
possible, but you have to assess and analyze the results of the 
tests in order to learn from them. It takes a good deal of time 
to learn from these tests and to plan them. And as I said, they 
are extremely complex.
    And in that regard, I would note that when the Bush 
administration declared the limited deployment option [LDO] 
capability achieved with five GBOs and silos at Fort Greely, 
Alaska, on 30 September 2004 and, on 31 December 2004, when 
NORTHCOM accepted the LDO capability with eight GBIs and silos 
at Fort Greely, there had been no successful flight tests at 
all of the GBI and kill vehicle that were used in that limited 
deployment option.
    The first flight test of the GBI and kill vehicle that were 
actually deployed occurred on 1 September 2006, about 2 years 
after the initial deployment was declared. That was a zero 
offset fly-by that did not achieve a kill.
    The first actual intercept with a kill occurred on 28 
September 2007. At that time, the test plans that existed all--
and they didn't go out nearly as many years as the IMTP does in 
terms of planning ahead for the testing that is needed in order 
to collect all the data that will be needed to demonstrate the 
operational performance of the system. At that time, none of 
the test plans involved an ICBM intercept. They involved IRBM 
intercepts for targets fired from Kodiak that were side shots 
at closing velocities that are substantially lower than would 
occur during an ICBM test.
    We now have ICBM tests planned. The first one will be in 
the fourth quarter of fiscal year 2015. That will be a salvo 
shot, two GBIs and an incoming ICBM target. One year later, 
there will be a multiple simultaneous engagement of two ICBMs. 
So, in my view, the test plan that we have, which is for GMD, 
which is the same test plan that we had a year ago, is a robust 
and rigorous test plan. We can argue about the pace at which it 
could be achieved. But as I have noted, it is the best--the 
one-per-year test pace is about the best that we have been able 
to achieve over a decade because of the complexity of the 
tests.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Gilmore can be found in the 
Appendix on page 84.]
    Mr. Turner. Thank you. Gentlemen, I appreciate your 
comments. And I think it has been very helpful because it 
illustrates some of the issues of where the divergent views are 
on policy.
    Dr. Roberts, you said something akin to, well, the simple 
way would be--and I think it was dot dot dot, fill in more 
GBIs. And I want to give an analogy. The simple way for the 
defense would be, load your gun. The long way would be, develop 
a study of a new gun. The smart way would be, load your gun and 
study. So what I am concerned with is, is that we are depending 
too much upon the study phase instead of the current defense 
phase.
    Your statement of the next decade for the SM-3 IIB is where 
we diverge. Senator Lieberman, as you know, famously called 
this a paper system. I think we are concerned that we may be 
throwing paper wads of designs of SM-3 IIBs rather than 
throwing actual interceptors that could make a difference for 
the defense of our Nation.
    General O'Reilly, you said--I think as an accomplishment, 
we have upgraded our radar for identifying ICBM launches from 
the Middle East. You are obviously accomplishing upgrades of 
looking for things at the time that we are looking at upgrades 
for encountering them if they should be there.
    The issue, Dr. Roberts, of the hedge, our concern with the 
hedge is not just an assignment that has not been returned to 
us. It is an administration that we think is unconvinced it 
needs a hedge. And so, ergo, our concern about being able to 
have that policy debate back and forth of reviewing what the 
administration's view is of a hedge and then the view of what 
Congress would be for the need of a hedge.
    Dr. Roberts, I have a great deal of respect for you. You 
have been incredibly both kind and helpful in all of our 
discussions, including to this whole committee, in both 
briefing us and giving us information, so we understand where 
we are and understanding the administration's policy. I would 
like to engage you in a series of questions that go to try to 
get on the record some issues and concerns with respect to the 
threat.
    I want to give you two statements that have been obviously 
on the record and then have a discussion with you on what 
information that we can discuss in an unclassified manner, 
again, looking to your discernment of where that line is, of 
what we can say about North Korea capability. And let me start 
by saying that last week at the committee's hearing on the 
Pacific Command posture, I asked Admiral Willard about the 
development by North Korea of a road-mobile intercontinental 
missile defense. Specifically, I had started with the statement 
from Secretary Gates where he had said, with the continued 
development of long-range missiles and potentially a road-
mobile intercontinental ballistic missile and their continued 
development of nuclear weapons, North Korea is in the process 
of becoming a direct threat to the United States.
    So I asked Dr. Willard to respond, and he said in our 
hearing last week, ``There is development within North Korea of 
a road-mobile intercontinental ballistic missile system that we 
have observed. We have not observed it being tested yet, to my 
knowledge.'' That, of course, was his unclassified statement in 
a hearing.
    So, Dr. Roberts, an unclassified answer, is it deployed?
    Dr. Roberts. There is no unclassified answer to that 
question.
    Mr. Turner. What can you tell us in an unclassified basis 
to give us some fidelity into the Admiral's statement or 
Secretary Gates' statement about the development of the road-
mobile intercontinental ballistic missile system that Secretary 
Gates has indicated he is worried about and Dr. Willard says 
that there is development of that has been observed, although 
it has not yet been tested?
    Dr. Roberts. I wish there was something I could say about 
that in an open forum, but that information remains classified 
and a part of what we would like to discuss on the 29th.
    Mr. Turner. Do you agree with Secretary Gates' statement 
that with the continued development of long-range missiles and 
potentially a road-mobile intercontinental ballistic missile 
and their continued development of nuclear weapons, North Korea 
is in the process of becoming a direct threat to the United 
States?
    Dr. Roberts. Yes.
    Mr. Turner. Okay. The reason why I push this is because--
and back to your statement, again, of showing that the 
divergence of the policy issue, is the concern that the 
development of the SM-3 IIB is a next decade development?
    And General O'Reilly, you indicated that you are going to 
be doubling the numbers, effective numbers of our GBIs. But we 
all know from the budget that no one sees a physical doubling 
of our GBIs, which takes me to the next question, which gets us 
back to the hedge. At what point would North Korea deploy 
enough ICBMs--or maybe export them to Iran so that we have to 
look at North Korea and Iran--where there are ICBMs that are 
deployed, where under our current shot doctrine--I mean, let's 
not take General O'Reilly's statement of increased 
effectiveness--at what numbers would our current GBI inventory 
be sufficient if they had, let's say, 10 ICBMs between North 
Korea and Iran pointed at the United States; would we consider 
that what we currently have in GBI inventory insufficient to 
need to pursue a hedge or sufficient? Dr. Roberts? General 
O'Reilly?
    Dr. Roberts. Again, I think we are both constrained by the 
fact of classification. The performance characteristics of the 
GMD system, shot doctrine, classified. The rate at which shot 
doctrine will improve, classified. The rate at which the threat 
is growing, classified. So we are eager to have that 
conversation with you but not in this forum.
    Mr. Turner. Well, one thing that we can have in a 
unclassified discussion, because General O'Reilly has 
specifically said it in this hearing, that it would double our 
numbers. We know, on an unclassified basis, the numbers that 
are in the ground. So we would know on an unclassified basis 
that we don't have--I mean, regardless of shot doctrine, we 
don't have two ICBMs for one GBI, right? We can say that on an 
unclassified basis, right?
    Dr. Roberts. It is physically impossible to get to two with 
one.
    Mr. Turner. Yes. So there is going to be a point at our 
inventory of that ICBM inventory that might be pointed at us 
versus inventory that we currently have where we are bypassed, 
right?
    Dr. Roberts. Correct.
    Mr. Turner. And I can say on an unclassified basis, 
certainly the current inventory of those, if that were 
exceeded, that that would be a limit?
    Dr. Roberts. Correct.
    Mr. Turner. Dr. Roberts, you know and we all know that 
there is concern about cooperation with the systems that North 
Korea and Iran are developing, both between them, with others, 
and concerns as to how information is being shared, how these 
systems are being developed.
    The concern of sharing is a concern of rapid advancement. 
Part of the issue that we face as we look to the SM-3 IIB being 
available in the next decade is an assumption of the current 
graph of capabilities of the countries that we are looking at. 
Does it concern you that there might be this sharing that could 
result in rapid development and then a greater increase of a 
need for a hedge?
    Dr. Roberts. Of course.
    Mr. Turner. Will that be part of the hedge document that 
you are going to deliver to us prior to the markup?
    Dr. Roberts. Yes.
    Mr. Turner. Great.
    General O'Reilly, the Precision Tracking Space System. Last 
November, I wrote to Secretary Panetta asking a series of 
questions about the Precision Tracking Space System. I asked 
specifically, the Cost Assessment and Program Evaluation, CAPE, 
Office review of the cost be undertaken. While I was told that 
CAPE would get back to me on this review, I have yet to receive 
an actual response. I will make the correspondence part of the 
record that we sent.
    [The information referred to can be found in the Appendix 
beginning on page 114.]
    Mr. Turner. Can you tell me the status of this review.
    General O'Reilly. Yes, sir. We have provided data, and we 
are participating with the CAPE. They are in the lead on doing 
an independent cost estimate of our numbers that we have used 
in our evaluation of the PTSS.
    Mr. Turner. General O'Reilly, if Congress provides the 
funding for this system to go forward, the system which is 
projected to cost $1.5 billion in the FYDP alone, can you 
detail when it will have discrimination capability? Will it 
have it at deployment?
    General O'Reilly. It will have some discrimination 
capability at deployment. It contributes--our approach to 
discrimination is many layers of assessments, using different 
frequencies, different radars, different capability. It will 
provide a critical one because it will be watching the 
deployment itself. It will see a missile over its entire 
flight. We are working on advanced capabilities that go beyond 
that.
    Mr. Turner. How long will the satellites remain in orbit? 
And are you expecting to have to replenish this system once, 
twice? How many satellites will it take over a 10-year period, 
over a 20-year period?
    General O'Reilly. The minimum capability for the system is 
nine. We want to put 20--or 12 on orbit to give ourselves a 
redundancy and a self-healing capability if something happened 
to them. Our initial estimate of the life or time on orbit is 
3.5 years, but that is done very conservatively; like our 
current two satellites that are up, they are both very healthy. 
And at this point, under their original estimate using the same 
techniques we just talked about, they both would have finished 
their on-orbit life. So the number I just gave you I believe is 
very conservative, and that is what our history shows.
    Mr. Turner. So over a 10-year period, you would be 
estimating at least twice?
    General O'Reilly. As we stagger them out, yes, sir.
    Mr. Turner. General O'Reilly, I have a memorandum from 
General William Shelton. As you know, he helped the Congress 
work on the issue of protecting our GPS system earlier this 
year. This memo, dated December 30, 2011, states that General 
Shelton is interested in the space situational awareness 
possibilities and the 20 new satellite low-orbit constellation. 
Can you briefly describe the SSA benefits of this system?
    General O'Reilly. Sir, because of the design where it is 
operating on the Equator looking north, it has a great 
capability to see the ascending satellites as they are rotating 
around the Earth and other objects. So the capability for a 
missile defense system like this will spend most of its time 
doing functions other than missile defense.
    What's driving the design of the PTSS is the need to track 
a missile over its entire flight. But that itself is an 
inherent capability to be contributing significantly to space 
situational awareness and early warning.
    Mr. Turner. Well, the purpose of my question is to ask you 
to assure Congress that before you proceed too far down the 
road of this PTSS concept, that you will work with the Air 
Force Space Command to fully exploit the SSA capabilities of 
the system, including SSA requirements that General Shelton may 
feel appropriate, while the design phase is taking place.
    General O'Reilly. Yes, sir. And that is how I responded 
back to General Shelton, exactly that way.
    Mr. Turner. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Before I ask my questions, I wanted to make a brief 
statement and put it into the record.
    It is about the hold that is placed on the reprogramming 
request for the Army budget due to the concerns by the 
committee majority about receiving information on EPAA MILCON 
cost and life cycle cost of the architecture.
    And while I agree that the cost information is important 
and I understand that Chairman Turner and Senator Sessions are 
waiting for a broader response to their request for the CAPE 
analysis, I am concerned that prolonging this hold will further 
withhold approval of the Army's intent to build barracks for 
our United States soldiers stationed in Turkey. A further delay 
could result in our U.S. soldiers having to endure yet another 
long and cold winter of extreme weather conditions at the site 
in tents ill-suited for that purpose. And I hope that the 
majority will consider releasing the hold soon because I think 
that we will have an opportunity to address any outstanding 
concerns in our bill.
    Dr. Roberts and General O'Reilly, the Ballistic Missile 
Defense Review stated that the U.S. BMD capabilities must be 
flexible enough to adapt as the threats change. Given the 
updated intelligence community's assessments of the threat from 
Iran and from North Korea, is the proposed PA plan, starting 
with the EPAA in Europe and the current proposed hedging 
policy, is it still adequate to respond to the threat? Why? Or 
why not?
    Dr. Roberts. In our view, the balanced approach we set out 
is still active to deal with the threat, in part because both 
approaches are scalable. In fact, we cannot project--the 
intelligence community cannot tell us the numbers of missiles 
that we'll face, the numbers and the different inventory types, 
whether short, medium, intermediate, or long range. There is a 
great deal of uncertainty about when new threats will emerge 
and how significantly they will emerge in terms of raw 
quantitative capability. So we have approaches to the defense 
of the homeland and approaches to the defense of the regions 
that are flexible and responsive. I should explain that this is 
in part what accounts for the slowness with which we have 
provided the costing information on EPAA.
    EPAA is sometimes characterized as a defense acquisition 
program. It is not. It is sometimes characterized as an 
architecture. It is not. It is an approach. It is an approach 
for the flexible use of capabilities over the coming decade, 
and that flexibility extends not just within a region but 
across the regions. So we have some uniquely associated assets 
with each of the regional approaches, for example, radars in 
Turkey and in the future Romania.
    But most of the assets are mobile, relocatable, sea-based, 
would swing from one region to another in time of crisis. And, 
indeed, the naval vessels are multi-mission vessels, so how do 
they get accounted in accounting of EPAA? So, in our view, we 
have the flexibility in these two approaches that's required, 
given the uncertainty in future threat development.
    Ms. Sanchez. General, do you have any comment to that?
    General O'Reilly. Congresswoman, I just want to stress the 
fact that we emphasize in our design of these systems the 
ability to surge them so you can go to a rapidly increase in 
the capability in any one region if, in fact, you have to.
    Ms. Sanchez. Thank you. Thank you, General.
    General O'Reilly and Dr. Gilmore, what is the cause for 
delaying the intercept flight test by 90 days where it slips 
from fourth quarter fiscal year 2012 to fourth quarter fiscal 
year 2013? Is that just enough time to ensure that we are 
getting it right and in the meantime would you be able to use 
additional GMD funds for fiscal year 2013?
    General O'Reilly. The delay in the flight test for the 
first intercept by 90 days was driven by an assessment done by 
myself and the senior engineers from the aerospace companies 
involved. As we looked at the results emerging from the last 
flight test in the Failure Review Board, we did identify a 
component that had an error that was not apparent. You couldn't 
test it with the facilities on the ground. So we have 
reestablished new specifications that we believe will be 
robust, and we will prove that in a flight test this summer.
    But we also found that not only are the specifications 
needed to be revised for these devices but the stringency in 
which they were produced, and it was in the review of the 
factories and the plants themselves that we saw that we needed 
more stringent production processes. Unfortunately, these 
devices are the very first ones you use when you build up 
enhanced kill vehicle, and so by replacing them with production 
representative devices actually will cause a delay because we 
had to start over the production of these KVs.
    What was important to me was not only were we going to fly 
for this next test the design that we have determined we need, 
but they are built exactly like they'll be built in production. 
So we have a production representative missile, and it gives us 
the confidence based on the results of a successful intercept 
that, in fact, we can put the rest of the production line into 
operation.
    Ms. Sanchez. Okay.
    Mr. Gilmore. We want to do the tests with the most 
production representative system that we can so that we can 
understand how the fueling systems will operate, and so I 
support the delay in order to make certain that this particular 
part can be fully production representative.
    The first test will be done with an existing part. It will 
demonstrate mitigations to the problems that were discovered in 
the earlier flight test with the existing part. But, as General 
O'Reilly said, they are building a new part and they have to 
make certain that they are building it to the right tolerances 
under the right conditions; and so the intercept test, I agree, 
should be postponed until we can have a fully production 
representative part in the test.
    Ms. Sanchez. Thank you.
    My next question for Dr. Roberts and for General O'Reilly, 
the September 2011 Defense Science Board Task Force report on 
the Science and Technology Issues of Early Intercept Ballistic 
Missile Defense expressed concern about the overall 
effectiveness of U.S. missile defenses. For example, the report 
points out that the radars deployed in the context of the EPAA 
have limited capability; and the report also points out that 
the DOD has not been able to demonstrate the ability to 
reliability discrimination between warheads, decoys, and other 
debris. And we have also received the National Academy of 
Sciences report and the Institute for Defense Analyses report. 
So what are we doing to increase the reliability and improve 
discrimination to improve our shot doctrine?
    General O'Reilly. As I said earlier, the most effective 
way, we believe, for discrimination, which is identifying a 
reentry vehicle [RV] amidst many other objects, is to 
interrogate that cluster through many different frequencies and 
many different sensor systems. You want more than one. And also 
to observe how those objects are coming off a missile as it is 
finishing its boost phase. So one advantage we saw for the PTSS 
system is it will observe very early in flight, which today 
there are locations where a ground-based radar would not have 
that range in order to see that deployment.
    So step one is to watch the deployment of the objects. You 
can learn a lot from that.
    Step two is to employ advanced technologies from space and 
radars that we are developing today. We can describe in more 
detail at a higher level of classification. But between the 
combination of that and the opportunity to study these over a 
long period of time.
    And, finally, when you are in the terminal phase, the best 
way we know to defeat a discrimination is, especially in a 
regional context, is as they start reentering the Earth's 
atmosphere and above 100 kilometers you start to see movement 
of lightweight replicas and so forth. And that is why the THAAD 
system, for example, is designed to intercept both in and 
outside the Earth's atmosphere, so that it can watch the 
stripping away of lighter objects, and it is a very effective 
way of identifying where the RV is.
    Ms. Sanchez. Thank you. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Turner. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    My question is for Dr. Roberts and General O'Reilly.
    Section 1244 of the National Defense Authorization Act for 
Fiscal Year 2012 prohibits the transfer of classified ballistic 
missile defense information to the Russian Federation. What 
instruction has the White House given DOD for implementing 
Section 1244's prohibition?
    Dr. Roberts. We have received no special instruction. We 
have the legislation in front of us. We understand our 
obligation. We fully intend to comply with the requirement of 
the law. We intend not to share information with Russia that 
would in any way endanger our national security, and we intend 
to keep the Congress informed in this area.
    Mr. Brooks. Is the administration negotiating a Defense 
Technology Cooperation Agreement with Russia?
    Dr. Roberts. I honestly don't know the status of that 
effort, so let me take that question and come back to you with 
a response and follow-up, if I may.
    Mr. Brooks. When you say you don't know the status of it, 
does that mean you don't know if they are doing it or you don't 
know the current status of it, but it is being done?
    Dr. Roberts. The former.
    Mr. Brooks. General O'Reilly, would you like to add 
anything, any insight in that regard, either with respect to 
the National Defense Authorization Act's prohibition of 
transfer of classified ballistic missile defense information to 
the Russian Federation and, most particularly, the very 
expensive hit-to-kill technology that American taxpayers have 
paid for over the course of many years?
    General O'Reilly. Congressman, I am the classifying 
authority for the Missile Defense Agency in these technologies, 
and so we have a very strict way of determining and abiding by 
what is classified, primarily to protect any vulnerabilities or 
capability that are not apparently available easily. And I have 
never received a request to release classified information to 
the Russians; and so, as far as I can tell from my position, 
there is abidance to this requirement, and I have not seen 
personally, have no knowledge of anyone transferring that type 
of technology or proposing to.
    Mr. Brooks. Well, what causes us concern is that there have 
been many reports in the news media about the potential of this 
kind of information being transferred to the Russian 
Federation; and with those kind of media reports--and we all 
understand how they may be right, they may be wrong--
nonetheless, they raise issues.
    The President in his signing statement with respect to 
Section 1244 stated, and I quote, I will treat the provisions 
as nonbinding, end quote. Do you know why the President in a 
signing statement with respect to this prohibition of that kind 
of technological transfer to Russia would state, quote, I will 
treat the provisions as nonbinding, end quote?
    Dr. Roberts. The White House's concern is that it not be 
compromising diplomatic negotiations.
    I would like to make the general point that we are keenly 
aware of the advantages that flow to our national defense from 
the sophisticated technologies that have been developed for 
missile defense over the last 20 years. There is no value in 
handing those away to anybody and risk in doing so.
    That said, we are not the first administration to seek 
cooperation with missile--with Russia on missile defense. We 
are not the first administration to believe that that 
cooperation could be well-served by some limited sharing of 
classified information of a certain kind if the proper rules 
are in place to do that. The Bush administration headed down 
precisely the same path.
    Now, we are not naive. Cooperation with Russia in this area 
is not going well, progress will be difficult, but we will keep 
you fully informed.
    Mr. Brooks. You mentioned the phrase ``compromising 
diplomatic negotiations.'' If there is no risk of our hit-to-
kill technology being shared with Russia, then how could those 
negotiations be compromised?
    Dr. Roberts. That is a good question, sir; and I am afraid 
I don't have a good answer for you.
    I do have an additional piece of information, which is that 
we are currently negotiating a DTCA, we are making no progress 
in doing so, and that this is a process that started under the 
Bush administration, not one that we initiated.
    Mr. Brooks. For the record, when you say ``DTCA,'' I know 
in defense there are a tremendous number of acronyms, you are 
referring to the Defense Technology Cooperation Agreement?
    Dr. Roberts. Yes, sir.
    Mr. Brooks. Can you give us any assurances that in the 
negotiations of this Defense Technology Cooperation Agreement 
with Russia that the administration is not in any way, shape, 
or form apt to include transfer of our hit-to-kill technology 
to Russia?
    Dr. Roberts. Apt to include? Sir, we have no plans, no 
ambition, no expectation. Hit-to-kill is our technology, and it 
serves our interests well to keep it in our hands.
    Mr. Brooks. Is the White House and are you in a position 
where you can commit to this Congress that that information 
will not be shared with the Russian Federation?
    Mr. Turner. Your time has expired. Please answer.
    Dr. Roberts. Yes, sir.
    Mr. Turner. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    General O'Reilly, Secretary Ahern, and Director Gilmore, I 
want to thank you all for your testimony here today before this 
subcommittee.
    I have, obviously, a long-standing interest in our missile 
defense program; and I certainly am cognizant of its 
complexities and the many technical challenges still yet to 
overcome. However, at the same time, I strongly understand the 
crucial importance of this program to our defense posture.
    General O'Reilly, last year, the House NDAA bill zeroed out 
the Precision Tracking Space System, PTSS. Why do we need PTSS 
and what capability for homeland defense would we lose without 
this capability?
    General O'Reilly. Sir, as we look at the proliferation of 
ballistic missiles around the world, as we have discussed in 
here, we see pursuit of long-range ICBMs. But if you look at 
the sheer number of shorter-range ICBMs, estimates are that 
there is over 6,000 of them in smaller countries around the 
world and hundreds of launchers. So we believe that the raid 
size is something that is a particular concern to our deployed 
forces around the world, raid size meaning the number of 
simultaneously launched missiles. The PTSS system is designed 
with that in mind so that it can handle three or four times 
more and track more ballistic missiles simultaneously than can 
be tracked with radars.
    Also, as we deploy radars around the world, there is an 
involved process of negotiation and the difficulties of 
logistics and so forth to support them; and with a satellite 
system we would have pervasive coverage of the Northern 
Hemisphere, of the latitudes where we are most concerned about 
continuously, and we would want to be able to leverage that.
    Mr. Langevin. Is it duplicative of existing or future 
capabilities? You know, can other sensors fulfill similar 
functions?
    General O'Reilly. Sir, there is no sensor that can fill the 
function of tracking a missile over its entire flight from 
space in the broad field of views which we need to cover an 
entire theater where we could see missiles simultaneously 
launched. This will be the only sensor able to do that in a 
broad field of view and have the right frequencies on board, 
the sensors, in order to track a missile as it gets cold after 
it is launched all the way to before it starts reentering the 
Earth's atmosphere.
    Mr. Langevin. While I still have time, as you know, I have 
a long-standing interest in directed energy; and I am of the 
opinion that in the outyears we are going to need the 
capabilities of directed energy, that kinetic weapons alone 
will never be able to handle the type of raid sizes that we are 
going to have to protect against as we go forward. I am talking 
decade and beyond.
    How does the fiscal year 2013 budget request preserve some 
of the important investments made on a directed energy program, 
and what updates can you give the committee on progress we are 
making on directed energy?
    General O'Reilly. Sir, with the funding levels that we have 
received for 2012, we have grounded the airborne laser test 
platform. But, before we did, we intercepted two missiles at 
the speed of light from over 50 miles away, proving that the 
atmosphere could be compensated and other issues.
    We learned an awful lot from the ABL. We have a tremendous 
brain trust in our country now; and our first concern is to 
preserve that expertise, unique, high-energy laser expertise in 
industry and in the government team.
    So where we want to move next is basically the third 
generation of an airborne laser system; and we have fundamental 
research at Lawrence Livermore National Lab, MIT Lincoln Labs, 
and some of our industry partners that we believe can give us a 
compact capability that advance us beyond the 1996 capability 
that we used in an airborne laser system. And by ``small'' I 
mean the size of a typical couch, to actually produce the 
amount of power that we have seen previously only in very, very 
large aircraft; and that makes the deployment of directed 
energy much more flexible. And so we have sustained those two 
programs at Lawrence Livermore and at MIT Lincoln Labs, and we 
have basically a horse race of who can hit the efficiencies 
which we are looking for.
    Mr. Langevin. Do you have a timeline of when that will have 
some determining----
    General O'Reilly. Sir, we have set up a very definitive 
list of milestones, technical milestones so we can monitor the 
progress. If they achieve the milestones they are currently 
looking at, it will be in the middle of this decade or sooner.
    Mr. Langevin. Very good. My time has expired. I have a lot 
more questions, many more questions, but I will submit those 
for the record.
    And, General, thank you for the job that you and your team 
are doing. I was impressed by how thorough you are, and again 
appreciate you and the rest of the members of the panel here 
for testifying.
    With that, Mr. Chairman, I yield back.
    Mr. Turner. Before we move on, I just want to take a moment 
to recognize our former chair's work in directed energy, and I 
agree with his statements and appreciate his focus on that.
    Turning to Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman; and also let me build 
on that same issue.
    Because I share exactly the same sentiments that 
Representative Langevin just cited; and I have his same concern 
that we should harvest from the advancements in technology that 
were made, even though we are seeing the retirement of the 
airborne platform. And I would be extremely disappointed and 
concerned that we are not using all the arrows in our quiver to 
not exploit those possibilities. So you can assure us that we 
are doing everything we can to harvest and exploit and build on 
what we have learned in the past?
    General O'Reilly. Sir, our funding request was about half 
of what we requested last year for this area, so we did retire 
the aircraft earlier. And I am very concerned about the 
criticality, the critical mass of knowledge that we have in 
this area; and we have structured our budget this year so that 
we can maintain the maximum amount of people as well as making 
progress. But my first focus and my continued concern is on 
maintaining the personnel in this business that have been 
working on it for 20 to 30 years, most of whom are Ph.D.s. It 
is state-of-the-art technology, and it is a tremendous 
accomplishments we have had, and we want to make sure we apply 
those lessons learned.
    Mr. Lamborn. Because it was obvious to me that with the 
advances we are going way beyond the objections people had by 
saying, oh, keeping aircraft in the air 24/7 was logistically 
impossible. And, I mean, we were beyond that. Weren't we to the 
point where we could do seaborne platforms and things like that 
that were much logistically easier?
    General O'Reilly. Sir, one of the advantages we found is, 
is the higher you go in altitude the smaller the package needs 
to be to actually compensate for the atmosphere and give you 
your pointing and so forth. So there was a tremendous amount of 
learning, and we have maintained the program office at 
Albuquerque and our aerospace companies that have been 
involved.
    So, yes, sir, there was a tremendous amount of firsts, 
scientific firsts, we had never done before; and we have 
learned a tremendous amount that we are anxious to apply to the 
next generation.
    Mr. Lamborn. Okay, thank you. That is more reassuring.
    For both Dr. Roberts and General O'Reilly, have you seen 
anything in Iran's ballistic missile developments, including 
space launch technology, in the last 3 years that would change 
the decision that this administration made in 2009 to adopt the 
phased adaptive approach? Because, as you know, that was based 
in part on a revised assessment made at that time that Iran's 
short- and medium-range missiles were more of a threat than 
anything longer range. So has there been anything that has 
changed in the last 3 years that would change that decision you 
made 3 years ago?
    Dr. Roberts. The short answer would be no, but that's 
because I think we view the decision of 3 years ago a little 
differently, meaning we looked out at the threat environment 
and saw from Iran both a rapid increase in short-, medium-, and 
later expected intermediate-range missiles. And, at the same 
time, we could see ICBM capabilities aborning in one form or 
another, at least the technologies maturing that would take 
them in that capability direction at some point.
    And so we look ahead to the threat environment and see the 
requirement to protect our forces from short- and medium-range 
and intermediate-range ballistic missile attack by Iran and to 
provide the means for the protection of our allies and for them 
to join us in that process.
    We also look ahead to the possibility that in the future we 
will have a rapid increase in the number of ICBMs deployed in 
Iran, the deployment of countermeasures; and this is a part of 
the reason we are less persuaded that the GBI pathway is the 
full solution set to this problem.
    If we come to a point where Iran and North Korea are 
beginning to produce ballistic missiles, deploy them in 
significant numbers, we need to be able to compensate for that. 
Indeed, we need to stay ahead of it. When they are at the point 
of having countermeasures, we have to be capable of doing what 
all these advisory bodies have told us to do, which is make 
sure you have the technologies to exploit the full battlespace.
    Now, what does that mean? That means that you are not just 
stuck working in the mid-course phase and that you are not just 
stuck with terminal defense. You need to get out as far forward 
into this zone of operation as possible.
    So my characterization of our decision of 3 years ago is 
that we looked into the future and saw significant potential 
threat developments across the full suite of capabilities, and 
we needed to have a strategy in place that would meet both sets 
of threats, and that is why we are wedded to this two-step GBI/
SM-3 approach.
    Mr. Lamborn. Okay, thank you all.
    Mr. Turner. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman; and, for the 
witnesses, thank you very much for your work, your service, and 
your testimony.
    I am going to continue on the directed energy issue. I 
personally think it is very exciting and has great potential in 
many different theaters and applications.
    My question goes to General O'Reilly. The research programs 
at MIT Lincoln Labs and Lawrence Livermore, are they at the 
same level of funding this year as last year, or do you intend 
to change the level of funding up or down?
    General O'Reilly. Sir, they are at a lower level of funding 
this year, given the--last year, we went through a transition 
where we ended up with about half the budget we had requested 
in this area, and we have been--and at that point we did lose 
personnel off the program, so we have laid out a more stable 
workforce. We believe right now the most prudent thing to do is 
maintain stability in these programs.
    At the same time as I retire the airborne laser platform, I 
do have an environmental remediation bill, about $13 million a 
year; and given that the funding is around $50 million right 
now, that is also taxing us from our ability to fund these two 
research programs that you are referring to.
    Mr. Garamendi. So will there be layoffs and diminution in 
the pace and the intensity of the programs at either 
laboratory?
    General O'Reilly. Sir, last year, it occurred at both 
locations as we went through the----
    Mr. Garamendi. And for the coming year?
    General O'Reilly. At this level right now, we are 
maintaining where we were at the end of last year, which is 
lower than we had originally requested.
    Mr. Garamendi. How much money do you need to maintain the 
appropriate pace? I am assuming that the present pace is not 
appropriate, not the desirable pace.
    General O'Reilly. It is not as much the--it is the pace, 
sir, but the concern also is the expertise, maintaining the 
expertise and allowing them to move as quickly as 
scientifically and engineering-wise as possible.
    We are also working with DARPA [Defense Advanced Research 
Projects Agency] and other organizations to combine our funding 
to maximize. But on the order, for example, at Lawrence 
Livermore, we're about 8 million less than what we had planned 
this time last year in order to have a stable funding.
    Mr. Garamendi. Some of that expertise is going to be lost?
    General O'Reilly. Yes, sir. They were not able--they may be 
able to maintain it in the lab--I am not sure--but they weren't 
able to maintain all of the personnel that were on the program 
at that time.
    Mr. Garamendi. So for us to fully fund, we need about 
another $8 million?
    General O'Reilly. That was at the level that the director 
at Lawrence Livermore and I felt would pace it at a technical 
pace, rather than one that was restricted by personnel.
    Mr. Garamendi. It seems to me that this directed energy 
issue is extremely important, has extraordinary potential, 
without getting into the details. And so for $8 million out of 
a nearly $10 billion budget item, is it possible to move some 
money from somewhere, for example, to stretch out one or 
another of the multi-billion dollar programs?
    General O'Reilly. Sir, we look at the execution of our 
program during the year and ensure that our contracts are 
executing as we had funded them. There is always opportunity to 
look for this. We would have to, obviously, come back for 
reprogramming actions as we watch, again, the progress that we 
make based on what was planned.
    Mr. Garamendi. Let me speak directly to our chairman, Mr. 
Turner--excuse me--if I might.
    It seems to me that we are shorting an extremely important 
program in the directed energy that many members of your 
subcommittee are interested in; and it would be, it seems, for 
$8 million to maintain the desired level at Lawrence Livermore 
and perhaps something similar at Lincoln Labs that we ought to 
move some money around or cause it to be moved around so that 
we could find enough money, $8 million out of a $10 billion 
allocation per year, for this entire system to make sure that 
this directed energy program moves----
    And I think I am out of time. But, anyway, you know where I 
am going--or want to go.
    Mr. Turner. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    I will try to be brief with this, and I think that maybe 
some of these will be questions that you will answer under a 
different setting.
    But one of my primary concerns somewhat gets back to the 
workforce issue that Mr. Garamendi was speaking about, 
especially with regard to sequestration. The more advanced the 
weapons system is, the more likely it is that you have an 
extremely specialized workforce, not only a workforce that is 
employed by us, but vendors, much more likely to have a single-
source vendor for certain supplies that we have to have for our 
missile systems.
    And I don't want you to divulge anything here, General, 
since you determined what is and isn't classified. Would you 
speak to the issue of sequestration and the loss of the 
specialized workforce if we are not able to undo sequestration? 
And when we get behind closed doors, I think maybe some of the 
suppliers and the actual equipment that we might lose that 
would do irreparable harm to the systems that we have.
    And then, if you would, just speak, if you will, to our 
relationship with Israel in making sure that there are adequate 
systems in place to defend them should they come under a 
serious missile attack.
    General O'Reilly. Thank you, Congressman.
    First of all, the concern in the area--I have the exact 
concern you have. If we have sequestration and a dramatic 
reduction in our programs, it will be most hardest felt in the 
supplier base.
    And it is not only the availability of the supplies. As we 
were discussing before, it is the manufacturing processes. And 
a lot of these components that we use--and we use over 2,000, 
for example, on a ground-based interceptor--those components 
themselves are built in a certain way that give it its 
reliability; and the loss of the workforce in many of these 
cases I would say would be close to nonrecoverable. Or, if it 
is recoverable, it is going to be a very painful process.
    So, sir, just to summarize again, I think it would be a 
significant impact to our capability. We may be able to keep 
the designs, but it is actually the flow of supplies and it is 
actually the processes and the personnel, the thousands of 
people that are working on these programs that would be very 
hard to reconstitute.
    From the point of view of the Israeli programs, sir, we are 
actively involved. We co-manage the Arrow program, especially 
the Block 4, which has recently been very successful; the 
David's Sling Weapon System, where the Israeli program office 
and us are in full agreement on how we manage it. It is managed 
very rigorously now. And the Arrow-3 missile program. All of 
these programs are very aggressive with technology.
    We are in great admiration of their technical ability, 
because we have not seen the Israelis not being able to 
overcome a problem. But it is the pacing of it. They have made 
a lot of progress over the last couple years, and we are about 
to sign some new agreements to extend our mutual cooperation in 
the development of their interceptors.
    Last year, I was asked to provide the funding and some 
oversight on the production of the Iron Dome system; and it has 
proven to be a combat-effective system, well over 60 percent 
capability and actually beyond that.
    So we work very closely to the Israelis, and we have also 
expanded our ability to test and hardware in the loop, so that 
we can assure ourselves with the Israelis that our systems work 
together and can quantify how theirs and our systems work.
    Mr. Scott. Thank you, General. And, again, as we go 
forward, I would like to, you know, make sure that when we are 
in a classified setting we talk about the potential loss of 
those vendors and those specialized parts, certainly not in 
here, and making sure that we do what is necessary in this 
subcommittee and in the full committee to make sure that we 
don't risk the loss of any of those things that we absolutely 
have to have to ensure the viability of these systems.
    Mr. Chairman, I yield the remainder of my time.
    Mr. Turner. I am going to recognize Mr. Larsen.
    I am going to ask Mr. Scott, if you would, please to take 
the gavel for a brief moment. I need to step out.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Gentlemen, forgive me, I have a cold, and so I will 
struggle through my questions here if you will just be patient 
with me.
    First, General O'Reilly, can you talk--can you tell us who 
did the independent reviews on the GMD contract and what 
history that you have using those agencies or organizations for 
the independent reviews?
    General O'Reilly. Sir, we used the two organizations.
    First of all, the contractor came in with his proposal, and 
us--my agency was the first level of review with the 
independent review of the cost-estimating approach that the 
contractors used when they proposed, and we do have support 
from the defense auditing agencies and the Defense Contract 
Management Agency on the labor rates and the estimations of the 
amount of time it would take.
    Then what also has been put into place going back a few 
years is the OSD has another set of reviewers that go through 
and do an estimate looking at our independent review to make 
their own judgment on whether or not they believe that the 
costs are reasonable and accurately portrayed by the proposers.
    Mr. Larsen. Okay, and then can you say who is doing those 
reviews after you are done? Who at OSD, not which person.
    General O'Reilly. It is under the Office of the Secretary 
of Acquisition, Logistics, and Technology, and it is an 
interdepartmental group. It has representation from several 
organizations besides the review I do with the Defense Audit 
Agency and the Defense Contract Management Agency.
    Mr. Larsen. Thank you.
    Mr. Ahern, on MEADS [Medium Extended Air Defense System] we 
had a conversation here in the other room last year about it. 
In your testimony, you discuss the proof of concept. Can you 
just explain to me what you mean in your testimony by the 
``proof of concept''?
    Mr. Ahern. Yes, sir. Thank you for the question.
    The plan is to demonstrate that the effectiveness of the 
fire control radar, the launchers, the TOC [Tactical Operations 
Center], the operational center through--well, we have had one 
launch, as I mentioned earlier, and then two launches, one in 
the end of this year and one the end of the next year. So the 
proof of concept phrase means that we are able to demonstrate 
that this AESA [Active Electronically Scanned Array] radar 
connected through software, the TOC, to the launcher, using the 
MSE [Missile Segment Enhancement] missile, is an effective 
missile defense system.
    Mr. Larsen. And at that point is that forming the basis of 
the technologies that would then be spun out in MEADS?
    Mr. Ahern. Yes, sir, exactly. That really is the value; and 
it enabled the Germans, the Italians, and also the United 
States as we went forward to take advantage of that technology 
in a plug-and-play sense or the technologies as basic 
technologies themselves.
    Mr. Larsen. Yeah. And the budget request, though, also that 
includes an additional $400 million to close this out; is that 
correct?
    Mr. Ahern. Yes, sir. The proof of concept was 12 and 13.
    Mr. Larsen. Yeah, right.
    Mr. Ahern. And basically to bring us up to conclusion on 
our MOU commitment, the funding commitment, and the MOU and to 
give us the opportunity to, as you said, complete the 
exploration of those technologies and the proof of concept.
    Mr. Larsen. And your written testimony reflects, I guess, 
comments from the letter from the Italians and the Germans 
about expectations they have about the United States completing 
that obligation; is that correct as well?
    Mr. Ahern. Yes, sir. Those letters are a jointly signed 
letter. It is a jointly signed letter.
    Mr. Larsen. It is a jointly signed letter.
    Mr. Ahern. And I have had several meetings with my 
counterparts, and they do expect that from us, yes, sir.
    Mr. Larsen. All right. Well, much like last year when we 
had this conversation in the hearing, I expect we are going to 
continue to have it as we go through the markup as well, but 
look forward to hearing back from you if we have further 
questions on it.
    Mr. Ahern. Absolutely, sir. And, as I said last year, I am 
committed to keeping you all informed on how we are progressing 
in the proof of concept.
    Mr. Larsen. Yeah, thanks.
    Finally, Mr. Gilmore, if you could just review for me, 
because I didn't quite put things together, on your testimony 
you mentioned that we can expect about one test per year, but I 
wasn't quite sure because we do more than one test.
    Mr. Gilmore. That was in ground-based missile defense.
    Mr. Larsen. But we do more than one test per year, so can 
you clarify what you meant?
    Mr. Gilmore. Well, for ground-based missile defense you can 
expect about one test per year. The total number of tests that 
were done throughout--that are planned throughout the missile 
defense program in fiscal year '12 is 28, 13 flight tests and 
15 ground tests.
    Mr. Larsen. Right, yeah. Okay.
    Mr. Gilmore. So there are many more tests than that, but 
when it comes to the pace at which you can do the ground-based 
missile defense tests that employ ground-based interceptors and 
threat representative targets, it has been about, for the last 
decade, one per year.
    Mr. Larsen. All right. I will have some follow-up 
questions.
    Mr. Gilmore. And in fact that is what is planned in the 
IMTP now through fiscal year '22 is the pace of one per year. 
And again that is consistent with what we have been able to do 
over the last decade.
    Mr. Larsen. Great. I will have some questions for you for 
the record just for follow-up. Appreciate it very much. Thank 
you.
    Mr. Gilmore. Okay.
    Mr. Scott [presiding]. Mr. Ruppersberger.
    Mr. Ruppersberger. Yeah, good afternoon, and I am glad you 
are here. My questions probably will be to you, Dr. Roberts, or 
to you, General O'Reilly.
    I want to talk about the Precision Tracking Space System. 
Jim Langevin just asked some questions. Basically, the first 
thing, this is a satellite system that, from my understanding, 
will have the capability to track ballistic missiles in flight 
across 70 percent of the Earth. It is my understanding also 
that this is the only system that would be able to defend the 
United States in the event of numerous raids. Can you discuss 
that? Is that the situation?
    General O'Reilly. Yes, sir, the satellite system itself is 
designed from the very beginning to handle very large raid 
sizes, many tens of missiles being launched simultaneously. We 
find that that leads you to a different architecture and a 
fundamentally different design; and working with the Applied 
Physics Lab at Johns Hopkins, they are leading the design and 
developing this capability. We believe that by using existing 
technology and the right architecture, you can, in fact, do 
that. And this satellite system doesn't replicate the current 
systems that are up there. It basically leverages them to spot 
the missiles being launched, and then the satellite system 
takes over and does the tracking over the rest of the way.
    Mr. Ruppersberger. Let me ask you this: In your position--
you have a lot of expertise in this area--do you feel the 
threat of ballistic missiles is going to continue across the 
globe, that a system like this is necessary for our homeland 
defense?
    General O'Reilly. Yes, sir.
    Mr. Ruppersberger. Why?
    General O'Reilly. First of all, because of the pervasive 
nature of it. It can cover comprehensively large areas where, 
example, if we have an intercept to ensure we hit the right 
target if there is multiple targets up there. Its ability to 
see throughout the entire----
    Mr. Ruppersberger. Almost like a long dwell. In other 
words, probably, from my understanding, it will give us 
capacity for over 73 percent of the globe; is that correct?
    General O'Reilly. Of land mass, yes, sir.
    Mr. Ruppersberger. Of land mass, okay.
    General O'Reilly. It is primarily looking north, at the 
Northern Hemisphere.
    Mr. Ruppersberger. Now, you also mentioned Johns Hopkins 
Applied Physics Lab. It is my understanding that they are doing 
the initial design and research. They also have usually been on 
time and on budget. Is that your experience with them?
    General O'Reilly. Yes, sir. They are one of the best we 
have ever seen in looking at their track record of satellite 
development.
    Mr. Ruppersberger. Okay. Then in order to build this 
program, if it is funded, then they will throw it out to 
competition, is that not correct?
    General O'Reilly. Yes, sir. After we finish the preliminary 
design and go into the critical design, at that point we will 
have a competition for the production of it. But we own the 
intellectual property is a big difference from the way we are 
approaching this satellite program.
    Mr. Ruppersberger. Okay. You know, when you have a 
situation with space--and we have to maintain our space. We are 
the most powerful country in the world, and one of the main 
reasons we invested the money in the beginning for space and we 
know we have to continue to be strong in space, especially with 
the China/Russia threat. Competition is extremely important, in 
my opinion, to keep the cost down. When Johns Hopkins finishes 
their design, if they get the funding, then they are going to 
put out to actually build the program, and they will 
competitively build it; is that correct?
    General O'Reilly. Yes, sir. We will actually do the 
competition, the Missile Defense Agency, based on the Johns 
Hopkins design; and it's to the advantage of the bidders to be 
as close to that design as possible because that will keep 
the----
    Mr. Ruppersberger. But it is also to our advantage because 
it brings the cost down.
    General O'Reilly. Absolutely, sir.
    Mr. Ruppersberger. Which is extremely important.
    Now the Precision Tracking Space System I believe is a 
necessity for our country, especially so we are not outgunned 
by the Irans, the South Koreas, the rogue states. Last year, 
the funding for this program was cut from this committee. The 
good news, we were able to restore it in conference. Now I just 
want to make sure that doesn't happen again. What would be the 
consequences to our national security if this program, which 
has been in existence for 2 years, we have already spent the 
money, would be cut?
    General O'Reilly. Sir, the major impact would be we'd lose 
the ability to assure ourselves that we can track missiles very 
early in flight, which is key to intercepting early and being 
on the right end of a defensive position, and so we would lose 
that ability. We would lose the assurance that we would always 
have the ability to track missiles no matter where they are 
launched in the Northern Hemisphere.
    Mr. Ruppersberger. We don't have that capacity now, 
correct?
    General O'Reilly. No, sir, not over their entire flight 
that we can use for an intercept.
    Mr. Ruppersberger. Is this the only system that we are 
moving forward with now that would provide this to us?
    General O'Reilly. Yes, sir.
    Mr. Ruppersberger. So, again, I am going to ask you the 
question. If in fact this system were not funded and we would 
stop the system 2 years in, do you feel it would affect our 
national security?
    General O'Reilly. Yes, sir.
    Mr. Ruppersberger. Explain why.
    General O'Reilly. Because we would then have to rely on our 
existing radar systems that are either on our current weapon--
our interceptor systems, and it is a much shorter range, so we 
would not see the missiles until they are much later in flight.
    Mr. Ruppersberger. We would basically save money, correct?
    General O'Reilly. Yes, sir.
    Mr. Ruppersberger. Basically, we would have a lot more 
coverage than we have now?
    General O'Reilly. That is correct, yes.
    Mr. Ruppersberger. Right. What would be the percentage of 
difference between the coverage with this program and what we 
have now?
    General O'Reilly. Currently, we have a handful of radars, 
so it is hard to even compare. Probably we cover about less 
than 10 percent of what the PTSS could cover.
    Mr. Ruppersberger. All right. So less than 10 percent. From 
73 percent to 10 percent, that's significant.
    General O'Reilly. Yes, sir.
    Mr. Ruppersberger. Okay, thank you.
    Mr. Scott. Thank you, gentlemen, for coming today.
    Members have the ability to submit questions to you within 
1 week, over the next week.
    And, with that, we are adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 6, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 6, 2012

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 6, 2012

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 6, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Which countries have made what contributions to NATO 
missile defense?
    a. What procedures are in place, or will be needed, to sell or 
export SM-3 missiles to NATO allies in the event they seek to purchase 
them to support their own, or NATO's, missile defense activities?
    Dr. Roberts. All NATO Allies are providing financial support for 
the implementation of European missile defense by agreeing to pay for 
the expansion of Active Layered Theater Ballistic Missile Defense 
(ALTBMD) with NATO common funding.
    Within NATO, Allies are stepping up as contributors to the NATO 
missile defense effort. Germany and the Netherlands currently field 
Patriot PAC-3, Greece and Spain operate Patriot PAC-2, and France and 
Italy have the SAMP/T system, which has capabilities similar to those 
of the Patriot. In addition, the Netherlands has approved plans and 
funding to upgrade the SMART-L radar on four air defense frigates, 
giving the ships a BMD Long-Range Search and Track (LRS&T) capability. 
Germany is testing and intends to operationalize an Airborne Infrared 
System (ABIR) system, which could support NATO BMD. In addition, France 
has proposed a concept for a single geosynchronous infrared shared-
early warning satellite, and is developing transportable, midcourse 
radar for BMD and early warning. Germany and the Netherlands have also 
proposed an interceptor pooling concept where several Allies would 
purchase SM-3 interceptors that could then be used in support of NATO 
missile defense.
    Furthermore, Turkey, Romania, Poland, and Spain have all agreed to 
host U.S. assets in support of NATO missile defense. These host 
governments will bear the costs of providing perimeter defense and 
security for the U.S. assets and infrastructure.
    Existing Foreign Military Sales procedures within the Department of 
Defense can be used by NATO Allies to explore the procurement of SM-3 
missiles and associated infrastructure, including the weapons system to 
support their use.
    Mr. Turner. Please list the countries the U.S. has approached about 
contributing to defray the costs of the EPAA and their responses? What 
specific requests has the U.S. made to which countries?
    Dr. Roberts. The EPAA is the U.S. contribution to a NATO missile 
defense effort. As with every other NATO mission, other nations do not 
pay for the national contributions of individual Allies. Turkey, 
Romania, Poland, and Spain have all agreed to host U.S. assets in 
support of NATO missile defense.
    In addition, NATO Allies are providing financial support for the 
implementation of European missile defense by agreeing to pay for the 
expansion of Active Layered Theater Ballistic Missile Defense (ALTBMD) 
with NATO common funding. We also welcome Allied national contributions 
to NATO missile defense.
    Mr. Turner. What analysis has been done to understand how a IIB 
missile that cannot fit into the current 8-pack VLS system will affect 
Navy force requirements and deployment systems and schedules? Please 
provide that analysis.
    Dr. Roberts. The SM-3 Block IIB is in the concept phase. MDA and 
industry are exploring a full range of performance, risk, and cost 
alternatives. This space is being done to support concepts that range 
from small diameter missile concepts (22 inches) compatible with the 
existing MK 41 VLS eight pack module, and higher performing large 
diameter missile concepts (potentially up to 27 inches) that would 
require a modification to a five cell VLS reload module. A design 
criteria imposed on the concept development contractor teams is that 
there will be no modifications to the VLS system.
    Mr. Turner. What is the current planning for other than Europe 
PAAs? What will costs and architectures look like? Force requirements? 
Burden sharing?
    a. Why hasn't the following report required pursuant to directed 
report language in the FY10 House-passed NDAA been provided? *
---------------------------------------------------------------------------
    * The new Phased Adaptive Approach (PAA) for missile defense in 
Europe announced by the President on September 17, 2009, is likely to 
create increased force structure and inventory demands. Furthermore, as 
noted in the Ballistic Missile Defense Review (BMDR) released on 
February 1, 2010, the Phased Adaptive Approach is to be tailored to 
other geographic regions such as East Asia and the Middle East, which 
is also likely to create significant force structure and inventory 
demands. As acknowledged in the BMDR, ``regional demand for U.S. BMD 
assets is likely to exceed supply for some years to come.''
      Until these regional missile defense architectures are completed, 
the committee is concerned that the Department's missile defense force 
structure and inventory requirements, and the resulting resource 
implications will be difficult to quantify. In addition, certain 
missile defense capabilities, such as Aegis ballistic missile defense 
ships, will remain high demand, low density assets that must be 
carefully managed across the combatant commands so that no one theater 
accepts greater risk at the expense of another.
      The committee is aware that the Department is developing regional 
missile defense architectures based on the PAA and also developing a 
comprehensive force management process. The committee directs the 
Secretary of Defense, in coordination with the Chairman of the Joint 
Chiefs of Staff, to provide a report to the congressional defense 
committees by December 1, 2010, describing: (1) the regional missile 
defense architectures, including the force structure and inventory 
requirements derived from the architectures, and (2) the comprehensive 
force management process, and the capability, deployment, and resource 
outcomes that have been determined by this process.
      (House Report 111-491--NATIONAL DEFENSE AUTHORIZATION ACT FOR 
FISCAL YEAR 2011)
---------------------------------------------------------------------------
    Dr. Roberts. The Ballistic Missile Defense Review stated that the 
United States would seek to develop regional phased adaptive approaches 
to missile defense for the Asia-Pacific and Middle East regions. These 
approaches will be tailored to the threats and circumstances unique to 
that region. The United States will consult closely with Allies and 
partners as we develop these approaches. As the work on the phased 
adaptive approaches for other regions is ongoing, we are unable to 
provide specific details on the approaches at the present time.
    (Anticipate the Report will be provided April 2012).
    Mr. Turner. Will the U.S. seek to deploy an additional TPY-2 in 
Japan? Couldn't such a deployment be used to provided additional sensor 
coverage useful for the defense of the United States?
    Dr. Roberts. Work on bolstering missile defenses in the Asia-
Pacific is ongoing.
    The United States will consult closely with our allies and partners 
as we develop proposals for consideration for a Phased Adaptive 
Approach for the Asia-Pacific region that contributes to Homeland and 
regional defense. This approach will be tailored to the threats and 
circumstances unique to this region.
    Mr. Turner. Who will make the decision to revise the current GMD 
shot doctrine?
    a. If DPRK deploys 5 road mobile ICBMs, does the U.S. have enough 
GBIs under current assumptions of shot doctrine? What if it deploys 10? 
Or 20?
    b. Does the DPRK presently have nuclear warheads capable of being 
mounted on its ballistic missiles?
    Dr. Roberts. [The information referred to is classified and 
retained in the subcommittee files.]
    Mr. Turner. What is the plan to retain Cobra Dane capability? Which 
agencies will pick up the costs? If this has not been decided yet, who 
are the POCs involved in making the decision?
    Dr. Roberts. The Department of Defense (DOD) agreed to assume 
ownership of the radar from the Director of National Intelligence (DNI) 
beginning in Fiscal Year 2013 (FY13). DNI and DOD are currently working 
out all of the transition details. The DNI will pay operation and 
maintenance (O&M) costs through FY14. The U.S. Air Force and the 
Missile Defense Agency are conducting an assessment of necessary O&M 
funding requirements for post transition which will be used to inform 
an agreement to pay for O&M costs thereafter.
    Mr. Turner. If the DPRK deploys 20 ICBMs by 2020, and the IIB is 
delivered and deployed on time, please explain where they will be 
deployed to protect CONUS from a North Korean ballistic missile? a. 
Does this mean they will need to be sea-based at initial deployment? b. 
If they can't fit in the existing 8-pack VLS configuration space, how 
many ships will have to be outfitted with how many interceptors to deal 
with the threat?
    Dr. Roberts. The SM-3 Block IIB is in the concept definition phase, 
and the exact configuration number of missiles and location (land-based 
and/or sea-based) to defend CONUS from a North Korean ICBM attack has 
yet to be determined. The industry concept development teams have been 
given a goal to provide sea-based flexibility. MDA has commenced 
discussions with Navy regarding potential operations to examine trade 
space for shipboard deployment, which will determine the total number 
of missiles deployable per sea-based asset. Due to reductions to the 
budget request for the SM-3 IIB program in FY2012, the IIB will not be 
available until the 2021 timeframe.
    Mr. Turner. Has the Administration seen evidence/intelligence of 
foreign support--including materiel--for the North Korean, road mobile 
ICBM? a. Please detail what the Administration is doing to cut that 
off?
    Dr. Roberts. [The information referred to is classified and 
retained in the subcommittee files.]
    Mr. Turner. Why would an East Coast site have to use GBIs? What 
analysis has been done of the potential of employing either IIA or IIB 
missiles? Please provide that analysis or indicate if it has not been 
done.
    Dr. Roberts. [The information referred to is classified and 
retained in the subcommittee files.]
    Mr. Turner. How is morale in MDA today?
    Dr. Roberts. The results of the 2011 Federal Employee Viewpoint 
Survey (EV survey), sponsored by the Office of Personnel Management 
(OPM), reflect an improvement in 41 of 84 areas, as compared to 2010 
responses, which indicated overall job satisfaction in MDA. In key 
areas (e.g., overall satisfaction, training, salary, ethical conduct, 
diversity and equal employment opportunity etc.), MDA was 7-14 
percentage points above the government wide average. Among the most 
improved agencies in the EV survey, MDA was number 32 of 154 
government-wide. This improvement in morale was achieved despite the 
involuntary realignment of approximately 75 percent of the MDA National 
Capital Region workforce during Base Closure and Realignment Commission 
(BRAC) implementation.
    [The information referred to can be found in the Appendix on pages 
118-124.]
    Mr. Turner. Will both existing sensors and interceptors be 
evaluated as part of your Hedge report?
    a. Will your plan assume use of existing discriminating radar for 
defense of the west and east coast CONUS regions?
    b. Will your plan provide an investment strategy which will 
optimize sensor and interceptor performance to accommodate early 
deployment options as well as the longer term such as phase 4 of PAA?
    c. What about the implementation of air launched weapons as part of 
the boost phase solution?
    Dr. Roberts. Yes, the hedge strategy is focused on increasing the 
capacity and effectiveness of the Ground-based Midcourse Defense (GMD) 
system, including sensors and interceptors. Our homeland defense plans 
and the hedge strategy are focused on increasing the capacity and 
effectiveness of the GMD system, including sensors and interceptors. 
Yes, our homeland defense plans and hedging strategy are designed to 
maintain and enhance the future protection provided by the GMD system, 
and the Standard Missile-3 (SM-3) Block IIB. Potential implementation 
of air launched weapons is being assessed in the ongoing Airborne 
Weapons Layer Cost/Benefit Analysis (AWL C/BA). The AWL C/BA is a joint 
effort by the Air Force and the Missile Defense Agency, and is planned 
for completion in the fall of 2012.
    Mr. Turner. Will the IIB be deployed in land- and sea-based modes 
in 2020? In what quantities? Based on past experience with the GMD and 
SM-3 IA, and the recent test failure of the IB, what is the projected 
shot doctrine for the IIB likely to be?
    Dr. Roberts. The SM-3 Block IIB will be designed and developed to 
be deployable in Aegis BMD assets both land- and sea-based. Initial 
fielding will occur in the 2021 timeframe with a planning factor of 24 
SM-3 Block IIBs for each Aegis system with an anti-ICBM mission. 
Operational questions regarding shot doctrine and rules of engagement 
should be directed to the Combatant Commanders and Joint Staff.
    Mr. Turner. What requirements changed to support reducing THAAD 
battery purchases by 3 and THAAD interceptor purchases by 66?
    Dr. Roberts. We had to prioritize due to affordability and chose to 
purchase Terminal High Altitude Area Defense (THAAD) batteries at a 
slower rate; however, our commitment to missile defense remains 
unchanged.
    THAAD production continues and can be extended without re-start 
costs in FY 2014 if necessary. The regional protection provided by 
Aegis BMD ships and Patriot batteries provides some overlap with the 
protection that could be provided by a THAAD deployment.
    Mr. Turner. Why is MDA procuring 6 fewer TPY-2 radars under the 
FY13 budget and FYDP? What assumptions changed since last year?
    Dr. Roberts. We had to prioritize due to affordability and chose to 
conclude the procurement of additional AN/TPY-2 Radars in FY 2013. 
However, our commitment to missile defense remains unchanged.
    TPY-2 Radar production continues through FY 2013 and can be 
extended without re-start costs in PB14 if necessary. The recent 
Foreign Military Sales case with the United Arab Emirates also keeps 
the TPY-2 radar production line open, providing future production 
opportunities.
    In addition, the Precision Tracking Space System (PTSS) could 
reduce the need to use TPY-2 radars as forward-based sensors when it 
becomes available.
    Mr. Turner. How much would an EIS on an East Coast missile defense 
site cost? Would it make sense to do an EIS on more than one location, 
e.g., Ft. Drum and Loring AFB?
    Dr. Roberts. MDA's estimate for an Environmental Impact Statement 
(EIS) is approximately $8 million. The actual cost would depend on the 
final number of candidate sites and the locations within the sites 
analyzed to meet National Environmental Policy Act (NEPA) requirements. 
Environmental conditions that also impact costs include endangered and 
threatened species habitats, cultural resources, natural resources, and 
proximity to developed areas.
    If an EIS is conducted, it is preferable to assess more than one 
location, based on sitting study input of viable alternatives.
    Mr. Turner. What was the cost estimate of the EPAA when the Obama 
Administration decided to make it a U.S. contribution to NATO? What is 
it today?
    Dr. Roberts. As requested by Congress, the Assistant Secretary of 
Defense for Cost Assessment and Program Evaluation (CAPE) is completing 
a detailed estimate of unique EPAA costs.
    The mobile and relocatable nature of the assets associated with the 
phased adaptive approach complicates the analysis of which costs are 
attributed solely to EPAA because BMD forces can be (and are) 
redeployed and sourced to different theaters and regions depending on 
when and where crises or conflicts may arise.
    Mr. Turner. Please list the specific exceptions to the National 
Disclosure Policy related to missile defense? Missile defense and 
Russia? Russia?
    Dr. Roberts. U.S. national disclosure policy does not specifically 
address U.S. missile defense information. However, it makes clear that 
classified military information is a national security asset that shall 
be protected and shall be shared with foreign governments only when 
there is a clearly defined benefit to the United States.
    Mr. Turner. Please describe the role of the NORTHCOM Commander in 
producing the hedging strategy? Has he been involved at every step? How 
many of the iterations of the strategy has he seen and commented on?
    Dr. Roberts. U.S. Northern Command has been involved in the 
development of the hedge strategy, including participation in 
interagency meetings and meetings of the Missile Defense Executive 
Board.
    Mr. Turner. Why is a DTCA needed with Russia?
    a. What would such an agreement permit by way of U.S. and Russian 
missile defense cooperation?
    Dr. Roberts. The Defense Technology Cooperation Agreement (DTCA) 
being negotiated would provide an overarching agreement for the legal 
framework under which the United States and the Russian Federation 
could conduct bilateral defense cooperative research and development 
projects with individual implementing agreements.
    The Department is continuing to examine projects that would benefit 
the United States through the Defense Technology Cooperation Sub-
Working under the Defense Relations Working Group. The DTCA itself does 
not authorize any specific project.
    Mr. Turner. In light of the limited number of GBI's in inventory, 
what is the COCOM inventory management strategy and is it consistent 
with MDA?
    Dr. Roberts. The Commander, U.S. Northern Command is responsible 
for determining the most effective management of the GBI inventory. MDA 
provides technical analysis, including reliability data for the GBIs, 
for U.S. Northern Command's consideration in developing shot doctrine 
and inventory management.
    Mr. Turner. Which countries have made what contributions to NATO 
missile defense? a. What procedures are in place, or will be needed, to 
sell or export SM-3 missiles to NATO allies in the event they seek to 
purchase them to support their own, or NATO's, missile defense 
activities?
    General O'Reilly. Our international allies are making significant 
contributions to the NATO territorial missile defense mission by 
hosting key EPAA assets within their respective countries. Turkey is 
hosting an AN/TPY-2 under Phase I of EPAA, Romania and Poland will host 
Aegis Ashore Sites beginning in Phase II and III respectively, and 
beginning in 2014, four multi-mission Arleigh Burke-class guided-
missile destroyers with BMD capability will be forward deployed to 
Rota, Spain in support of EPAA.
    As a result of a decision taken by NATO nations at the 2010 Lisbon 
Summit, the Active Layered Theater Ballistic Missile Defense (ALTBMD) 
program is being expanded to include the territorial missile defense 
mission. The ALTBMD Program is a NATO common funded command and control 
system that will enable real-time information exchanges between NATO 
and national missile defense systems. NATO will issue force goals for 
territorial missile defense in 2013 and invite nations to pledge 
missile defense assets for territorial missile defense. To date, the 
Netherlands, France and Germany, have all made political commitments to 
provide missile defense systems for territorial missile defense of 
Europe. The Netherlands, has offered to provide up to four frigates 
with upgraded SMART-L radars, beginning in 2017 for the NATO 
territorial missile defense mission. France has offered to provide 
satellite capabilities for early detection and warning as well as a 
long-range early warning radar for territorial missile defense. Germany 
has also committed to provide PATRIOT batteries for the same. Many 
other NATO nations are discussing upgrading shipboard sensors to enable 
BMD detection, tracking and cueing functions. We fully expect as NATO 
establishes force planning goals for territorial missile defense, that 
other NATO nations will offer their national missile defense systems, 
both land and sea-based for territorial missile defense of NATO Europe.
    Existing Foreign Military Sales procedures within the Department of 
Defense can be used by NATO allies to explore the procurement of SM-3 
missiles and associated infrastructure, including the weapons system to 
support their use.
    Mr. Turner. Please list the countries the U.S. has approached about 
contributing to defray the costs of the EPAA and their responses? What 
specific requests has the U.S. made to which countries?
    General O'Reilly. MDA has not approached NATO Allies about 
contributing to defray the cost of EPAA. EPAA is the U.S. contribution 
to NATO territorial missile defense.
    NATO Allies are addressing their own ability to contribute to NATO 
territorial MD. The Active Layered Theater Ballistic Missile Defense 
(ALTBMD) Program is a NATO common funded command and control system 
that will enable real-time information exchanges between NATO and 
national missile defense systems. NATO will issue force goals for 
territorial missile defense in 2013 and invite nations to pledge 
missile defense assets for territorial missile defense.
    MDA has had discussions with Denmark regarding conducting a 
technical analysis of the L-band radar aboard their new frigates to 
determine inherent BMD capability these ships may possess to support 
territorial missile defense. In the near term, MDA will conduct a joint 
technical interchange meeting with Denmark to determine the scope, 
timeline and next steps for such an effort.
    At the request of the Netherlands Ministry of Defence (MoD), MDA 
has met with Dutch government officials to discuss a multi-national 
NATO-led effort to analyze L-band radars aboard ships from NATO 
countries (including Germany, Denmark, and the United Kingdom) to 
determine inherent BMD capability and what upgrades may be necessary to 
increase this capability. Through a foreign military sales case, MDA 
has conducted a technical analysis with the Dutch Navy that resulted in 
the Dutch MoD commitment (and parliamentary approval) to upgrade the 
SMART-L radars aboard their four frigates for BMD surveillance and 
track functions.
    Additionally, the U.S. continues to support the United Kingdom's 
efforts to understand the potential for their Type-45 Destroyer to 
contribute to BMD operations in a coalition environment.
    Finally, it should be emphasized that our international allies are 
making significant contributions to the NATO territorial missile 
defense mission by hosting key EPAA assets within their respective 
countries. Turkey is hosting an AN/TPY-2 under Phase I of EPAA, Romania 
and Poland will host Aegis Ashore Sites beginning in Phase II and III 
respectively, and beginning in 2014, four multi-mission Arleigh Burke-
class guided-missile destroyers with BMD capability will be forward 
deployed to Rota, Spain in support of EPAA.
    Mr. Turner. What analysis has been done to understand how a IIB 
missile that cannot fit into the current 8-pack VLS system will affect 
Navy force requirements and deployment systems and schedules? Please 
provide that analysis.
    General O'Reilly. The SM-3 Block IIB is in the concept phase and 
the exact configuration, number of missiles, and location (land-based 
and/or sea-based) to defend CONUS has not been determined. To ensure 
that missile trade studies explore the full range of performance, risk, 
and cost alternatives, MDA and industry are exploring a broad trade 
space, allowing concepts to range from small diameter missile concepts 
(22 inches) compatible with the existing MK 41 VLS eight pack module, 
and higher performing large diameter missile concepts (27 inches) that 
would require a modified five cell VLS module. However, all industry 
concept development teams have been given a goal to minimize any 
impacts to the Aegis system (including the VLS system).
    Mr. Turner. What is the current planning for other than Europe 
PAAs? What will costs and architectures look like? Force requirements? 
Burden sharing?
    a. Why hasn't the following report required pursuant to directed 
report language in the FY10 House-passed NDAA been provided? *
---------------------------------------------------------------------------
    * The new Phased Adaptive Approach (PAA) for missile defense in 
Europe announced by the President on September 17, 2009, is likely to 
create increased force structure and inventory demands. Furthermore, as 
noted in the Ballistic Missile Defense Review (BMDR) released on 
February 1, 2010, the Phased Adaptive Approach is to be tailored to 
other geographic regions such as East Asia and the Middle East, which 
is also likely to create significant force structure and inventory 
demands. As acknowledged in the BMDR, ``regional demand for U.S. BMD 
assets is likely to exceed supply for some years to come.''
      Until these regional missile defense architectures are completed, 
the committee is concerned that the Department's missile defense force 
structure and inventory requirements, and the resulting resource 
implications will be difficult to quantify. In addition, certain 
missile defense capabilities, such as Aegis ballistic missile defense 
ships, will remain high demand, low density assets that must be 
carefully managed across the combatant commands so that no one theater 
accepts greater risk at the expense of another.
      The committee is aware that the Department is developing regional 
missile defense architectures based on the PAA and also developing a 
comprehensive force management process. The committee directs the 
Secretary of Defense, in coordination with the Chairman of the Joint 
Chiefs of Staff, to provide a report to the congressional defense 
committees by December 1, 2010, describing: (1) the regional missile 
defense architectures, including the force structure and inventory 
requirements derived from the architectures, and (2) the comprehensive 
force management process, and the capability, deployment, and resource 
outcomes that have been determined by this process.
      (House Report 111-491--NATIONAL DEFENSE AUTHORIZATION ACT FOR 
FISCAL YEAR 2011)
---------------------------------------------------------------------------
    General O'Reilly. The Under Secretary of Defense for Policy, the 
Department of Defense, is responsible for developing policy for the 
planning of PAAs beyond Europe.
    The Defense Department provided an input for the reporting 
requirement of the FY11 NDAA in its August 18, 2011 correspondence to 
Senators Levin and Inouye and Representatives Rogers and McKeon which 
included the results of the Joint Capability Mix (JCM) III Study. 
Copies of this correspondence, which includes the JCM III briefing, are 
attached.
    [The information referred to is classified and retained in the 
subcommittee files.]
    Mr. Turner. Will the U.S. seek to deploy an additional TPY-2 in 
Japan? Couldn't such a deployment be used to provided additional sensor 
coverage useful for the defense of the United States?
    General O'Reilly. MDA does not determine where BMDS assets are 
deployed. The Warfighter, Joint Chiefs of Staff, and the Under 
Secretary of Defense for Policy advise the Secretary of Defense on 
international deployments.
    From a technical perspective, an additional AN/TPY-2 radar in 
Japan, with an appropriate boresight, can provide sensor viewing of 
intercontinental ballistic missile trajectories from North Korea to the 
United States to add another layer of support to the Ballistic Missile 
Defense System sensor architecture.
    Mr. Turner. Who will make the decision to revise the current GMD 
shot doctrine?
    a. If DPRK deploys 5 road mobile ICBMs, does the U.S. have enough 
GBIs under current assumptions of shot doctrine? What if it deploys 10? 
Or 20?
    b. Does the DPRK presently have nuclear warheads capable of being 
mounted on its ballistic missiles?
    General O'Reilly. (a) The Commander of United States Northern 
Command (CDRUSNORTHCOM) has the authority and responsibility for 
defense of the United States. Questions in this subject area should be 
directed toward CDRUSNORTHCOM.
    (b) Questions in this subject area should be directed to the Under 
Secretary of Defense for Intelligence and the broader Intelligence 
Community. The Missile Defense Agency does not maintain the 
intelligence resources to assess foreign nuclear capability.
    Mr. Turner. What is the plan to retain Cobra Dane capability? Which 
agencies will pick up the costs? If this has not been decided yet, who 
are the POCs involved in making the decision?
    General O'Reilly. MDA plans to fund our share of the operation and 
support costs for the sustainment of Cobra Dane with all other users 
for as long as it is operational.
    Mr. Turner. If the DPRK deploys 20 ICBMs by 2020, and the IIB is 
delivered and deployed on time, please explain where they will be 
deployed to protect CONUS from a North Korean ballistic missile? a. 
Does this mean they will need to be sea-based at initial deployment? b. 
If they can't fit in the existing 8-pack VLS configuration space, how 
many ships will have to be outfitted with how many interceptors to deal 
with the threat?
    General O'Reilly. The SM-3 Block IIB is in the concept definition 
phase and the exact configuration, number of missiles, and location 
(land-based and/or sea-based) to defend CONUS from a North Korean ICBM 
attack yet to be determined. The industry concept development teams 
have been given a goal to provide sea-based flexibility. MDA has 
commenced discussions with Navy regarding potential operations to 
examine trade space for shipboard deployment which will determine the 
total number of missiles deployable per sea-based asset.
    Mr. Turner. Has the Administration seen evidence/intelligence of 
foreign support--including materiel--for the North Korean, road mobile 
ICBM? a. Please detail what the Administration is doing to cut that 
off?
    General O'Reilly. Questions in this subject area should be directed 
toward the Under Secretary of Defense for Intelligence and the broader 
Intelligence Community. The Missile Defense Agency does not maintain 
intelligence resources to assess North Korean and Iranian ICBM 
development.
    (a) Questions regarding the Administration's actions in response to 
intelligence reports should be directed to the National Security Staff 
and the Office of the Secretary of Defense, specifically the Under 
Secretary of Defense for Intelligence.
    Mr. Turner. Why would an East Coast site have to use GBIs? What 
analysis has been done of the potential of employing either IIA or IIB 
missiles? Please provide that analysis or indicate if it has not been 
done.
    General O'Reilly. [The information referred to is classified and 
retained in the subcommittee files.]
    Mr. Turner. How is morale in MDA today?
    General O'Reilly. The results of the 2011 Federal Employee 
Viewpoint Survey (EV survey), sponsored by the Office of Personnel 
Management (OPM), reflect our improvement in 41 of 84 areas, as 
compared to 2010 responses, which indicated overall job satisfaction in 
MDA. In key areas (e.g., overall satisfaction, training, salary, 
ethical conduct, diversity and equal employment opportunity etc.), MDA 
was 7-14 percentage points above the government wide average. Finally, 
among the most improved agencies in the EV survey, MDA was 32 of 154 
government-wide. Slides more fully summarizing our results are 
attached. This improvement in morale was achieved despite the 
involuntary realignment of approximately over 75% of the MDA NCR 
workforce during BRAC implementation.
    [The slides referred to can be found in the Appendix on pages 118-
124.]
    Mr. Turner. Will both existing sensors and interceptors be 
evaluated as part of your Hedge report?
    a. Will your plan assume use of existing discriminating radar for 
defense of the west and east coast CONUS regions?
    b. Will your plan provide an investment strategy which will 
optimize sensor and interceptor performance to accommodate early 
deployment options as well as the longer term such as phase 4 of PAA?
    c. What about the implementation of air launched weapons as part of 
the boost phase solution?
    General O'Reilly. While the Missile Defense Agency has provided 
analysis supporting Hedge options, this effort is under the purview of 
the Under Secretary of Defense for Policy (USDP), and I would defer to 
USDP on these questions.
    Mr. Turner. Will the IIB be deployed in land- and sea-based modes 
in 2020? In what quantities? Based on past experience with the GMD and 
SM-3 IA, and the recent test failure of the IB, what is the projected 
shot doctrine for the IIB likely to be?
    General O'Reilly. The SM-3 Block IIB will be designed by the 
Missile Defense Agency in cooperation with the U.S. Navy to have both 
land-based and sea-based capability. Initial fielding will occur at 
land-based Aegis Ashore sites in Europe in the 2021 timeframe. The 
industry concept development teams have been given a goal and incentive 
to propose ship compatible SM-3 IIB concepts. The Navy and MDA will 
determine the opportunity and resultant timeline to deploy the SM-3 
Block IIB on Aegis BMD ships.
    Additional information is provided in the classified response.
    Mr. Turner. What requirements changed to support reducing THAAD 
battery purchases by 3 and THAAD interceptor purchases by 66?
    General O'Reilly. There was no change in requirements. However, to 
meet budget constraints driven by debt ceiling considerations, the 
Department followed standard procedures for budget decisions. 
Specifically, the Missile Defense Executive Board provided guidance and 
considered many options before recommending the reduction of THAAD and 
AN/TPY-2 purchases to the Defense Management Action Group (DMAG). The 
DMAG concurred that these reductions posed the least impact on overall 
missile defense capability and approved the recommendation to reduce 
the number of THAAD and AN/TPY-2 radars for inclusion in the 
President's Budget for FY 2013.
    Mr. Turner. Why is MDA procuring 6 fewer TPY-2 radars under the 
FY13 budget and FYDP? What assumptions changed since last year?
    General O'Reilly. To meet budget constraints driven by debt ceiling 
considerations, the Department followed standard procedures for budget 
decisions. Specifically, the Missile Defense Executive Board provided 
guidance and considered many options before recommending the reduction 
of THAAD and AN/TPY-2 reductions to the Defense Management Action Group 
(DMAG). The DMAG concurred that these reductions posed the least impact 
on overall missile defense capability and approved the recommendation 
to reduce the number of THAAD and AN/TPY-2 radars for inclusion in the 
President's Budget for FY 2013.
    Mr. Turner. How much would an EIS on an East Coast missile defense 
site cost? Would it make sense to do an EIS on more than one location, 
e.g., Ft. Drum and Loring AFB?
    General O'Reilly. MDA's estimate for an Environmental Impact 
Statement (EIS) is $3 million. The actual cost will depend on the final 
number of candidate site(s) and the location(s) within the site(s) 
analyzed to meet National Environmental Policy Act requirements. 
Environmental conditions that also impact costs include endangered and 
threatened species habitats, cultural resources, natural resources, and 
proximity to developed areas.
    Yes, it makes sense to do an EIS on more than one location based on 
siting study input of viable alternatives. Any location suitable for a 
missile field would have to account for a 50 km radius for a first 
stage booster drop zone and a 600 km radius for a second stage booster 
drop zone.
    Mr. Turner. Did IDA and NAS in their recently completed studies on 
missile defense conclude that an East Coast site would be beneficial 
for the defense of the United States? Didn't Northcom do the same in 
2007-2008 before the President issued the BMDR and changed the policy?
    General O'Reilly. [The information referred to is classified and 
retained in the subcommittee files.]
    Mr. Turner. Please explain what ``cuing'' PTSS will need? Which 
specific systems will provide the cue to PTSS?
    General O'Reilly. PTSS is the persistent component of an overall 
BMDS sensor architecture that consists of multiple, mutually 
reinforcing sensor systems that cover the missile defense battle-space 
from ignition to reentry. PTSS looks above the horizon--away from the 
structured clutter of the hard earth and atmospheric limb--in the late 
boost, post boost and midcourse phases of threat flight, delivering 
precision 3D tracks to the BMDS fire control network. By design, PTSS 
does not perform the below-the-horizon boost phase acquisition and 
track functions. PTSS will leverage the integration of all-source 
Overhead Persistent Infrared (OPIR) data feeds (Air Force's Space Based 
Infrared System and several Intelligence Community sensors) into the 
BMDS and the distribution of OPIR data for missile defense processing 
on compressed engagement timelines. PTSS is a cued precision tracking 
capability that will receive tasking from C2BMC based on an OPIR 
handover or cue. OPIR state vectors will be used by PTSS to initialize 
the tracking sensor scheduling process and to refresh the target list 
as new launches are detected and processed.
    Mr. Turner. How many PTSS satellites will be procured in the 
initial constellation (6, 9, or 12)? When will this decision be made? 
What will factor in to the size of the constellation?
    a. When will the first replacement satellites need to be procured? 
Launched?
    b. How far in advance of such procurement and launch will that 
decision be made?
    General O'Reilly. Nine (9) PTSS satellites will be procured in the 
initial constellation.
    Two factors determine the size of the operational constellation: 1) 
raid handling capacity and 2) evolution of the threat. Six (6) 
satellites in the on-orbit constellation provide the minimum 
connectivity necessary for around-the-globe communications, nine (9) 
satellites provide stereo coverage of ballistic missile threats and 
twelve (12) satellites provide operational redundancy and resiliency.
    a. Given a 9-satellite constellation, satellite #10 would be the 
first replenishment satellite to be used as the first vehicles near 
their predicated end of life. Launching PTSS satellites is more cost 
effective today if two satellites are launched together on one Atlas or 
Delta launch vehicle, PTSS satellite #10 would accompany satellite #9 
on the same launch vehicle. That tandem launch is expected to occur in 
FY24, with advanced procurement beginning six years prior to that 
(FY18).
    Note: in this timeframe, the commercial marketplace may include a 
new launch provider that may be able to offer cost effective options 
for single-satellite launches, presenting the opportunity to decouple 
the launch of satellite #10 from satellite #9. MDA will monitor that as 
activities progress.
    b. The advanced procurement decision for satellite #10 would be 
made in FY18. The production decision for satellite #10 would be made 
one year later (FY19).
    Mr. Turner. Please detail what opportunities the USAF will have to 
provide input on PTSS design requirements to optimize its SSA 
capabilities. When will this occur? Who will be the direct responsible 
POCs for USAF and MDA decisions on PTSS requirements in support of SSA?
    General O'Reilly. The USAF and MDA have been working together since 
2010 on PTSS support to Space Situational Awareness (SSA).
    In the summer 2010, MDA and Air Force Space Command (AFSPC) 
conducted a joint study to assess the PTSS design to understand how 
PTSS could contribute to the SSA mission. This study provided a high 
level snapshot of how PTSS could contribute to the SSA mission as 
identified in USSTRATCOM's SSA Initial Capabilities Document.
    In March 2012, a second joint study between MDA and AFSPC was 
kicked off to explore in further detail PTSS's inherent SSA 
capabilities, implementation options, required interfaces and cost 
estimates. This study is set to conclude in June 2012 and the results 
will be briefed to the July 2012 PTSS Systems Requirements Review 
(SRR).
    AFSPC will update its long term SSA architecture with the inherent 
SSA capability delivered by PTSS as documented in the March 2012 joint 
study.
    AFSPC and MDA will jointly review the study requirements. We expect 
that some will require changes to ground data processing and 
dissemination. These changes could be handled as new inputs from AFSPC 
and MDA to the DOD Joint Overhead Persistent Infrared (OPIR) Ground 
system architecture.
    Mr. Turner. Please provide an annualized and detailed cost 
breakdown on operating SBX since the capability came online. a. Please 
provide breakdown of how PBR13 will be spent.
    General O'Reilly. The annualized cost breakdown for the Sea Based 
X-Band Radar (SBX) is contained in the attached table.
    [The table can be found in the Appendix on page 125.]
    In FY13, the SBX will be in a Limited Test Support Status. In this 
status, the Sea-Based X-Band (SBX) radar will retain its unique 
capabilities. Its technical performance capability will continue, 
including connectivity to the Ground-Based Midcourse Defense Fire 
Control System. SBX will maintain its American Bureau of Shipping (ABS) 
and Coast Guard certifications, and will be staffed to maintain the 
vessel, X-band radar (XBR) and other critical systems for support to 
both testing and contingency activation.
    It will continue to participate in Ballistic Missile Defense System 
ground and flight testing, while being available to support contingency 
operations as directed by OSD and the Joint Staff. The Missile Defense 
Agency (MDA) is working with Joint Staff and the U.S. Strategic 
Command's Joint Functional Component Command for Integrated Missile 
Defense to determine the appropriate response time for contingencies.
    The Navy and MDA joint cost estimate for Limited Test Support 
Status is still being developed and is expected to be complete in May 
2012.
    Mr. Turner. What will be the discrimination capability of the PTSS 
constellation at IOC originating from the satellites themselves?
    General O'Reilly. Discrimination of warheads, decoys, lifting 
bodies, debris, etc. is an activity with C2BMC and BMDS terrestrial and 
space-borne sensors each contributing a necessary part. PTSS has a 
three color infrared sensor. The three colors are Visible-Near Infrared 
(VNIR), Mid Wave Infrared (MWIR), and Mid Long Infrared (MLIR). 
Collecting observations in these three bands simultaneously aids PTSS 
in a process called bulk filtering (frame-to-frame comparisons based on 
radiometric features of an object like object temperature and 
emissivity area) to eliminate hot fuel debris associated with threat 
missile thrust termination and unsteady motor operation. This raw data 
is sent to the C2BMC for further discrimination and determination, such 
as combining PTSS with radar data to fully exploit the multiple sensor 
types. PTSS also has the ability to track ballistic missiles in a 
``birth-to-death'' fashion and observe reentry vehicle deployments. 
PTSS will also be connected to other sensors by C2BMC to observe 
behaviors and features of closely spaced objects over extended time 
periods and during unexpected movements.
    Mr. Turner. Will PTSS transmit its data direct to interceptors, or 
will it have to be routed through land-based systems or other 
satellites? Please respond in detail.
    General O'Reilly. PTSS does not communicate directly to 
interceptors or interceptor weapon systems; it is a node on the 
networked Ballistic Missile Defense System (BMDS) and therefore PTSS 
data is communicated to weapon systems through the BMDS Command and 
Control Battle Management Communications (C2BMC) element.
    The PTSS architecture includes multiple communication paths to 
transmit tracking data to the C2BMC for networked dissemination to 
various weapon fire control systems. PTSS communication paths include:
    <bullet>  A satellite communications crosslink that allows any PTSS 
satellite to pass its tracking data to its neighboring satellite in the 
constellation
    <bullet>  Existing space entry point links
    <bullet>  MDA ground entry point links
    <bullet>  Emergency ground link to the Air Force Satellite 
Communication Network.
    These links are available on all space vehicles in the PTSS 
constellation and thus provide connectivity to the PTSS operations 
center. The PTSS operations center provides connectivity to the C2BMC 
as well as other critical nodes, including the Joint Space Operations 
Center and the Joint Overhead Persistent Infrared (OPIR) Ground.
    Mr. Turner. What are your views on the Iron Dome system? What parts 
of the system (i.e., technologies) could be of value to the U.S.?
    General O'Reilly. Iron Dome has been used in combat for Rocket, 
Artillery and Mortar Defense (RAM-D) and is currently in production 
with four batteries delivered and deployed in Israel. Iron Dome has 
demonstrated capability in defending populated areas against Rocket 
Artillery and Mortar (RAM) attacks with fly-out ranges of four to 
seventy kilometers.
    The Missile Defense Agency is not the lead for ongoing studies 
within the Department for the Iron Dome System, but it is being 
considered in three U.S. suitability assessments: Indirect Fire 
Protection Capability (IFPC) Increment II Analysis of Alternatives 
(AoA); Cost Assessment and Program Evaluation (CAPE) study directed by 
the Deputy Secretary of Defense; and Center for Army Analysis 
Integrated Air and Missile Defense (CAA IAMD) future investment 
strategy for Assistant Chief of Staff, G-8. These studies are not yet 
completed, and questions regarding them should be directed to the 
appropriate lead within the Department.
    Mr. Turner. How would STSS be used to respond to an attack on CONUS 
today?
    General O'Reilly. STSS is not an operational element within the 
BMDS and would not be used for the homeland defense mission.
    STSS consists of only two satellites in lower earth orbit and as 
such has very limited coverage. It is a research and development system 
used to demonstrate on-orbit space-based technologies to track 
ballistic missiles in mid-course phase and provide a networked remote 
sensor capability to deliver fire control quality data to BMDS weapons 
systems such as Aegis. STSS is providing valuable insights and risk 
reduction for the Precision Tracking Space System (PTSS) and BMDS space 
integration across expected range of performance, CONOPS, Tactics, 
Techniques, Procedures, and BMDS architectures, and for potential 
contribution to other mission areas such as Space Situational 
Awareness.
    Mr. Turner. Please provide a detailed description of the costs to 
conduct an ICBM test in late FY13.
    General O'Reilly. There are no ICBM tests planned in FY13. An ICBM 
test (FTG-11) is scheduled for late FY15, and another ICBM test (FTG-
13) is planned for late FY16. Programmed funds associated with those 
tests are detailed below by fiscal year.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. Turner. What is the minimum VBO required for the SM-3 IIB 
missile?
    a. An SM-3 IIA missile?
    b. An SM-3 IB missile?
    General O'Reilly. [The information referred to is classified and 
retained in the subcommittee files.]
    Mr. Turner. Do you have sufficient missile inventory to meet PAA 
phase 1 and 2 deployment objectives?
    General O'Reilly. In executing the attached proposed Standard 
Missile-3 Buy-Delivery Plan (assumes approval of MDA's Above Threshold 
Reprogramming request (Ser. # FY12-10PA)), missile inventory will be 
sufficient to meet the present PAA phases 1 and 2 deployment objectives 
at the end of FY 2015.
    [The information referred to can be found in the Appendix on page 
126.]
    Mr. Turner. Please describe how many spares MDA will have for 
testing if MDA procures 57 GBIs? How many years of reliability tests 
will that support?
    General O'Reilly. (a): Procuring 57 Ground Based Interceptors 
(GBIs) will provide for 30 operational interceptors, 16 for planned 
Integrated Master Test Plan (IMTP) testing and 11 additional for 
Stockpile Reliability Program (SRP) testing and spares
    (b): The 57 GBIs support IMTP testing and reliability testing 
through 2032.
    Mr. Turner. Regarding the SM-3 IB, what components is MDA 
accepting/not accepting from the vendor prior to a successful intercept 
test later this year?
    General O'Reilly. MDA is currently only accepting missile 
components necessary for the RDT&E Flight Test Rounds. Further 
procurement of components for production missiles are pending Long Lead 
Kinetic Warhead Materiel Procurement Authorization currently scheduled 
for 1QFY13 and subsequent production decisions.
    Mr. Turner. Is it a requirements driver to have PTSS able to track 
a raid size of many (i.e., at least a dozen) SRBMs and/or MRBMs? How 
would the raid size requirements change if the constellation was 
oriented around purely homeland defense?
    General O'Reilly. Yes, it is a requirement to have PTSS able to 
track a raid size of many dozens of MRBMs and IRBMs. PTSS also has the 
ability to track SRBMs if they reach a sufficient altitude and/or 
range. The raid size capacity requirement would not be impacted if the 
constellation was oriented around purely homeland defense. The current 
approach for PTSS supports Homeland Defense against areas where we are 
the most concerned, as well as from unexpected launch locations. The 
architecture is flexible and adaptable to evolving threats, such as if 
improved defense against emerging threats.
    Mr. Turner. Please provide an excursion showing sensor coverage of 
threats against the United States launched from North Korea using 
current radars, including SBX, and a TPY-2 deployed in Japan (facing 
the appropriate direction).
    a. Provide the same with PTSS deployed.
    General O'Reilly. [The information referred to is classified and 
retained in the subcommittee files.]
    Mr. Turner. Please provide an excursion showing sensor coverage of 
threats against the United States launched from Iran using current 
radars, including Cape Cod UEWR, and a TPY-2 deployed in the South 
Caucasus.
    a. Provide the same with PTSS deployed.
    General O'Reilly. [The information referred to is classified and 
retained in the subcommittee files.]
    Mr. Turner. Please provide a detailed description of the costs to 
conduct an ICBM test in late FY13.
    General O'Reilly. There are no ICBM tests planned in FY13. An ICBM 
test (FTG-11) is scheduled for late FY15, and another ICBM test (FTG-
13) is planned for late FY16. Programmed funds associated with those 
tests are detailed below by fiscal year.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. Turner. If there was I&W of a threat to CONUS, how long and how 
much would it cost to fully load all 39 GBI silos with current GBI 
inventory? Please provide a detailed breakdown.
    a. Will there ever be a year through 2025 when MDA would not have 
the GBI inventory to fully load out all 39 GBI silos?
    General O'Reilly. (a) The Department continues to refine Hedge 
strategy options, and emplacing 38 operational GBIs is one of the 
considered courses of action. If approved by the Department, with 
Missile Field 2, there are 38 available silos for operational use 
(assuming Missile Field 1 is empty). The 39th silo referred to the 
question is a test silo and is required for the Integrated Master Test 
Plan test program. The Agency would have the GBI inventory to load 38 
silos by 4QFY2014. This assumes:
    <bullet>  Successful execution of Return-to-Intercept Program (CTV-
01 and FTG-06b)
    <bullet>  All spare GBIs are loaded into the eight operational 
Missile Field 2 silos
    The cost to emplace the eight additional GBIs to reach a total of 
38 operational is $16.0M.
    Once the inventory of 38 GBIs is reached by 4QFY2014, the program 
could maintain that inventory level through 2025. Additional GBIs are 
included under the Development and Sustainment Contract and scheduled 
for delivery in FY2016 through FY2018 to support spares and flight 
tests.
    Mr. Turner. The NDAA states that the FY 12 funds are to be the 
``final obligation'' of funds. Can you assure me that DOD understands 
this new law, and that DOD will work to find a resolution that avoids 
the U.S. continuing to have to spend hundreds of millions of dollars on 
a program that will never be procured?
    Mr. Ahern. Section 235 of the Fiscal Year (FY) 2012 National 
Defense Authorization Act (NDAA) requires the Department to submit a 
plan to use FY 2012 funding for MEADS as final obligations for either 
implementing a restructured program of reduced scope or funding 
termination liability costs. DOD fully understands this law, noting 
also that it is within the President's sole authority to determine the 
content of his proposed annual budget in future years. Thus, submitting 
a President's Budget request for FY 2013 that included a request for 
funds for the MEADS was not in violation of the law. In accordance with 
the FY 2012 NDAA, the Department has repeatedly consulted and attempted 
to negotiate with our international partners, the German and Italian 
Ministries of Defense (MODs), regarding development of a plan to 
further restructure the program in the event that Congress does not 
authorize or appropriate FY 2013 funding to complete our MEADS Design 
and Development Memorandum of Understanding (MOU) obligations. We have 
advised the German and Italian MODs at the highest levels that there is 
significant risk that FY 2013 funding may not be made available by the 
Congress. In response, our partners have made clear to the Department, 
and the German Minister of Defense has advised Senator Levin directly, 
that they remain fully committed to their MOU obligations and expect 
that all partner nations will provide their 2013 funding to complete 
the Proof of Concept effort. They have also made clear that we are too 
late in the development effort to change course again and that we 
jeopardize our ability to realize the benefits of the program if we 
renege on our nine-year agreement near the end of the eighth year. The 
fact remains that, while we have aggressively engaged with our partners 
to complete MEADS MOU efforts using only FY 2012 funding, we cannot 
force them to agree to this course of action.
    As with other cooperative MOUs, the Department considers the MEADS 
D&D MOU to be legally binding on the nations, recognizing that our 
financial responsibilities under such MOUs are subject to the 
availability of funds appropriated for such purposes. The 
Administration has requested funding in the FY 2013 budget to fulfill 
our MOU responsibilities vis-a-vis our international partners, the 
German and Italian MODs, consistent with the three MOU participants' 
direction to restructure the MEADS prime contract in April 2011.
    More broadly, while the Department understands the need to make 
difficult choices in the current fiscal environment concerning funding 
for all of our activities, we also note that failure to meet our MEADS 
MOU funding obligations for FY 2013 could negatively affect our allies' 
implementation of current transatlantic projects and multinational 
cooperation--as well as their willingness to join future cooperative 
endeavors with the United States--that are strongly supported by the 
Administration and Congress. In fact, the ramifications of failing to 
provide funds for this program, which is so near completion, could 
impact our relationship with our allies on a much broader basis than 
just future cooperative projects.
    Mr. Turner. Can you tell me the exact amount of termination costs 
if the U.S. were to unilaterally terminate the MOU today?
    Mr. Ahern. The MEADS Design and Development (D&D) Memorandum of 
Understanding (MOU) is a cooperative MOU entered into by the U.S. 
Department of Defense and German and Italian Ministries of Defense 
(MODs). U.S. DOD can withdraw from, but cannot unilaterally terminate 
the MEADS D&D MOU. Consistent with other cooperative MOUs, the 
Department considers the MEADS D&D MOU to be legally binding on the 
nations, recognizing that our financial responsibilities under such 
MOUs are subject to the availability of funds appropriated for such 
purposes.
    Germany and Italy have made clear they do not wish to terminate the 
program in the final year of development. The DOD has expressed its 
support for the MEADS Proof of Concept as agreed to with Italy and 
Germany and urges the Congress to provide the necessary funds which 
have been requested in the President's FY 2013 budget request. The 
United States' national maximum commitment for the MEADS Program per 
the MOU is approximately $2.3 billion (in base year 2004 dollars). In 
current year dollars, the MOU ceiling amount is approximately $2.7 
billion, of which at the end of FY 12, approximately $2.35 billion will 
have been obligated for the MEADS Program. The maximum remaining 
potential liability for the United States under the MEADS MOU is $348 
million. This amount represents the difference between what the U.S. 
committed to provide under the MOU and what the U.S. has provided to 
date.
    Mr. Turner. Mr. Gilmore, do you believe one GBI test per year is 
statistically sufficient to ensure high confidence in GBI reliability 
into the middle of the next decade?
    Mr. Gilmore. Due to urgent need, the Bush Administration decided to 
field the Ground-Based Missile Defense (GMD) system absent a successful 
flight test of the ground-based interceptor (GBI) and kill vehicle 
composing the deployed system, as well as absent a comprehensive 
program of ground-based component-level testing for reliability and 
performance of those interceptors and kill vehicles. Thus, the original 
decision to field GMD was made without data permitting statistical 
assessment at any meaningful level of confidence of the GBI's 
reliability or performance. The resulting concurrent fielding of the 
GMD system while it remains under development has complicated the 
challenge of testing the GMD system's reliability and overall 
operational effectiveness.
    For other missile systems such as Minuteman III and Trident II, 
stockpile reliability testing has historically been conducted using 
three to four flight tests per year per missile type after initial 
development and testing. The booster stacks for these offensive 
missiles and the booster stack for GBIs are similar; however, the 
similarity ends there. Inter-continental Ballistic Missiles (ICBMs) 
have relatively large fielded inventories; the GBI fielded inventory is 
small. Also, unlike an ICBM, fully testing GMD mission reliability and 
effectiveness currently requires the GBI to complete an intercept in 
order to assess kill vehicle reliability and effectiveness. This means 
that every comprehensive GBI flight test (which tests both reliability 
and overall performance) must presently have a target to shoot at, 
making these tests much more complex, expensive, and difficult to plan, 
conduct, and assess relative to the flight test of a Minuteman III or 
Trident II. In particular, analyzing and understanding fully the 
implications of the large amount of data generated during GMD flight 
tests is time-consuming and difficult. Testing at a pace that exceeds 
the ability to understand and act on the data collected would not 
result in increased reliability or performance of the GMD system.
    A key element of overall ICBM reliability is the reliability of the 
associated nuclear warhead, which is not assessed completely during 
ICBM flight testing. Component-level ground testing, modeling, 
simulation, and analysis play a substantial role in evaluating the 
reliability of ICBM warheads. Similarly, it has been the Department's 
plan for some time to use modeling, simulation, and analysis to asses 
GBI reliability, as well as to evaluate GMD operational effectiveness 
overall. The Missile Defense Agency (MDA) is also now initiating a 
comprehensive ground-based component-level reliability assessment and 
testing program for the GBIs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. Do you agree with Chairman Turner's assertion that the 
Obama Administration is spending four or five times more on regional 
defense than on the protection of the homeland? And how much are we 
investing (percentage-wise) in homeland missile defense and in regional 
missile defense in FY13?
    Dr. Roberts. The United States is not spending four times more on 
regional BMD than it is on the protection of the homeland. The Missile 
Defense Agency spends roughly a third of its missile defense budget on 
homeland defense, a third on regional defense, and a third on elements 
that contribute to both regional and homeland defense.
    The United States has already made and continues to make 
substantial investments in homeland BMD, totaling billions of dollars 
over the past decade. This has put us in an advantageous position given 
the fact that neither North Korea nor Iran has successfully tested an 
ICBM or demonstrated an ICBM-class warhead. Meanwhile, deployed U.S. 
forces, allies, and partners are threatened today by hundreds of short- 
and medium-range ballistic missiles.
    Ms. Sanchez. Do you still agree with Secretary Gates' decision to 
limit the number of deployed GBIs at 30? Does the rationale for that 
decision still exist?
    Dr. Roberts. The rationale for then-Secretary Gates' decision 
remains valid. Secretary Gates directed the Department to pause at 30 
deployed GBIs for the protection of the homeland based on three 
factors.
    First, the ICBM deployments from Iran and North Korea did not 
occur, and Intelligence Community assessments determined that neither 
country was close to developing and deploying ICBMs successfully.
    Second, a technical assessment indicated that high concurrency in 
the development and deployment of GBIs had resulted in technical 
challenges that required resolution.
    Third, development and deployment of an advanced Standard Missile-
3, the SM-3 IIB, would provide a valuable early intercept opportunity 
at a lower cost than procuring additional GBIs.
    Secretary Gates also decided to finish construction of the 
remaining silos at Fort Greely, Alaska for deployment of up to 38 GBIs 
as a hedge against the possibility that long-range threats may emerge 
in numbers that could overwhelm the current inventory of 30 GBIs before 
the SM-3 IIB becomes available. As soon as current GBI technical issues 
are resolved and confirmed through flight testing, GBI production will 
resume.
    The Department will continue to develop hedge options and improve 
the Ballistic Missile Defense System to provide the appropriate 
capability to counter the projected ICBM threat from Iran or North 
Korea.
    Ms. Sanchez. As follow-up in more detail on a previous question 
about the adequacy of the current missile defense plan. The Ballistic 
Missile Defense Review stated that ``U.S. BMD capabilities must be 
flexible enough to adapt as threats change.'' Given the updated 
intelligence community's assessment of the threat from Iran and North 
Korea, is the proposed PAA plan, starting with PAA in Europe, and the 
current proposed hedging policy still adequate to respond to the 
threat? Why? Why not? What steps are being taken to ensure that the 
plan is still responsive to the threat as it evolves?
    Dr. Roberts. The Administration remains committed to the protection 
of the homeland, and our deployed forces, allies and partners. The FY13 
budget request reflects these priorities.
    The need to strengthen our regional missile defense protection is 
clear: deployed U.S. forces, allies, and partners are threatened today 
by hundreds of short- and medium-range ballistic missiles. After a 
decade of significant progress in developing and fielding capabilities 
for protection against short-, medium-, and intermediate- range 
ballistic missiles, the United States is now capable of strengthening 
protection of its forces abroad and assisting its allies and partners 
in providing for their own defense.
    The homeland is currently protected against potential limited 
intercontinental ballistic missile (ICBM) attacks from states like 
North Korea and Iran. Maintaining this position is essential and will 
require the continued improvement to the Ground-based Midcourse Defense 
(GMD) system, including enhanced performance by the Ground-Based 
Interceptors (GBIs) and the deployment of new sensors. This 
necessitates the development and deployment of the Precision Tracking 
Space System (PTSS) to handle larger raid sizes and the Standard 
Missile 3 (SM-3) Block IIB as the ICBM threat from states such as Iran 
and North Korea matures.
    It is prudent for the United States to have a hedge strategy to 
address possible delays in the development of our missile defense or 
new threats that may emerge. Key elements of the hedge strategy were 
set out in the Ballistic Missile Defense Review two years ago, 
including completion of a second field of 14 GBI silos at Fort Greely, 
Alaska. This increases the availability of silos in the event that 
additional GBI deployments become necessary. We also continue to 
develop the two-stage GBI and pursue additional programs to hedge 
against future uncertainties.
    Ms. Sanchez. According to Director of National Intelligence James 
Clapper, ``some Iranian officials--probably including Supreme Leader 
Ali Khamenei--have changed their calculus and are now more willing to 
conduct an attack in the United States in response to real or perceived 
U.S. actions that threaten the regime'' and that ``We are also 
concerned about Iranian plotting against U.S. or allied interests 
overseas.'' In this context, how prepared are we to defend against 
attacks from short- or medium-range missiles off U.S. coasts?
    Dr. Roberts. We continue to be concerned about this scenario. 
However, we do not believe that there is a credible threat at this 
time.
    Ms. Sanchez. What are the milestones for increasing reliability and 
discrimination?
    Dr. Roberts. The GMD milestones for increasing reliability include 
successful GBI flight testing, GBI component reliability growth 
testing, upgrade of current GBIs, and delivery of new GBIs.
    Controlled Test Vehicle One (CTV 01) and Flight Test Ground Based 
Interceptor (FTG)-06b flight tests will be in FY13, FTG-08 in FY14, and 
FTG-11a&b (salvo mission) in FY15. Although component reliability 
testing will be conducted over the life of the program, additional GBI 
component testing specifically focusing on reliability growth by FY15 
is being planned for FY13-FY15. Capability Enhancement (CE)-I 
interceptors will continue to be upgraded through FY17; and CE-II 
interceptors will be reworked from 4Qtr FY13 through 4Qtr FY15 to 
integrate the FTG-06a fix. Manufacturing of CE-II interceptors will 
restart in 2Qtr FY13 following successful flight testing of CTV-01 and 
FTG-06b; deliveries of new CE-II Block I interceptors will begin in 
1Qtr FY16.
    The milestones for increasing discrimination capabilities include 
completion of the Ground Test 06 (GT-06) campaign by 1Qtr FY16 to test 
and validate the capability to process near-term discrimination data 
from BMDS sensors. The subsequent flight test date and fielding date 
have not been sent. Candidate options to improve Exo-atmospheric Kill 
Vehicle (EKV) on-board discrimination capabilities are under study. 
Selected discrimination improvements developed from this effort will be 
incorporated into the next EKV software upgrades planned for Functional 
Qualification Testing in 2Qtr FY14 and 4Qtr FY14.
    Ms. Sanchez. Will we be able to deploy SM3-IIBs on ships?
    Dr. Roberts. The SM-3 Block II B will be designed and developed to 
be deployable in Aegis BMD assets at sea and ashore.
    Ms. Sanchez. Why do we need regional missile defense and whom do 
these systems protect? And how does the EPAA contribute to homeland 
defense?
    Dr. Roberts. The threat from short-range, medium-range, and 
intermediate-range ballistic missiles (SRBMs, MRBMs, and IRBMs) in 
regions where the United States deploys forces and maintains security 
relationships exists today and continues to grow, both quantitatively 
and qualitatively.
    To address the rapid growth in regional ballistic missile threats, 
the United States has begun deploying phased adaptive approaches in 
regions where deployed U.S. forces, allies, and partners are 
threatened. The first application of this phased approach was in 
Europe, but the United States also maintains a missile defense presence 
in the Middle East and the Asia-Pacific that will be tailored to the 
threats and circumstances unique to those regions.
    Phase Four of the EPAA will directly contribute to homeland defense 
through the deployment of the SM-3 IIB. When deployed in Europe, the 
SM-3 IIB serves as the first tier of a layered defense of the U.S. 
homeland from potential ICBM threats from the Middle East.
    Ms. Sanchez. Can you tell us what savings were reaped from the new 
GMD contract competition?
    Dr. Roberts. The independent government estimate was approximately 
$4.492B at the time of the Request for Proposal (RFP). The 
competitively awarded Development and Sustainment (DSC) contract is 
valued at $3.48B if all options are exercised.
    The competition of the GMD Development and Sustainment contract 
netted a 20 percent reduction or approximately $1B less than the 
Government's independent estimate. Those savings provided the 
opportunity to procure five additional GBIs, fund the Return to 
Intercept (RTI) activities associated with the GMD Flight Test-06a 
failure, support the two additional flight tests associated with the 
RTI (Control Test Vehicle-01, and FTG-06b), and repair the fielded CE-
II GBIs impacted by the flight test failure redesign. All of these 
efforts were presented to and endorsed by the Missile Defense Executive 
Board (MDEB).
    Ms. Sanchez. Have previous administrations shared any sensitive 
information about U.S. missile defense systems with the Russian 
Federation? For what purpose? How does the Administration protect 
classified information?
    Dr. Roberts. Russia accepted an invitation to observe a Ground-
Based Interceptor (GBI) intercept flight test, FTG-03a, in September 
2007. Because Russian observers saw classified test display data, the 
event required a vetted and approved exception to national disclosure 
policy. Presumably, the purpose for inviting Russia to observe the test 
was to increase transparency and to help lay the groundwork for missile 
defense cooperation.
    Access to classified information is strictly governed by U.S. 
National Disclosure Policy and other applicable laws and policies.
    Ms. Sanchez. On March 31, 2008, Deputy Secretary of Defense Gordon 
England stated that ``we have offered Russia a wide-ranging proposal to 
cooperate on missile defense--everything from modeling and simulation, 
to data sharing, to joint development of a regional missile defense 
architecture--all designed to defend the United States, Europe, and 
Russia from the growing threat of Iranian ballistic missiles. An 
extraordinary series of transparency measures have also been offered to 
reassure Russia. Despite some Russian reluctance to sign up to these 
cooperative missile defense activities, we continue to work toward this 
goal.'' Can you expand why it makes national security sense for the 
current administration to continue the efforts by the previous 
Administration regarding the pursuit of missile defense cooperation 
with Russia?
    Dr. Roberts. Cooperation with Russia on missile defense has long 
been a priority of successive Presidential Administrations. Sharing of 
early warning data could contribute by increasing reaction times and 
situational awareness. Cooperation with the Russian Federation in 
missile defense, particularly sharing of early warning and sensor data, 
could enhance the effectiveness of both European regional and U.S. 
homeland defense. For example, the NATO Alliance could benefit from the 
data from Russia's Armavir radar for defense against projected Middle 
Eastern ballistic missile attack. The United States could also benefit 
from radars deployed in Russia's interior. These radars are optimally 
located for viewing North Korean launches, and would enhance U.S. 
homeland defense.
    U.S.-Russia missile defense cooperation would also send a strong 
message of deterrence to Iran and North Korea and devalue their 
development of missiles and pursuit of nuclear capability.
    Ms. Sanchez. Could you provide examples of cost-sharing with our 
allies on missile defense? What further improvements can be made on 
this front?
    Dr. Roberts. As stated in the Ballistic Missile Defense Review, the 
United States is well-positioned to defend against regional ballistic 
missile threats to U.S. forces. In order to protect allies and partners 
most effectively and enable them to defend themselves from the growing 
ballistic missile threat, the United States is actively leading 
international efforts to expand regional ballistic missile defense 
(BMD) capabilities.
    A prime example of a cost-sharing partnership is our ongoing 
collaboration with Japan on the SM-3 Block IIA interceptor. Japan has 
committed more than $1 billion to the development and testing of the 
upgraded version of the SM-3 interceptor. Japan has also invested in 
Aegis BMD capability for Japanese ships and acquired SM-3 Block IA 
interceptors through Foreign Military Sales (FMS) cases. In addition, 
Japan hosts an AN/TPY-2 radar in support of the BMD mission.
    Elsewhere in the Asia-Pacific region, the Republic of Korea and 
Australia are actively engaged with the United States in joint modeling 
and simulation activities.
    NATO Allies are providing financial support for the implementation 
of European missile defense. For example, NATO has agreed to pay for 
the expansion of Active Layered Theater Ballistic Missile Defense 
(ALTBMD) with NATO common funding, which is approximately $1 billion in 
committed funds. Some Allies are already committed to fielding 
additional capabilities of their own. For example, the Netherlands has 
approved plans and funding to upgrade the SMART-L radar on four air 
defense frigates, giving the ships a BMD Long-Range Search & Track 
(LRS&T) capability. Germany is testing and intends to operationalize an 
Airborne Infrared System (ABIR) system, which could support NATO BMD. 
In addition, France has proposed a concept for a single geosynchronous 
infrared shared-early warning satellite, and is developing a 
transportable, midcourse radar for BMD and early warning. Germany and 
the Netherlands have also proposed an interceptor pooling concept where 
several Allies would purchase SM-3 interceptors that could then be used 
in support of NATO missile defense.
    Also in support of the European Phased Adaptive Approach to missile 
defense, Turkey, Romania, Poland, and Spain have agreed to host U.S. 
assets. These host governments will bear the costs of providing 
perimeter defense and security for the U.S. assets and infrastructure.
    The United Kingdom and Denmark are currently providing critical 
contributions to the Ballistic Missile Defense System and U.S. homeland 
defense by hosting upgraded early warning radars at Fylingdales and 
Thule, respectively.
    In the Middle East, there is growing interest in missile defense 
capabilities, especially with the Gulf Cooperation Council (GCC) 
countries. In December 2011, the United Arab Emirates signed an FMS 
case for the sale of the Terminal High-Altitude Area Defense (THAAD) 
system. Other GCC countries have expressed interest in acquiring 
regional missile defense capabilities.
    The United States also has a long-standing relationship with Israel 
on the joint development of Israeli ballistic missile defense 
capabilities that are interoperable with U.S. capabilities forward-
deployed in the region. This enduring partnership has resulted in the 
development and fielding of missile and long-range rocket defense for 
our close partner. Israel also hosts an AN/TPY-2 radar supporting 
enhanced regional BMD.
    Ms. Sanchez. Russia is concerned about configurations of the 
European Phased Adaptive Approach (EPAA) that they believe would have 
capability against Russian ICBMs. For example, Phases 3 and 4 of the 
EPAA are of special concern to Russia, due in part to the large numbers 
of interceptors that MDA plans to buy. To gain Russia's cooperation 
would MDA consider missile defense architectures that would be 
effective against Iran but not against Russia? What is the minimum 
number of interceptors that are needed against Iran? Against North 
Korea? (please respond in classified form [if] necessary).
    Dr. Roberts. The European Phased Adaptive Approach is designed and 
configured to counter ballistic missiles from the Middle East. The SM-3 
interceptors we will deploy as part of the EPAA are too slow and not in 
a position to intercept Russian ICBMs. Russia has many ICBM launch 
points from within its territory, as well as a capable sea-launched 
ballistic missile force and air-launched cruise missile force that will 
not pass within range of the EPAA deployment locations.
    Because the ballistic missile threat from states like Iran and 
North Korea continues to grow, the United States cannot accept limits 
on the capability of missile defenses designed to meet the threat. The 
United States will continue to field new capabilities in order to 
defend ourselves and our allies and partners. Iran and North Korea 
already possesses hundreds of short- and medium-range ballistic 
missiles, so there is no minimum number of interceptors that are needed 
to defend against the regional threat.
    Ms. Sanchez. Do you agree with Chairman Turner's assertion that the 
Obama Administration is spending four or five times more on regional 
defense than on the protection of the homeland? And how much are we 
investing (percentage-wise) in homeland missile defense and in regional 
missile defense in FY13?
    General O'Reilly. No, MDA's FY13 President's Budget request 
includes 14 percent directly supporting Homeland defense and 19 percent 
to Homeland and Regional defense, for a total of 33 percent. There is 
26 percent which contributes directly to Regional defense. The 
remaining 41 percent is for targets, test, engineering, agency 
operations, and future capabilities development.
    Ms. Sanchez. Do you need more funding for GMD in FY13? Why/why not?
    General O'Reilly. FY13 President's budget request is sufficient to 
address program requirements in FY13. The Missile Defense Agency (MDA) 
has executed a detailed plan to determine the root cause of its recent 
Ground-based Midcourse Defense (GMD) flight test failures. Based on 
those findings, MDA is implementing design fixes and will vigorously 
test these improvements through ground and flight testing prior to 
restarting production. The FY13 President's Budget fully supports this 
engineering development and testing work, and all the operations and 
sustainment requirements for the fielded GMD system and missiles.
    Ms. Sanchez. As follow-up in more detail on a previous question 
about the adequacy of the current missile defense plan. The Ballistic 
Missile Defense Review stated that ``U.S. BMD capabilities must be 
flexible enough to adapt as threats change.'' Given the updated 
intelligence community's assessment of the threat from Iran and North 
Korea, is the proposed PAA plan, starting with PAA in Europe, and the 
current proposed hedging policy still adequate to respond to the 
threat? Why? Why not? What steps are being taken to ensure that the 
plan is still responsive to the threat as it evolves?
    General O'Reilly. The Missile Defense Agency does not maintain 
intelligence resources necessary to assess North Korean and Iranian 
ballistic missile development, and relies on Under Secretary of Defense 
for Intelligence (USD(I)) and the broader Intelligence Community for 
this data. With regards to threat assessments, questions should be 
directed to USD(I) and the broader Intelligence Community.
    While the Missile Defense Agency has provided analysis supporting 
Hedge and Phased Adaptive Approach options, these efforts are under the 
purview of the Under Secretary of Defense for Policy (USDP), and I 
would defer to USDP on these questions.
    Ms. Sanchez. In response to questions for the record pursuant to 
our hearing on the missile defense budget last year, you stated: ``No 
GMD tests against a true intercontinental ballistic missile (ICBM) have 
yet been conducted.'' When can we expect MDA to conduct such a test?
    General O'Reilly. There are no ICBM tests planned in FY13. An ICBM 
test (FTG-11) is scheduled for late FY15, and another ICBM test (FTG-
13) is planned for late FY16. Programmed funds associated with those 
tests are detailed below by fiscal year.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Ms. Sanchez. For GMD testing, is a hit considered a kill? Does this 
introduce any risk in reliability assumptions for GBIs?
    General O'Reilly. During Ground-Based Midcourse Defense (GMD) 
testing, a hit is not necessarily counted as a kill. Analysis of the 
telemetry collected during the flight test identifies where the actual 
impact took place. This analysis determines if the impact is within the 
acceptable tolerance to be counted as a kill. This does not introduce 
any risk in reliability assumptions for Ground Based Interceptors 
(GBIs). If the GBI performs its mission and hits the target, the 
reliability assumptions are not considered a risk item. If the 
determination is made that the impact did not constitute a kill, then a 
review board would need to assess the collected data to determine if 
the problem is with kinematics, system design, or some other unknown 
issue.
    Ms. Sanchez. According to Director of National Intelligence James 
Clapper, ``some Iranian officials--probably including Supreme Leader 
Ali Khamenei--have changed their calculus and are now more willing to 
conduct an attack in the United States in response to real or perceived 
U.S. actions that threaten the regime'' and that ``We are also 
concerned about Iranian plotting against U.S. or allied interests 
overseas.'' In this context, how prepared are we to defend against 
attacks from short- or medium-range missiles off U.S. coasts?
    General O'Reilly. The Commander of United States Northern Command 
(CDRUSNORTHCOM) has the authority and responsibility for defense of the 
United States. Questions in this subject area should be directed toward 
CDRUSNORTHCOM.
    Ms. Sanchez. What are the milestones for increasing reliability and 
discrimination?
    General O'Reilly. The Ground-Based Midcourse Defense (GMD) 
milestones for increasing reliability include successful Ground-Based 
Interceptor (GBI) flight testing, GBI component reliability growth 
testing, upgrade of current GBIs, and delivery of new GBIs. Controlled 
Test Vehicle-One (CTV-01) and Flight Test Ground Based Interceptor 
(FTG)-06b flight tests will be in FY13, FTG-08 in FY14, and FTG-11a&b 
(salvo mission) in FY15. While component reliability testing will be 
conducted over the life of the program, additional GBI component 
testing specifically focusing on reliability growth by FY15 is being 
planned for FY13-FY15. Capability Enhancement (CE)-I interceptors will 
continue to be upgraded through FY17; and CE-II interceptors will be 
reworked from 4Qtr FY13 through 4Qtr FY15 to integrate the FTG-06a fix. 
Manufacturing of CE-II interceptors will restart in 2Qtr FY13 following 
successful flight testing of CTV-01 and FTG-06b; and deliveries of new 
CE-II Block I interceptors will begin in 1Qtr FY16.
    The milestones for increasing discrimination include completion of 
the GT-06 ground test campaign by 1Qtr FY16 to provide the capability 
to process near-term discrimination data from BMDS sensors. Options to 
improve EKV on-board discrimination capabilities are under study and 
will be incorporated in the next Exo-atmospheric Kill Vehicle (EKV) 
software upgrades, 23.0 and 10.0. Functional Qualification Testing 
(FQT) of software upgrades 23.0 and 10.0 are planned in 2Qtr FY14 and 
4Qtr FY14, respectively, to provide improved discrimination 
capabilities. The FQT versions of 23.0 and 10.0 will be tested in 
ground and flight tests; the date for fielding has not been set.
    Ms. Sanchez. What are MDA plans to increase reliability of the 
Ground-Based Interceptors?
    General O'Reilly. The Missile Defense Agency plan for increasing 
the reliability of the Ground Based Interceptors (GBIs) consists of a 
Fleet Upgrade Program, a Flight Test Rotation Plan, a Reliability 
Growth Testing Program, and a Stockpile Reliability Program. These 
programs are to be guided by a detailed GBI reliability assessment that 
is ongoing as part of the recently awarded Development and Sustainment 
Contract. This assessment will be completed in late Fiscal Year (FY) 
2012 and evaluates all GBI components against maximum expected life-
cycle and operational environments. The results of this assessment will 
identify components for additional reliability growth. These components 
would require development, procurement, and testing.
    GBI Fleet Upgrade Program consists of removing interceptors from 
silos, performing upgrades to remove known risks, replacing limited 
life items (replaced items are used in the Stockpile Reliability 
Program), and returning the newly upgrade interceptors to the 
operational fleet. All currently fielded interceptors will undergo an 
upgrade process by the end of FY 2017.
    Flight Test Rotation Plan removes older interceptors from silos, 
performs a limited upgrade to support the flight test configuration 
requirements, replaces limited life items (replaced items are used in 
the Stockpile Reliability Program) and then delivers the test 
interceptor for the flight test program.
    GBI Reliability Growth Testing Program ensures ``fixes'' to known 
risks are both effective and eliminate the risks. In the near term, 
Control Test Vehicle-One (CTV-01) and Flight Test Ground Based 
Interceptor (FTG)-06b flight tests are the final verification test 
milestones to demonstrate the design fixes effectively eliminate the 
FTG-06a issues.
    Stockpile Reliability Program is a comprehensive effort that 
includes testing, trending analysis, and identification of reliability 
improvements for the GBI hardware. Aging and surveillance testing and 
analyses are also being performed. Service Life Extension testing will 
continue for one-shot devices. All one-shot devices removed from 
fielded vehicles during Upgrade and Flight Test Rotation activities 
will be fired to obtain performance data. The program also includes the 
dedication of older interceptors to Stockpile Reliability Program 
activities. Over the course of seven years, four interceptors are 
planned to be removed from service and will undergo stockpile 
reliability testing. Reliability and performance upgrades to the GBI 
booster and Exoatmospheric Kill Vehicle are in development. Four of the 
new build interceptors are currently planned to be placed into service 
in FY 2016 through FY 2017.
    Ms. Sanchez. How long will the GBI production line remain warm?
    General O'Reilly. Presidential Budget 2013 sustains a warm Ground 
Based Interceptor (GBI) production line for first tier subcontractors 
through Fiscal Year (FY) 2018 by funding the manufacturing completion 
of a total of 57 GBIs.
    Ms. Sanchez. Will we wait to procure new GBIs until after a 
successful flight test? Why?
    General O'Reilly. One of the key policy initiatives proposed by the 
2010 Ballistic Missile Defense Review and approved by the Secretary of 
Defense was that we will ``fly before we buy'' (or flight test missiles 
and their components prior to mass production and fielding of these 
systems). Therefore, the Missile Defense Agency (MDA) will wait until a 
successful flight test to procure new Ground Based Interceptors (GBIs). 
The MDA initiated procurement of five Capability Enhancement II Block I 
GBIs under the Development and Sustainment Contract (DSC) awarded 30 
December 2011, and plans to exercise an option to procure an additional 
five. The design of these DSC GBIs will include the fixes to address 
the recent flight test failures. Flight Test GBI-06b will validate 
these fixes and has a scheduled launch in FY2013.
    Ms. Sanchez. What is being done to correct the SM3-IA anomaly and 
the SM3-IB test failure? Have these problems been fixed? What does this 
mean for keeping the SM3 production line warm and procurement of 
additional missiles?
    General O'Reilly. A Failure Investigation Team (FIT) was 
established, in April 2011, shortly after the SM-3 Block IA anomalous 
behavior was observed during FTM-15. The FIT identified the 
intermittent failure of the Cold Gas Regulator (CGR) in the Third Stage 
Rocket Motor (TSRM) as the leading theory for root cause of the 
anomalous behavior. The FIT also identified indicators to serve as 
predictors of anomalous performance. Fleet assets were screened for 
these indicators. Affected rounds were identified by serial number and 
location. These rounds remain serviceable but will be returned at the 
earliest opportunity to replace the CGR. A CGR re-design effort was 
also started to address FIT's findings on CGR failure modes. The re-
designed CGR is currently scheduled to be qualified by July 2012.
    A Failure Review Board (FRB) was established immediately after 
observing the SM-3 Block IB TSRM energetic event during FTM-16 Event 2. 
The FRB has identified several leading theories for root cause of this 
failure mode through data collected from additional ground testing 
since the flight test and through supporting modeling and simulation 
efforts. In response to the FRB findings, missile fly-out parameters in 
the Aegis Weapon System are being adjusted to mitigate the failure seen 
in FTM-16 Event 2. Certification testing and subsequent Aegis BMD 
4.0.1/SM-3 Block IB flight tests will verify the mitigation.
    Through an above threshold reprogramming, the Missile Defense 
Agency (MDA) has requested funding for critical supplier sustainment 
and a limited quantity of missile procurement.
    Ms. Sanchez. Will we be able to deploy SM3-IIBs on ships?
    General O'Reilly. The industry concept development teams have been 
given a goal and incentive to propose ship compatible SM-3 IIB 
concepts. All Teams are pursuing viable concepts to meet all goals.
    Ms. Sanchez. Why do we need regional missile defense and whom do 
these systems protect? And how does the EPAA contribute to homeland 
defense?
    General O'Reilly. [The information referred to is classified and 
retained in the subcommittee files.]
    Ms. Sanchez. Can you tell us what savings were reaped from the new 
GMD contract competition?
    General O'Reilly. The independent government estimate was 
approximately $4.492B at the time of the Request for Proposal (RFP). 
The competitively awarded Development and Sustainment (DSC) contract is 
valued at $3.48B if all options are exercised.
    The competition of the GMD Development and Sustainment contract 
netted a 20% reduction or approximately $1B less than the Government's 
independent estimate. Those savings provided the opportunity to procure 
five additional GBIs, fund the Return to Intercept (RTI) activities 
associated with the GMD Flight Test-06a failure, support the two 
additional flight tests associated with the RTI (Control Test Vehicle-
01, and FTG-06b), and to repair the fielded CE-II GBIs impacted by the 
flight test failure redesign.
    Ms. Sanchez. Russia is concerned about configurations of the 
European Phased Adaptive Approach (EPAA) that they believe would have 
capability against Russian ICBMs. For example, Phases 3 and 4 of the 
EPAA are of special concern to Russia, due in part to the large numbers 
of interceptors that MDA plans to buy. To gain Russia's cooperation 
would MDA consider missile defense architectures that would be 
effective against Iran but not against Russia? What is the minimum 
number of interceptors that are needed against Iran? Against North 
Korea? (please respond in classified form is necessary).
    General O'Reilly. [The information referred to is classified and 
retained in the subcommittee files.]
    Ms. Sanchez. What is the Administration doing to reduce the cost of 
the MEADS program, and to close out the program with FY12 funding? 
Given the direction to either re-scope or terminate, why does your FY13 
budget request an additional $400 million? When were Secretary of 
Defense Panetta and Secretary of State Clinton brought into discussions 
with Germany and Italy, at a broader level than just missile defense 
discussions?
    Mr. Ahern. The Administration has requested funding in the Fiscal 
Year (FY) 2013 budget to complete our international obligations as 
agreed under the MEADS Design and Development Memorandum of 
Understanding (MOU) with our international partners, Germany and Italy, 
and consistent with the three Nations' direction to restructure the 
contract in April 2011. The NATO MEADS Management Agency issued 
contract Amendment 26 to MEADS, International on October 31, 2011 to 
implement that direction for restructuring the MEADS Design and 
Development to a significantly reduced scope MEADS Proof of Concept 
(PoC) effort. The reduced-scope restructure was pursued to avoid an 
additional $1 billion in U.S. investment during fiscal years 2012 to 
2017, which according to the DOD Cost Analysis and Program Evaluation 
cost estimate, would have been required to fully complete the D&D phase 
as originally planned. This mutually agreed PoC effort, which will 
complete development and testing of MEADS elements and would provide 
the Participants with a useful data package for the future missile 
defense activities of each of the nations, requires 2012 and 2013 
funding from the U.S. and partner nations, recognizing that actual 
funds availability from each nation is subject to appropriation by the 
Participants' respective legislative bodies in accordance with MOU 
paragraph 19.1.
    In accordance with the FY 2012 National Defense Authorization Act 
(NDAA), the Department has repeatedly consulted and attempted to 
negotiate with our international partners, Germany and Italy, regarding 
development of a plan to further restructure the program in the event 
that Congress does not authorize or appropriate FY 2013 funding to 
complete our MOU obligations. Secretary Panetta met with the German 
Minister of Defense (MoD) in February where the German MoD reiterated 
his unequivocal support for completing the MEADS PoC. We do not know of 
any discussions between the Secretary of State and her German 
counterpart.
    During our discussions, we have advised Germany and Italy that 
there is significant risk that FY 2013 funding may not be made 
available by the Congress. In response, our partners have made clear to 
the Department, and Germany has advised Senator Levin directly, that 
they remain fully committed to their MOU obligations and expect that 
all partner nations will provide their 2013 funding to complete the PoC 
effort. They have also made clear that we are too late in the 
development effort to change course again and that we jeopardize our 
ability to realize the benefits of the program if we renege on our 
nine-year agreement near the end of the eighth year. The fact remains 
that, while we have aggressively engaged with our partners to complete 
MEADS MOU efforts using only FY 2012 funding, we cannot force them to 
agree to this course of action.
    As with other cooperative MOUs, the Department considers the MEAD 
as D&D MOU to be legally binding on the nations, albeit subject to the 
availability of funds. While the Department understands the need to 
make difficult choices in the current fiscal environment concerning 
funding for all of our activities, we note that failure to meet our 
MEADS MOU funding obligations for FY 2013 could negatively affect our 
allies' implementation of current transatlantic projects and 
multinational cooperation--as well as their willingness to join future 
cooperative endeavors with the United States--that are strongly 
supported by the Administration and Congress. In fact, the 
ramifications of failing to provide funds for this program which is so 
near completion could impact our relationship with our allies on a much 
broader basis than just future cooperative projects.
    Ms. Sanchez. In response to questions for the record pursuant to 
our hearing on the missile defense budget last year, you stated: ``No 
GMD tests against a true intercontinental ballistic missile (ICBM) have 
yet been conducted.'' When can we expect MDA to conduct such a test?
    Dr. Gilmore. The Missile Defense Agency plans to conduct the first 
Ground-based Midcourse Defense flight test that will use an 
Intercontinental Ballistic Missile (ICBM)-class target during the 4th 
quarter of Fiscal Year 2015. In the just signed Integrated Master Test 
Plan, Version 12.1, this test is designated as FTG-11.
    Ms. Sanchez. For GMD testing, is a hit considered a kill? Does this 
introduce any risk in reliability assumptions for GBIs?
    Dr. Gilmore. A hit on the threat re-entry vehicle (RV) by the exo-
atmospheric kill vehicle (EKV) is not automatically considered a kill. 
Ground testing (using rocket-propelled sleds), as well as modeling and 
simulation demonstrate the EKV can strike the RV in a location that 
does not result in a kill. This was the case in Flight Test Ground-
Based Interceptor (GBI)-02 (FTG-02). Although the flight test 
objectives excluded actually killing the incoming RV, the EKV achieved 
a ``glancing blow'' on the RV. Subsequent analysis indicated the 
``glancing blow'' would not have resulted in a kill. I score the FTG-02 
flight test as a hit, but not a kill.
    In principle, an intercept hit that does not result in a kill could 
have a number of causes, some of which could be related to reliability. 
The result of FTG-02, in which an RV kill was not planned (and was not 
achieved), is not a reliability issue.
    Ms. Sanchez. What are MDA plans to increase reliability of the 
Ground-Based Interceptors?
    Dr. Gilmore. In the immediate future, the Missile Defense Agency 
(MDA) will implement and flight test changes to the Capability 
Enhancement-II Exo-atmospheric Kill Vehicle used on a subset of the 
Ground-Based Interceptor (GBI) fleet. If successful, this test will be 
an important step in increasing the mission reliability of the Ground-
Based Interceptors (GBIs). Following this, the MDA will execute the 
subsequent Ground-based Midcourse Defense test events contained in the 
Integrated Master Test Plan (IMTP), which are designed to demonstrate 
additional capabilities of Ground-Based Missile Defense over more of 
the system's battlespace. Executing the IMTP will, as it has already 
done, identify unexpected or otherwise unknown failure mechanisms, 
thereby enabling them to be fixed. This identification and correction 
of failure mechanisms accomplished through a rigorous program of flight 
testing increases the reliability of the GBIs. The MDA is also now 
implementing a rigorous program of component-level analysis and ground-
testing of the GBIs that will provide additional data on failure 
mechanisms needing correction, resulting in improved reliability of the 
interceptors and kill vehicles.
    Ms. Sanchez. Will we wait to procure new GBIs until after a 
successful flight test? Why?
    Dr. Gilmore. The decision to produce more Ground-Based Interceptors 
(GBIs) rests with the Missile Defense Agency (MDA). The Agency has 
stopped production of the Capability Enhancement-II Exo-atmospheric 
Kill Vehicle until it has determined through flight test that it has 
found and corrected the problems associated with the most recent 
failure of the Ground-based Midcourse Defense system. In my view, this 
is a prudent decision. Building additional GBIs means building more 
kill vehicles. The components in the kill vehicle that caused the FTG-
06a failure are some of the first to be assembled. Thus, building more 
kill vehicles now, which would have to be done using extant plans and 
designs, would require those kill vehicles to be nearly completely 
disassembled later--and then re-assembled--to implement needed 
corrections. Such an approach would entail substantial additional 
expense relative to assembling kill vehicles with corrections fully 
implemented. It would also increase the chance of inadvertent 
introduction of a fault during disassembly and re-assembly.
    Ms. Sanchez. What is being done to correct the SM3-IA anomaly and 
the SM3-IB test failure? Have these problems been fixed? What does this 
mean for keeping the SM3 production line warm and procurement of 
additional missiles?
    Dr. Gilmore. Both the SM-3 IA anomaly (Flight Test Standard Missile 
(FTM)-15) and SM-3 IB test failure (FTM-16) are under investigation by 
Failure Review Boards (FRBs) convened by the Missile Defense Agency. 
The boards are seeking to identify the root causes of the performance 
issues observed during the recent testing. Although the FRBs have not 
completed their work, it appears that both issues are associated with 
the Third Stage Rocket Motor (TSRM), a common component to both the IA 
and IB missiles.
    The FTM-15 anomaly investigation remains focused on the TSRM 
Attitude Control System Cold Gas Regulator (CGR); it is expected to 
complete in June. The FRB has identified performance characteristics of 
the current regulators that are measured when they are manufactured. 
Those characteristics, which are documented for each regulator, 
indicate whether it will perform anomalously. Until re-designed 
regulators are retrofit to the fleet, these characteristics will be 
used to screen the existing fleet of SM3 1As to assure their reliable 
performance. A redesigned regulator has completed initial testing and 
is entering the qualification cycle. This redesigned regulator will be 
used on all future production missiles.
    The leading theory to explain the FTM-16 failure is a case burn-
through caused by a short-duration Inter-Pulse Delay (IPD) occurring 
between the first and second pulses of the TSRM burn. Ground testing 
has confirmed higher than expected damage to missile case insulation 
and nozzle components when the delay between the first and second 
pulses is short. A change is being implemented in Aegis BMD 3.6.2 and 
Aegis BMD 4.0.2 software early this fall to preclude causing the 
missile to execute damaging IPDs. An initial firing with the longer 
IPDs to be implemented in this software change shows no damage to the 
TSRM, and a full qualification of the TSRM will be conducted using this 
revised IPD. Operational performance of the missile is not expected to 
be affected significantly by the revised IPDs, and the performance of 
the revised IPD will be observed in subsequent flight testing.
    The Missile Defense Agency can best address the question of the 
status of the Standard Missile production line.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. The FYDP cuts missile defense funding by approximately 
$3.6 billion over the next four years based on the FY12 FYDP, yet the 
Administration still insists the EPAA is on budget and on schedule. Can 
you explain how the EPAA is unaffected despite such budget cuts?
    Dr. Roberts. Missile defense is emphasized in the new strategic 
guidance, and the Department used a clear set of priorities to guide 
spending decisions in this mission area. By balancing budget realities 
against threat projections, we have had an opportunity to develop a 
budget that met our priorities. We will continue to expand our regional 
missile defense capabilities, but at a somewhat slower rate than 
envisioned in last year's budget request.
    We have protected spending for our top missile defense priorities: 
defending the homeland, implementing the European Phased Adaptive 
Approach (EPAA), and pursuing phased adaptive approaches with allies 
and partners in the Middle East and Asia-Pacific.
    Mr. Franks. EPAA is the U.S. contribution to NATO's newly adopted 
territorial missile defense mission. What can you tell us about the 
specific missile defense contributions our allies will be providing to 
the territorial missile defense mission, specifically: what is being 
done to ensure the United States isn't bearing the total burden of the 
EPAA program, and can we do this before knowing ourselves what these 
costs are?
    Dr. Roberts. NATO Allies have already begun to act to provide 
financial support for the implementation of European missile defense. 
For example, NATO has agreed to pay for the expansion of Active Layered 
Theater Ballistic Missile Defense (ALTBMD) with NATO common funding.
    Turkey, Romania, Poland, and Spain have all agreed to host U.S. 
assets in support of NATO missile defense. These host governments will 
bear the costs of providing perimeter defense and security for U.S. 
assets and infrastructure. Access to the hosted facilities contributes 
directly to core U.S. security goals.
    In addition, some Allies are already committed to fielding 
additional capabilities of their own. For example, the Netherlands has 
approved plans and funding to upgrade the SMART-L radar on four air 
defense frigates, giving the ships a track and cue capability. The 
Dutch plan to field one ship per year from 2017-2020 at cost of =26M 
per ship. Germany is testing and intends to operationalize an Airborne 
Infrared System (ABIR) system which could support NATO BMD. In 
addition, France has proposed a concept for a single geosynchronous 
infrared shared-early warning satellite, and is developing a 
transportable, midcourse radar for BMD and early warning.
    Mr. Franks. The Administration's decision in 2009 to adopt a Phased 
Adaptive Approach (PAA) for missile defense in Europe was based, in 
part, on a revised assessment that Iran's short- and medium-range 
ballistic missiles were developing more rapidly than previously 
projected, while the longer-range missile threat had been slower to 
develop than previously estimated. What trends in Iranian ballistic 
missile developments have you seen over the last three years that might 
change this assessment, and have you seen any changes in threat 
development since 2009?
    Dr. Roberts. The Intelligence Community assesses that Iran has an 
active program to develop long-range ballistic missiles and space-
launch vehicles, but Iran has not successfully tested an ICBM or 
demonstrated an ICBM-class warhead. At the same time, Iran currently 
possesses hundreds of short- and medium-range ballistic missiles, is 
developing and testing intermediate-range ballistic missiles, and 
continues to expand its ballistic missile arsenal both quantitatively 
and qualitatively.
    Mr. Franks. The Ground-based Midcourse Defense program has seen 
sizeable budget cuts in the past three years. In FY10, it was reduced 
by $525 million. The FY11 request was a nearly $300 million increase 
over FY10, but the FY12 budget request further reduces the GMD program 
by $185 million and the FY13 request reduces the program by another 
$260 million. How are these reductions impacting GMD operations, 
sustainment, and any modernization activities, and does the FY13 budget 
request still reflect your funding requirements for GMD?
    General O'Reilly. The FY13 President's budget is sufficient to 
accomplish the program content for FY13. Program progress has been 
paced by technical accomplishments--not funding limitations. The 
December 2011 competitive award of the Ground-based Missile Defense 
(GMD) contract reduced costs by over $1 billion. These savings allow 
the Missile Defense Agency to correct problems discovered during recent 
flight test failures and demonstrate those corrections in flight tests, 
and to continue all plans to support, field, and enhance our Homeland 
missile defense capability. The savings also support the procurement of 
five additional ground-based interceptors within the contract period.
    The FY09 GMD appropriation was $1.472B, a reduction of just over 
$600M from the budget request. The reductions included a transfer of 
$390M for the European Capability into a new program element (PE) and a 
transfer of $104M for Targets into a Test PE. Further, there was a 
reduction of $115M in General Congressional Reductions and 
Congressional Undistributed Adjustments. During FY09, GMD continued 
manufacturing 3-Stage Capability Enhancement-Two (CE-II) Ground Based 
Interceptors (GBI) and delivered 4 GBIs, upgraded 2 CE-II GBIs, fielded 
an upgrade to ground systems (GS) software update version 6B and 
command launch equipment (CLE) software build 4.1, fielded a second 
Relocatable In-Flight Interceptor Communication System data terminal 
(RIDT) at Vandenberg Air Force Base, and conducted flight test GMD-05 
(FTG-05).
    The FY10 GMD appropriation was $1.22B which included a $50M 
Congressional add for GBI vendor base sustainment. GMD incorporated 
several program changes in response to a DOD decision to reduce the 
requirement from 44 to 30 fielded GBIs to include holding the GBIs 38-
44 delivery at the major sub-assembly level, halt construction of 
Missile Field 2, and stopping GS software development and its 
associated models and simulations (M&S) development. During FY10, GMD 
continued manufacturing of 3-Stage CE-II interceptors delivering 5 
GBIs, upgraded 2 GBIs, fielded Exoatmospheric Kill Vehicle (EKV) 
software update version 9.2, executed the first 2-Stage GBI test in 
Booster Verification Test-One (BVT-01), and conducted FTG-06 which 
resulted in a failed intercept.
    The FY11 GMD appropriation was $1.245B, a reduction of $100M from 
the budget request. The reductions in FY11 included a $35M 
Congressional Reduction for excess award fee paid for test and 
integration failures, as well as an $8.9M Congressional Reduction and a 
$23.5M Congressional Rescission. The budget enabled GMD to resume 
activities stopped in FY10, including the delivery of fully integrated 
GBIs 38-44, a 14-silo Missile Field 2, and GS software development with 
associated M & S. During FY11, GMD continued manufacturing of 3-Stage 
CE-II interceptors, upgraded 3 GBIs, fielded GS upgraded software 
version 6B1.5, completed the Fort Greely Alaska (FGA) power plant 
construction, and conducted FTG-06a, a failed intercept test. The 
failure of FTG-06a initiated a GMD Return to Intercept (RTI) 
initiative. GBI manufacturing activities were adjusted to suspend the 
build-up of the EKV until the root cause was determined and design 
mitigations could be incorporated.
    The FY12 GMD appropriation was $1.159B, which included a General 
Congressional Reduction of $1.5M. During FY12, GMD plans to repurpose 
two (2) operational GBIs to support the RTI flight tests including 
control test vehicle-One (CTV-01) and FTG-06b, complete development of 
the FGA power plant, complete Missile Field 2, deliver a second fire 
direction center node at FGA, conduct the CTV-01 mission (non-intercept 
flight test) and FTG-06b (intercept flight test), and initiate 
manufacturing for GBIs 48-52 in the first quarter of FY12. GMD awarded 
the development and sustainment contract to Boeing, which provided the 
program with savings across the FYDP.
    The FY13 budget requested for GMD is $903.2M. The reductions in 
FY13 include the transfer of $5.8M for Defense Information Systems 
Agency (DISA) for the Command and Control, Battle Management, and 
Communications Program and a transfer of $20.7M for facilities support 
to the Program Wide Support account. During FY13, GMD will complete the 
RTI testing, correct deficiencies in existing CE-II interceptors, and 
restart interceptor manufacturing implementing the design solutions 
into the GBIs yet to be delivered. GMD will continue the manufacturing 
of GBIs 48-52 and initiate manufacturing for GBIs 53-57. GMD will 
commence construction of the IDT at Fort Drum, initiate planning for 
FTG-08 including the build-up of the second 2-Stage interceptor, 
planning for FTG-11, and continuing software development for both the 
interceptor and GS products.
    [See table in the Appendix on page 127.]
    Mr. Franks. The FYDP cuts missile defense funding by approximately 
$3.6 billion over the next four years based on the FY12 FYDP, yet the 
Administration still insists the EPAA is on budget and on schedule. Can 
you explain how the EPAA is unaffected despite such budget cuts?
    General O'Reilly. For the EPAA, THAAD is a potential surge asset on 
an as needed basis determined by request from the COCOM and adjudicated 
in the Global Force Management Process (GFMP) by OSD and the Joint 
Staff. The $3.6 billion in FY12 FYDP budget cuts were taken in THAAD 
and AN/TPY2 procurement accounts do not impact the EPAA schedule.
    Mr. Franks. EPAA is the U.S. contribution to NATO's newly adopted 
territorial missile defense mission. What can you tell us about the 
specific missile defense contributions our allies will be providing to 
the territorial missile defense mission, specifically: what is being 
done to ensure the United States isn't bearing the total burden of the 
EPAA program, and can we do this before knowing ourselves what these 
costs are?
    General O'Reilly. Our international allies are making significant 
contributions to the NATO territorial missile defense mission by 
hosting key EPAA assets within their respective countries. Turkey is 
hosting an AN/TPY-2 under Phase I of EPAA, Romania and Poland will host 
Aegis Ashore Sites beginning in Phase II and III respectively, and 
beginning in 2014, four multi-mission Arleigh Burke-class guided-
missile destroyers with BMD capability will be forward deployed to 
Rota, Spain in support of EPAA.
    As a result of a decision taken by NATO nations at the 2010 Lisbon 
Summit, the Active Layered Theater Ballistic Missile Defense (ALTBMD) 
program is being expanded to include the territorial missile defense 
mission. The ALTBMD Program is a NATO common funded command and control 
system that will enable real-time information exchanges between NATO 
and national missile defense systems. NATO will issue force goals for 
territorial missile defense in 2013 and invite nations to pledge 
missile defense assets for territorial missile defense. To date, the 
Netherlands, France and Germany, have all made political commitments to 
provide missile defense systems for territorial missile defense of 
Europe. The Netherlands, has offered to provide up to four frigates 
with upgraded SMART-L radars, beginning in 2017 for the NATO 
territorial missile defense mission. France has offered to provide 
satellite capabilities for early detection and warning as well as a 
long-range early warning radar for territorial missile defense. Germany 
has also committed to provide PATRIOT batteries for the same. Many 
other NATO nations are discussing upgrading shipboard sensors to enable 
BMD detection, tracking and cueing functions. We fully expect as NATO 
establishes force planning goals for territorial missile defense, that 
other NATO nations will offer their national missile defense systems, 
both land and sea-based for territorial missile defense of NATO Europe.
    Finally, it is important to note that the United Kingdom and 
Denmark already provided additional critical contributions to the BMDS 
and U.S. Homeland Defense by hosting upgraded early warning radars at 
Fylingdales and Thule respectively.
    Mr. Franks. Iran has been undertaking a series of space launches 
for at least the past three years. Former Vice Chairman of the Joint 
Chiefs of Staff General Hoss Cartwright stated that space launches can 
translate into improvements to an ICBM program. In your opinion, what 
does Iran learn from these space launches that can inform its ICBM 
program?
    General O'Reilly. In general, space launch events can reveal 
progress to successfully achieving technical capabilities directly 
applicable to the development of ICBMs such as staging, guidance, and 
propulsion. Space launch events do not however, demonstrate the 
survivability of a re-entry vehicle. The analysis required to assess 
what Iran may learn from these space launches is a core competency of 
the Intelligence Community, specifically in this area the National Air 
and Space Intelligence Center. That organization is best suited for 
questions pertaining to foreign ICBM development.
    Mr. Franks. The SM-3 Block IIB interceptor is planned for 
deployment by 2020 to improve protection of the U.S. homeland against 
potential ICBM attack as part of Phase 4 of the EPAA. The FY13 budget 
request provides an additional $1.9 billion to the SM-3 Block IIB 
development program across the Future Years Defense Program (FYDP). How 
much more funding will be necessary to develop and deploy this system 
beyond what's in the FYDP, how did last year's funding cut to this 
system change the schedule for fielding this system, and will the SM-3 
Block IIB design be optimized for ICBM intercept capabilities?
    General O'Reilly. MDA's cost estimate is that $1.1 B is needed 
beyond the FYDP to complete the development and initial fielding of the 
system. The Office of the Secretary of Defense (OSD) Cost Assessment 
and Program Evaluation (CAPE) is conducting an independent estimate to 
be completed in June.
    The FY12 funding reduction delayed the overall program schedule by 
approximately 4 months, though the SM-3 Block IIB is still planned for 
initial deployment in the 2020 timeframe.
    The SM-3 Block IIB design is being optimized for its primary 
mission to counter first generation ICBMs targeted at the U.S. homeland 
as a first and independent interceptor layer.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. What is the value of the EPAA? What other regional 
PAA architectures are being considered?
    Dr. Roberts. The missile defenses that are deployed as part of the 
European Phased Adaptive Approach (EPAA) protect U.S. deployed forces, 
allies, and partners in Europe. In addition, the EPAA will contribute 
directly to the ballistic missile defense of the U.S. homeland with the 
deployment of the SM-3 Block IIB interceptor and a forward-based AN/
TPY-2 radar.
    The EPAA is a strong symbol of the continued U.S. commitment to 
NATO, an alliance that has served our interests for more than six 
decades. By deploying the EPAA in a NATO context, we have increased the 
potential for additional Allied contributions because all contributions 
will be under the framework of a NATO effort in support of collective 
security. For example, NATO has agreed to pay for the expansion of 
Active Layered Theater Ballistic Missile Defense (ALTBMD) with NATO 
common funding.
    Efforts to improve missile defenses in the Middle East and Asia-
Pacific are ongoing. The approaches in these regions are being tailored 
to the threats and circumstances unique to those regions.
    Mr. Langevin. What did we accomplish in phase 1 of the EPAA? Are we 
on track to meet the ambitious goals of phase 2, 3 and 4?
    Dr. Roberts. The elements of the first phase of EPAA are now in 
place. Phase 1 began with the upgrade to the command and control system 
in Ramstein, Germany, followed by the deployment of a BMD-capable ship 
for the defense of NATO mission in March 2011. We have continued to 
maintain a ship with missile defense capability in the region since 
that time. In December 2011, the United States deployed a forward-based 
radar to Turkey, and that radar is fully operational. Associated 
command and control capabilities, integrating the C2BMC at Ramstein Air 
Base in Germany and NATO's Active Layered Theater Ballistic Missile 
Defense (ALTBMD) Interim Capability, are now operational.
    For EPAA Phases 2 and 3, the basing agreements required to deploy 
Aegis Ashore sites in Romania and Poland have been signed and have 
entered into force for the sites to become operational in the 2015 
timeframe and 2018 timeframe, respectively. The SM-3 Block IB is on 
track to be deployed to Aegis BMD-configured ships and the Romanian 
Aegis Ashore site. This interceptor recently conducted a successful 
flight-test mission in May 2012. Two additional flight tests using more 
complex scenarios and targets are scheduled later this year. In 
addition, the more capable SM-3 Block IIA (intended to address longer 
range threats) is on track to be deployed on Aegis BMD-configured ships 
and at the Aegis Ashore sites in 2018. Flight testing is planned and 
scheduled to occur well in advance of this deployment.
    With respect to EPAA Phase 4, the Department has awarded contracts 
to three prime contractors for concept development of a more advanced 
version of the SM-3 interceptor, the Block IIB. Due to funding cuts in 
Fiscal Year (FY) 2012, the deployment of this program has been delayed 
one year to 2021.
    We have also taken steps to support the requirement for sea-based 
BMD capabilities in all phases of the EPAA. Spain has agreed to host 
four U.S. Aegis destroyers at the existing naval facility at Rota. 
These multi-mission ships will support the EPAA, as well as other U.S. 
European Command and NATO maritime missions. The first two ships are 
scheduled to arrive in 2014, and two more ships will arrive in 2015.
    Mr. Langevin. How does the FY13 budget request preserve some of the 
important investments made on the directed energy program?
    Dr. Roberts. The FY13 budget request preserves directed-energy 
program investment efforts and builds on knowledge gained in developing 
and testing the airborne laser test bed (ALTB) lasers and beam control 
system. The ALTB's complexity drove the Missile Defense Agency (MDA) to 
pursue compact, efficient electric lasers for operation at high 
altitude, where the need for atmospheric compensation is minimized and 
laser beam jitter is greatly reduced.
    In operating the ALTB, MDA gathered terabytes of acquisition and 
tracking algorithms and missile vulnerability test data to anchor 
directed-energy models and simulations. The budget request aims to 
preserve this knowledge base. Further, it expands the base's usefulness 
by re-hosting the data and providing a user-friendly interface to help 
design the next-generation airborne laser system. MDA's budget request 
also maintains key intellectual capital, and invests $15.2M in FY13 for 
laser development at Lawrence Livermore National Laboratory and MIT 
Lincoln Laboratory Both laboratories are able to maintain core 
expertise at this funding level.
    The budget further provides $7.4M in FY2013 for high-altitude 
environment testing. MDA plans to use a surrogate platform, such as the 
Phantom Eye, to collect and quantify the benefits of high-altitude low-
mach flight for laser operation. Data previously collected by the ALTB 
and other DOD programs is being used as a baseline to quantify the 
benefits of high-altitude, low-mach flight.
    There is $2.6M in the FY13 budget request to begin definition and 
component development for a next-generation airborne laser for missile 
defense. This will give industry an avenue to invest in efficient 
lasers, lightweight beam control components, modeling and simulation, 
and target lethality for missile defense missions.
    Mr. Langevin. Why do we need regional missile defense and whom do 
these systems protect? And how does the EPAA contribute to homeland 
defense?
    Dr. Roberts. The threat from short-range, medium-range, and 
intermediate-range ballistic missiles (SRBMs, MRBMs, and IRBMs) in 
regions where the United States deploys forces and maintains security 
relationships exists today and continues to grow, both quantitatively 
and qualitatively.
    To address the rapid growth in regional ballistic missile threats, 
the United States has begun deploying phased adaptive approaches in 
regions where U.S. deployed forces, allies, and partners are 
threatened. The first application of this phased approach was in 
Europe, but the United States also maintains a missile defense presence 
in the Middle East and the Asia-Pacific that will be tailored to the 
threats and circumstances unique to those regions.
    Phase Four of the EPAA will directly contribute to homeland defense 
through the deployment of the SM-3 IIB. When deployed in Europe, the 
SM-3 IIB serves as the first tier of a layered defense of the U.S. 
homeland from potential ICBM threats from the Middle East.
    Mr. Langevin. What is the value of Precision Tracking Space System 
and has it been tested? Is it duplicative of existing or future 
capabilities?
    General O'Reilly. The Precision Tracking Space System (PTSS) 
provides benefits in two areas, one, resulting from its persistent 
global space based coverage and the other from its infrared sensor.
    Space based sensors are valuable to national security because they 
are persistent, provide access to denied regions and have low 
operations and sustainment costs.
    <bullet>  Persistence. By operating from space, PTSS provides 
persistent tracking access to 70% of the Earth's surface for homeland 
and regional defense by covering the gaps in our existing sensor 
coverage, and specifically for coverage regional threat areas. PTSS can 
cover territory that is outside the field of view of airborne, sea, and 
land-based sensors, for example, territory hidden by the curvature of 
the Earth or out of range.
    <bullet>  Guaranteed access. PTSS has unfettered access in a way 
that land and air based sensors do not. With PTSS, host nation 
agreements are not necessary, nor are basing or over-flight rights, 
which are required for other land and airborne sensors.
    <bullet>  Low operations and sustainment costs. PTSS will perform 
its mission at operations and sustainment rates significantly lower 
than those traditionally associated with terrestrial radars like the 
AN/TPY-2 radar. The O&S cost of the entire PTSS system is less than the 
annual O&S of two TPY-2's.
    The infrared payload on PTSS satellites provides unique technical 
capabilities for missile defense.
    <bullet>  When combined with radar data, PTSS infrared data 
provides the BMDS data to better discriminate among threat objects.
    <bullet>  PTSS will, for the first time, operationally track 
missile objects in the same infrared phenomenology as the kill vehicle, 
making threat target hand-off more effective.
    PTSS Testing. PTSS is in the early steps of development and full 
system testing will begin immediately after first launch (4QFY17). As a 
precursor, the Space Tracking and Surveillance System (STSS) 
demonstration satellites currently on orbit are providing technical 
information and proving the value and concepts associated with PTSS. 
STSS has participated in a number of recent BMD flight tests. In 
3QFY11, during Flight Test Mission-15, the U.S. Navy Aegis BMD weapon 
system simulator in San Diego conducted a simulated intercept using 
STSS tracking data and projected PTSS concept of operations received 
from the BMDS. Moreover, the PTSS satellite design is based on mature, 
high technical readiness level, qualified space components.
    PTSS is not duplicative of other space capabilities. Unlike the 
Earth-pointing infrared sensors of the early warning satellites, PTSS 
features a side-pointing, infrared sensor that can track threat 
missiles through flight. This side-pointing capability is not available 
from any other operational or planned sensors today.
    Mr. Langevin. How does the new missile defense test plan increase 
reliability of our missile defense systems?
    General O'Reilly. The Agency's test plan itself does not increase 
reliability. Reliability improvements are confirmed or verified through 
component-level and system-level testing on the ground at maximum 
predicted environments. Components are then assembled into complete 
interceptors for confirmation in system-level flight tests. When ground 
or flight testing identifies shortcomings, MDA addresses them through 
design improvements. The recently awarded GMD Development and 
Sustainment Contract (DSC) aggressively address reliability 
improvement. First, the DSC requires the contractor to address known 
shortcomings with design improvements in both new and upgraded 
interceptors. Second, the contract requires additional extensive ground 
testing of interceptor components to validate current reliability 
predictions, or identify additional areas for improvement through 
redesign and replacement. Finally, the DSC dramatically enhances 
Stockpile Reliability Program activity to test and track aging effects 
on the fielded systems.
    Mr. Langevin. What is the value of the EPAA? What other regional 
PAA architectures are being considered?
    General O'Reilly. The European Phased Adaptive Approach (EPAA) 
capability which is adaptable to the predicted threat and flexible for 
protection of NATO allies, U.S. deployed forces, and infrastructure 
against increasingly capable ballistic missiles. In its later stages, 
the EPAA will enhance and augment the Ground-based Midcourse Defense 
system in protection of the U.S. homeland against future limited 
intercontinental ballistic missile threats from projected regional 
threats.
    Questions related to other regional PAAs should be addressed tothe 
Under Secretary of Defense for Policy, the Department of Defense lead 
on this issue.
    Mr. Langevin. What did we accomplish in phase 1 of the EPAA? Are we 
on track to meet the ambitious goals of phase 2, 3 and 4?
    General O'Reilly. Last year MDA supported certification and 
deployment of Phase 1 of the European Phased Adaptive Approach (EPAA) 
consisting of command and control in Germany, a forward-based radar in 
Turkey, and an Aegis Ballistic Missile Defense (BMD) ship in the 
Eastern Mediterranean Sea. Critical BMDS regional capabilities were 
demonstrated in April 2011, conducting an Aegis BMD flight test (FTM-
15) using the SM-3 Block IA interceptor launched using track data from 
the AN/TPY-2 radar passed through the C2BMC system to intercept an 
Intermediate-Range Ballistic Missile (IRBM) target. This mission also 
was the first Launch-on-Remote Aegis engagement and intercept of an 
IRBM with the SM-3 Block IA.
    MDA remains on track to meet Phase 2 development and deployment. 
MDA supported successful negotiations for host nation agreements to 
deploy Aegis Ashore batteries to Romania (Phase 2) and Poland (Phase 
3); installation of the Aegis BMD 3.6.1 weapon system on three Aegis 
ships; upgrade of one Aegis BMD ship to Aegis BMD 4.0.1 (increasing the 
Aegis BMD fleet to 22 operationally configured BMD ships); and delivery 
of 19 SM-3 Block IA interceptors and the first SM-3 Block IB 
interceptor.
    For EPAA Phases 3 and 4, the SM-3 Block IIA interceptor, being co-
developed with the Japanese government, remains on schedule for 
deployment at an Aegis Ashore site in Poland and at sea in 2018. This 
year the SM-3 Block IIA preliminary and component design reviews will 
finish and development of Aegis BMD 5.1 fire control system with 
expected certification in 2018. Last year risk reduction contracts were 
awarded for the Block IIB missile sub-system components, including 
advanced propulsion, seeker, and lightweight material technologies and 
we awarded concept design contracts for the SM-3 Block IIB interceptor 
to three aerospace industry teams. The Request For Proposal and source 
selection for the SM-3 Block IIB Product Development Phase is on track 
to begin in early 2014. The Precision Tracking Satellite System (PTSS) 
development is on schedule as are the plans for a launch of the first 
two units by fiscal year 2017.
    Finally, I would like to note that MDA took steps in the planning 
of EPAA to minimize the risk of accomplishing the goals. For example, 
the early phases of the approach consist of application of mature 
programs to the European theater. Some examples are the use of 
certified software programs (Aegis 4.01) and early flight testing of 
the SM-3 IB interceptor well in advance of its expected IOC (4 years). 
The design, build and deployment for the Aegis Ashore test site at PMRF 
serves as a risk reduction effort for the Phase 2 and Phase 3 Aegis 
Ashore fielding plan. The development plan for the Block IIA was 
extended by 2 years to allow for sufficient development and test to 
occur prior to the commit date. Finally, the Phase 4 approach includes 
program development timelines that are consistent with historical 
acquisition timelines for similar products. Specifically, over 6 years 
for the SM-3 Block IIB product development to production decision (5-6 
years for other MDA missile programs) and 5 years for the PTSS, in-line 
with historical acquisition timelines for satellites of this mass (1600 
kg in less than 6 years). These items, along with our historical 
success with fielding systems on time give me the confidence that we 
will continue to meet the attainable goals of EPAA. We do not assess 
the goals of EPAA phases 2, 3, and 4 as ambitious.
    Mr. Langevin. How does the FY13 budget request preserve some of the 
important investments made on the directed energy program?
    General O'Reilly. The FY13 budget request builds on Airborne Laser 
Test Bed (ALTB) knowledge gained in developing and testing ALTB's 
multiple lasers and beam control system. ALTB's complexity drove the 
Missile Defense Agency's (MDA) pursuit of compact, efficient electric 
lasers for operation at high altitude where the need for atmospheric 
compensation is minimized and laser beam jitter is greatly reduced.
    MDA's budget request maintains key intellectual capital. The budget 
invests $12.4M in FY13 for laser development at Lawrence Livermore 
National Laboratory (LLNL) and MIT Lincoln Laboratory (MIT/LL). Both 
laboratories are maintaining core expertise.
    The budget also funds $8.2M in FY13 for high environment altitude 
test. The Agency plans to use a surrogate platform, such as the Phantom 
Eye, to collect and quantify the benefits of high altitude low mach 
flight for laser operation. Data previously collected by the ALTB and 
other DOD programs will be used as a baseline to quantify the benefits 
of high-altitude low-mach flight.
    In addition, the budget provides $3M in FY13 to begin component 
development for and concept definition of a next-generation airborne 
laser for missile defense. This provides industry an avenue to apply 
investments in efficient lasers, lightweight beam control components, 
modeling and simulation and target lethality to MDA missions.
    MDA captured terabytes of acquisition and tracking algorithms and 
missile vulnerability test data to anchor directed energy models and 
simulations by operating the ALTB. The budget preserves this knowledge 
base and expands its utility by re-hosting the data and providing a 
user friendly interface to aid in the design of the next-generation 
airborne laser system.
    Mr. Langevin. What is our current hedging capability for homeland 
defense?
    General O'Reilly. While the Missile Defense Agency has provided 
analysis supporting Hedge options, this effort is under the purview of 
the Under Secretary of Defense for Policy (USDP), and I would defer to 
USDP on this question.
    Mr. Langevin. Why do we need regional missile defense and whom do 
these systems protect? And how does the EPAA contribute to homeland 
defense?
    General O'Reilly. [The information referred to is classified and 
retained in the subcommittee files.]
    Mr. Langevin. Why is the Administration requesting $400 million in 
FY13 for MEADS? And how is the Administration implementing FY12 NDAA 
legislation to seek to reduce costs and close out the program with FY12 
funds? Is the Secretary of State engaged, in addition to the Secretary 
of Defense?
    Mr. Ahern. As with other cooperative Memoranda of Understanding 
(MOUs), the Department considers the MEADS Design and Development (D&D) 
MOU to be legally binding on the nations, albeit subject to the 
availability of funds. The Administration has requested funding in the 
Fiscal Year (FY) 2013 budget to complete our international obligations 
as agreed under the MEADS D&D MOU with the other program participants--
the German Federal Ministry of Defense and the Italian Ministry of 
Defense--and consistent with the three participants' direction to 
restructure the contract in April 2011. The NATO MEADS Management 
Agency issued contract Amendment 26 to MEADS, International on October 
31, 2011 to implement the participants' direction for restructuring the 
MEADS D&D program to a significantly reduced scope MEADS Proof of 
Concept (PoC) effort. This mutually agreed PoC effort, which will 
complete development and testing of MEADS elements and provide the 
participants with a useful data package for the future missile defense 
activities of each of the nations, requires 2012 and 2013 funding from 
the U.S. and partner nations, recognizing that, in accordance with MOU 
paragraph 19.1, actual funds availability from each nation is subject 
to appropriation by the participants' respective legislative bodies.
    In accordance with the FY 2012 National Defense Authorization Act 
(NDAA), the Department has repeatedly consulted and attempted to 
negotiate with our international partners, the German Federal Ministry 
of Defense and the Italian Ministry of Defense, regarding development 
of a plan to further restructure the program in the event that Congress 
does not authorize or appropriate FY 2013 funding to complete our MOU 
obligations. We have directly informed the German and Italian 
participants that there is significant risk that FY 2013 funding may 
not be made available by the Congress. While DOD is the U.S. 
participant in the MOU, we have worked closely with officials in the 
Department of State (including the Ambassadors and country team members 
in the U.S. Embassies in Germany & Italy), who have provided DOD with 
useful advice and support.
    In response to our attempts to engage in discussions, our partners 
have made clear to the Department that they remain fully committed to 
their MOU obligations and expect that all participants will provide 
their 2013 funding to complete the PoC effort. They have also made 
clear that we are too late in the development effort to change course 
again and that we jeopardize our ability to realize the benefits of the 
program if we renege on our nine-year agreement near the end of the 
eighth year. The fact remains that, while we have aggressively engaged 
with our partners to complete MEADS MOU efforts using only FY 2012 
funding, we cannot force them to agree to this course of action.
    More broadly, while the Department understands the need to make 
difficult choices in the current fiscal environment concerning funding 
for all of our activities, we also note that failure to meet our MEADS 
MOU funding obligations for FY 2013 could negatively affect our allies' 
implementation of current transatlantic projects and multinational 
cooperation--as well as their willingness to join future cooperative 
endeavors with the United States--that are strongly supported by the 
Administration and Congress. In fact, the ramifications of failing to 
provide funds for this program which is so near completion could impact 
our relationship with our allies on a much broader basis than just 
future cooperative projects.
    Mr. Langevin. How does the new missile defense test plan increase 
reliability of our missile defense systems?
    Dr. Gilmore. Identification and correction of failure mechanisms 
accomplished through a rigorous program of flight and ground testing 
increases the reliability of the BMDS. The newest Integrated Master 
Test Plan (IMTP), Version 12.1, is designed to collect important 
performance data on each of the elements of the Ballistic Missile 
Defense System (BMDS). The Missile Defense Agency (MDA) will use the 
data to verify and validate the models and simulations (M&S) that the 
Ballistic Missile Defense System (BMDS) Operational Test Agency will 
accredit and use to assess element performance. In conjunction with 
modeling and simulation, executing the IMTP will enable quantitative 
statistical assessments of the reliability and performance of all the 
elements of the BMDS. These statistical assessments will identify the 
known failure mechanisms that most impact system reliability in the 
context of their expected operational uses, and thus the highest 
priorities for reliability improvements. Executing the IMTP will, as it 
has already done, identify unexpected or otherwise unknown failure 
mechanisms, thereby enabling those to be fixed. In this way, the 
rigorous program of flight and ground testing in the IMTP increases the 
reliability of the BMDS.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH
    Mr. Heinrich. Given what we have learned from the Airborne Laser 
program, can you expand on any near- or medium-term applications for 
directed energy weapons in the ballistic missile defense architecture?
    General O'Reilly. The Airborne Laser program was able to collect 
data on tracking and atmospheric compensation, system jitter, boundary 
layer effects on propagation, and prove the lethality of a directed 
energy weapon for missile defense. Current funding supports an airborne 
demonstration of a newly developed laser with test beginning in 2020. 
During that test period, MDA will explore directed energy in the full 
spectrum of missile defense missions including tracking, discrimination 
and, eventually, lethal boost phase defense.
    Mr. Heinrich. Is the $46 million for R&D requested in FY13 
sufficient to maintain the brain trust that has enabled the recent 
advancements in directed energy?
    General O'Reilly. The Missile Defense Agency's budget request is 
less than the FY12 Budget request but maintains much of the core 
expertise. The $46M R&D budget request includes: $20.6M for directed 
energy activities; $12.4M for laser development; and $8.2M for high 
altitude test and concept definition.
    Laser expertise at Lawrence Livermore National Laboratories went 
from 39 personnel to 29 personnel; Program Office support contractors 
were maintained at 11 at Kirtland Air Force Base; industry contractor 
expertise was decreased from 22 to 9 contractors in support of high 
altitude environment testing and concept definition.
    Mr. Heinrich. The Congress was clear in the FY12 National Defense 
Authorization Act that the $389 million appropriated in that year 
should be the final expenses for the program. Can you explain why the 
President's budget request includes another $400 million for this 
program which the United States does not intend to procure?
    Mr. Ahern. Section 235 of the National Defense Authorization Act 
(NDAA) for Fiscal Year (FY) 2012 (P.L. 112-81) requires the Department 
to submit a plan to use FY 2012 funding for MEADS as final obligations 
for either implementing a restructured program of reduced scope or 
funding termination liability costs. In accordance with the FY 2012 
NDAA, the Department has repeatedly consulted and attempted to 
negotiate with our international partners, the German and Italian 
Ministries of Defense, regarding development of a plan to further 
restructure the program in the event that Congress does not authorize 
or appropriate FY 2013 funding to complete our MEADS Design and 
Development Memorandum of Understanding (MOU) obligations. We have 
advised Germany and Italy at the highest levels that there is 
significant risk that FY 2013 funding may not be made available by the 
Congress. In response, our partners have made clear to the Department 
that they remain fully committed to their MOU obligations and expect 
that all program participants will provide their 2013 funding to 
complete the PoC effort. They have also made clear that we are too late 
in the development effort to change course again and that we jeopardize 
our ability to realize the benefits of the program if we renege on our 
nine-year agreement near the end of the eighth year. Although we have 
aggressively engaged with the other MOU participants to seek to 
complete MEADS MOU efforts using only FY 2012 funding, we cannot force 
them to agree to this course of action.
    As with other cooperative MOUs, the Department considers the MEADS 
D&D MOU to be legally binding on the nations, recognizing that our 
financial responsibilities under such MOUs are subject to the 
availability of funds appropriated for such purposes. The 
Administration has requested funding in the FY 2013 budget to fulfill 
our MOU responsibilities vis-a-vis our international partners, Germany 
and Italy, and consistent with the three Nations' direction to 
restructure the contract in April 2011.
    In furtherance of the MOU participants' direction, the NATO MEADS 
Management Agency issued contract Amendment 26 to MEADS, International 
on October 31, 2011 to implement the Nations' direction to restructure 
the MEADS Design and Development as a significantly reduced scope Proof 
of Concept (PoC) effort. This mutually agreed PoC effort will complete 
development and testing of MEADS elements and provide the Participants 
with a useful data package for the future missile defense activities of 
each of the nations. The President's Budget request for approximately 
$401M in FY 2013 funding was submitted in order to realize these 
objectives.
    More broadly, while the Department understands the need to make 
difficult choices in the current fiscal environment concerning funding 
for all of our activities, we also note that failure to meet our MEADS 
MOU funding obligations for FY 2013 could negatively affect our allies' 
implementation of current transatlantic projects and multinational 
cooperation--as well as their willingness to join future cooperative 
endeavors with the United States--that are strongly supported by the 
Administration and Congress. In fact, the ramifications of failing to 
provide funds for this program which is so near completion could impact 
our relationship with our allies on a much broader basis than just 
future cooperative projects.
    Mr. Heinrich. With MEADS no longer planned as the replacement for 
Patriot in the 2017 timeframe, what actions and investments are 
required by the Army, and when, to operate and sustain the legacy 
Patriot system beyond 2017? Are any of these funded in the FY12 
request?
    Mr. Ahern. Patriot is deployed to protect U.S. forces and key 
assets from Tactical Ballistic Missile, Air and Cruise Missile threats. 
The Army's Patriot modernization strategy is critical given U.S. plans 
not to procure the MEADS system. Modernization includes upgraded 
Patriot launchers and radars, the PAC-3 Missile Segment Enhancement 
(MSE) missile, net-centric communication and software upgrades. 
Modernization also hinges on integration with the Integrated Battle 
Command System (IBCS). IBCS will connect Patriot with the Joint 
Integrated Air and Missile Defense Network, enabling inter-service 
connectivity and visibility for multiple Air and Missile Defense 
platforms. IBCS will field to U.S. Patriot battalions beginning in 
Fiscal Year (FY) 2016. All Patriot battalions are now equipped with 
PAC-3 missile hit-to-kill capability. The MSE missile will provide a 
larger engagement envelope and increased probability of kill against 
Tactical Ballistic Missiles, Air Breathing Threats and Cruise Missiles. 
The Army has 15 Patriot PAC-3 battalions, currently 50% deployed, 
forward stationed or on Prepare to Deploy Orders. This includes two 
battalions funded through the Grow the Army effort. The current program 
plan is to procure 84 PAC-3 missiles in FY 2013 and transition to MSE 
procurement beginning in FY 2014, with a first year procurement of 56 
MSE missiles. The Army also plans to procure 38 Electronic Launcher 
Enhanced Systems (ELES) upgrades in FY 2013, increasing the PAC-3 hit-
to-kill capability within Patriot battalions.
    The Army has programmed significant modernization initiatives 
across FY 2013-2017, which are even more important in light of the plan 
to end U.S. participation in MEADS. The Preplanned Patriot Product 
Improvement Program provides for the upgrade of the Patriot System 
through individual materiel changes. It upgrades the Patriot system to 
address operational lessons learned, enhancements to joint force 
interoperability, and other system performance improvements to provide 
overmatch capability with the emerging threat. Efforts will be made to 
expedite Patriot materiel solutions (e.g. Radar Digital Processor, 
Communications Upgrades, Radars on the IBCS Net) to both enhance 
capability and facilitate integration into the IAMD architecture. Table 
1 below provides the Project Justification for Preplanned Patriot 
Product Improvements and missile procurement from the Army's 2013 
budget.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    X.epsThe Post-Deployment Software Build (PDB) 7 (with Modernized 
Adjunct Processor) Initial Operating Capability (IOC) is planned for 
the first quarter of FY 2013. Radar Digital Processor (RDP) development 
will continue through FY 2014, with PDB 8 (with RDP) IOC in the first 
quarter of FY 2016. The Department will continue to refine the Patriot 
evolutionary development based on information gained from the MEADS 
Proof of Concept and results of ongoing Army, Joint Staff, and OSD 
reviews and studies of air and missile defense requirements.
    Mr. Heinrich. Does the Army see a need to improve or upgrade 
Patriot's capabilities? If so, what is the estimated cost of such 
improvements or upgrades as compared to the cost to complete MEADS 
development and production?
    Mr. Ahern. The Army has programmed significant modernization 
initiatives across Fiscal Years (FY) 2013-2017, which are even more 
important in light of the U.S. plan not to participate in MEADS 
production. The Preplanned Patriot Product Improvement Program provides 
for the upgrade of the Patriot System through individual materiel 
changes. It upgrades the Patriot system to address operational lessons 
learned, enhancements to joint force interoperability, and other system 
performance improvements to provide overmatch capability with the 
emerging threat. Efforts will be made to expedite Patriot materiel 
solutions (e.g. Radar Digital Processor, Communications Upgrades, 
Radars on the Integrated Battle Command System Net) to both enhance 
capability and facilitate integration into the Integrated Air and 
Missile Defense (IAMD) architecture. Table 1 below provides the Project 
Justification for Preplanned Patriot Product Improvements and missile 
procurement from the Army's 2013 budget.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    X.epsThe Post-Deployment Software Build (PDB) 7 (with Modernized 
Adjunct Processor) Initial Operating Capability (IOC) is planned for 
the first quarter of FY 2013. Radar Digital Processor (RDP) development 
will continue through FY 2014, with PDB 8 (with RDP) IOC in the first 
quarter of FY 2016. The Department will continue to refine the Patriot 
evolutionary development based on information gained from the MEADS 
Proof of Concept and results of ongoing Army, Joint Staff, and OSD 
reviews and studies of air and missile defense requirements.
    The Department has requested $401 million in FY 2013 to complete 
the MEADS development effort and our international obligations under 
the MEADS Memorandum of Understanding. The DOD and the other MEADS 
Participants seek the results of the final two years of the Proof of 
Concept effort, the completed design and testing of the MEADS elements, 
the capability demonstrations, and the data archival and performance 
reporting in order to assess fully which elements or technologies would 
be available to transition to existing air and missile defense 
architectures. Until this critical design and performance data is 
available, no firm or final decisions can be made, but multiple MEADS 
technologies/capabilities/data might be harvested to benefit U.S. air 
and missile defense if the restructured MEADS D&D contract is 
completed. The MEADS Proof of Concept facilitates demonstration of the 
advanced, rotating multi-function fire control radar and the 
lightweight/360-degree launcher; and the design and limited 
demonstration of an advanced surveillance radar, all of which would be 
considered in follow-on efforts to enhance air and missile defense once 
MEADS is completed. The system demonstrations in 2012 and 2013 would 
prove the maturity of design and set the stage for potential European 
follow-on efforts and U.S. harvesting decisions. Given the decision to 
not procure MEADS systems, the DOD has not conducted a formal cost 
estimate for the production of MEADS, but as reported in the December 
31, 2011 Select Acquisition Report on MEADS, the baseline Program 
Acquisition Unit Cost for a MEADS Fire Unit was estimated at $345 
million (base year 2004 dollars) and the baseline program called for 48 
fire units to be procured for a total cost of $16.5 billion.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
